<html>
<title> - OPERATION OF THE NATIONAL CONSTITUTION CENTER; PRESIDENT WILLIAM JEFFERSON CLINTON BIRTHPLACE HOME; VISITOR CENTER FOR THE VIETNAM VETERANS MEMORIAL; CAPTAIN JOHN SMITH CHESAPEAKE NATIONAL HISTORIC TRAIL; NATIONAL PARK SYSTEM ADVISORY BOARD; AND ADMINISTRATION OF CHANNEL ISLANDS NATIONAL PARK</title>
<body><pre>[Senate Hearing 109-547]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-547

 
   OPERATION OF THE NATIONAL CONSTITUTION CENTER; PRESIDENT WILLIAM 
   JEFFERSON CLINTON BIRTHPLACE HOME; VISITOR CENTER FOR THE VIETNAM 
  VETERANS MEMORIAL; CAPTAIN JOHN SMITH CHESAPEAKE NATIONAL HISTORIC 
   TRAIL; NATIONAL PARK SYSTEM ADVISORY BOARD; AND ADMINISTRATION OF 
                     CHANNEL ISLANDS NATIONAL PARK

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1686                               S. 2568

                           S. 2417                               H.R. 4192

                           S. 2419                               H.R. 4882

                           S. 2627                               S. Res. 468



                                     

                               __________

                              MAY 16, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-619                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Allen, Hon. George, U.S. Senator from Virginia...................     3
Boxer, Hon. Barbara, U.S. Senator from California................     6
Capps, Hon. Lois, U.S. Representative from California............     8
Feinstein, Hon. Dianne, U.S. Senator from California.............     4
Gallagher, Patricia, Executive Director, National Capital 
  Planning Commission............................................    23
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    14
Martin, Steve, Deputy Director, National Park Service, Department 
  of the Interior................................................    15
Noonan, Patrick, Chairman Emeritus, The Conservation Fund, 
  Arlington, VA..................................................    51
Pryor, Hon. Mark, U.S. Senator from Arkansas.....................     5
Robinson, Harry G., III, Consultant, TRG Consulting Studio, 
  Washington, DC, on behalf of the Vietnam Veterans Memorial Fund    40
Saikus, Rimantas (Ray), Vietnam Veteran, U.S. Army, 173rd 
  Airborne Brigade, 1968-1969, Cleveland, OH.....................    36
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............    11
Stevens, Hon. Ted, U.S. Senator from Alaska......................    13
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Warner, Hon. John W., U.S. Senator from Virginia.................    10

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    65

                              Appendix II

Additional material submitted for the record.....................    75


   OPERATION OF THE NATIONAL CONSTITUTION CENTER; PRESIDENT WILLIAM 
   JEFFERSON CLINTON BIRTHPLACE HOME; VISITOR CENTER FOR THE VIETNAM 
  VETERANS MEMORIAL; CAPTAIN JOHN SMITH CHESAPEAKE NATIONAL HISTORIC 
   TRAIL; NATIONAL PARK SYSTEM ADVISORY BOARD; AND ADMINISTRATION OF 
                     CHANNEL ISLANDS NATIONAL PARK

                              ----------                              


                         TUESDAY, MAY 16, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:29 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. OK, we'll call the committee to order. It 
may be a minute early, but we may get called a little earlier 
this afternoon, too. So, good afternoon. I wanted to welcome 
Deputy Director Steve Martin, from the National Park Service, 
and the other witnesses that we have here today.
    Our purpose for this hearing is to receive testimony on 
five Senate bills, one Senate resolution, and two House bills:
    S. 1686, a bill to amend the Constitutional Heritage Act of 
1988 to provide for the operations of the National 
Constitutional Center;
    S. 2417 and H.R. 4192, bills to authorize the Secretary of 
the Interior to designate the William Jefferson Clinton 
Birthplace Home in Hope, AK, as a National Historic Site and a 
unit of the National Park Service;
    S. 2419 and H.R. 4882, bills to ensure the proper 
remembrance of Vietnam veterans and the Vietnam War by 
providing a deadline for the designation of a visitor center 
for the Vietnam Veterans Memorial;
    S. 2568, a bill to amend the National Trail System Act to 
designate the Captain John Smith Chesapeake National Historic 
Site;
    S. 2627, a bill to amend the Act of August 21, 1935, to 
extend the authorization for the National Park System Advisory 
Board, and for other purposes; and,
    S. Res. 468, a resolution supporting the continued 
administration of the Channel Islands National Park, including 
Santa Rosa Island, in accordance with the law and the policies 
of the National Park Service.
    With all these bills, I've heard more about the visitor 
center for the Vietnam Memorial than the others. On the one 
hand, I've heard about delays approving the site for the 
underground center; on the other hand, I've heard of the need 
to satisfy all of the compliance requirements.
    Congress has approved the center, and I would hate to see 
delays, for bureaucratic reasons, but I understand the 
importance of determining possible impacts on the Mall before 
proceeding. Having this hearing, I hope we can find a way to 
get the job done in a reasonable amount of time without 
impacting the use and enjoyment of the Mall by future 
generations.
    S. Res. 468 is another item on today's agenda. I understand 
a provision has been added to the defense authorization bill in 
the House to ultimately allow military personnel to hunt deer 
and elk in the national park on Santa Rosa Island. As a former 
marine, I fully support activities to improve the morale of 
members serving. However, it's my hope that a hearing such as 
this can determine if hunting in the national park is an 
appropriate way to reward our veterans.
    We look forward to hearing the testimony of these and other 
bills. And we thank the witnesses for being here today.
    Let's see if we have any opening statements.
    Senator Allen.
    Senator Allen. Mr. Chairman, I'll yield to the ranking 
member, Senator Akaka.
    Senator Thomas. Thank you. That was my mistake.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman.
    We have several interesting legislation proposals today on 
our agenda, and I would be--I would like to make some brief 
comments about them.
    The first item is S. 2419, and its House-passed 
counterpart, H.R. 4882, which would select a site for the 
visitor center that was authorized 3 years ago for the Vietnam 
Veterans Memorial. The preferred site is a parcel of land 
across from the memorial. Perhaps more than any other memorial 
in our Nation's capital, the Vietnam Veterans Memorial is a 
symbol of what a successful memorial should be: unforgettable 
architecture and a source of remembrance and healing.
    I am a proud supporter of the proposal to build an 
underground visitor center to help educate new generations 
about the war and the Americans who fought there. I'm also 
mindful of our responsibility as stewards of the National Mall 
and the laws this committee has put in place to protect the 
Mall, and to ensure that all new construction proposals undergo 
a vigorous review and approval process.
    I understand that the proposed location for the visitor 
center has received preliminary approval from two of the three 
agencies involved, but still awaits a decision from the 
National Capital Planning Commission. It is my hope that we can 
move forward in a timely manner with this review and approval 
process so that construction of the new visitor center is not 
unduly delayed. I look forward to hearing more about this from 
the witnesses who will be testifying on this bill.
    The second issue I would like to comment on is Senators 
Feinstein and Boxer's resolution concerning the management of 
Santa Rosa Island, which is part of the Channel Islands 
National Park. The island has a long and complicated history, 
but in 1986 the people of the United States paid almost $30 
million to acquire the island to be managed as part of the 
national park. In accordance with the court-approved 
settlement, the pre-existing commercial hunting operation will 
be phased out within the next 5 years, and, at that time, the 
island will be managed consistent with other national parks, 
allowing for public recreation and enjoyment, while protecting 
the island's native plant and animal species.
    As you know, last Congress there was an attempt made, as 
part of the Department of Defense authorization bill, to change 
the island's status and to allow for continued hunting 
opportunities for members of the armed forces, disabled 
veterans, and their guests. Although that proposal did not 
succeed, the issue has been included again this year in the 
House version of the DOD authorization bill.
    While I certainly support hunting and other recreational 
activities for veterans, I don't believe it is appropriate to 
use a national park for that purpose, and I hope we can keep 
the debate over the management of a national park in this 
committee, where it belongs.
    Finally, I would like to express my support for the 
proposal to designate President Clinton's boyhood home as a 
national historic site, and the Captain John Smith Water Trail 
as a National Historic Trail. I understand that the Park 
Service has not completed its studies on either proposal; 
however, in my view, both are clearly nationally significant, 
and in these specific cases I don't believe that proceeding 
with the designation will complicate their future management.
    Mr. Chairman, I would like to extend a warm welcome to all 
of our witnesses who are here to testify this afternoon. I look 
forward to hearing them.
    Thank you very much.
    Senator Thomas. Thank you, Senator.
    Now, Senator Allen.

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    I appreciate the opportunity to speak about a very 
important time, place, and individual in the history of the 
United States.
    And I was glad to hear Senator Inouye's--excuse me, Senator 
Akaka's comments on the Captain John Smith Chesapeake National 
Historic Trail Designation Act. Almost 400 years ago, Captain 
John Smith was one of America's earliest English explorers, and 
he sailed into the mostly uncharted waters of the Chesapeake 
Bay and its tributaries. Captain John Smith was one of the key 
founders of the settlement at Jamestown. He spent 3 years, 
we'll find from the testimony--and I see my colleagues are here 
from Virginia and Maryland, but he spent 3 years--1607 through 
1609--exploring and mapping the Chesapeake Bay and its 
tributaries in Virginia, Maryland, Delaware, and parts of 
Pennsylvania, covering about 3,000 miles. These maps were some 
of the most accurate early maps of the whole Chesapeake Bay 
region. His voyages took him--and we'll see the maps. And he 
did make a comment. He said, quote, ``Heaven and Earth never 
agreed better to frame a place for man's habitation.'' Well, 
judging by the population of Virginia and Maryland and Delaware 
and Pennsylvania, he proved to be correct.
    Most importantly, and why we need action--and I thank you, 
Mr. Chairman, for having this hearing on this bill--is that 
next year we'll be celebrating the 400th anniversary of the 
founding of Jamestown. Jamestown, as a practical matter, is the 
cradle of American liberty. It's where representative democracy 
started, the first legislative body and a variety of other 
highlights of national historic significance.
    We need to move this measure--and we'll hear testimony from 
the Park Service and others--and the sooner we can get this 
moving, the more it'll converge with the celebration, when much 
of the world is going to be looking at Virginia, and the 400th 
anniversary of the founding of American liberty at the cradle 
of American liberty, in Jamestown. And so, it will have 
historic, educational, and tourism value for us. So, I'm 
hopeful that the testimony that we adduce here today at this 
hearing will help us move this legislation forward so that our 
States and our Federal partners can work together, so that the 
celebration of Jamestown's 400th anniversary will be as 
pleasurable, helpful, and, in fact, a long-lasting legacy of 
the 400th commemoration.
    And I thank you, Mr. Chairman.
    And I'm glad to see my colleagues, Senator Warner and 
Senator Sarbanes, who are also key leaders on this matter, as 
well as Senators Mikulski, Biden, and Carper here, as well.
    And, again, I thank you for putting this on the docket, 
recognizing that the study is not quite yet complete, but I 
think that the testimony that we'll hear, and the evidence, 
will allow us to, with comfort, move forward on this as quickly 
as possible.
    Senator Thomas. Thank you very much.
    Senator Feinstein.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I wanted to comment on Santa Rosa Island, which is part of 
the Channel Islands, right off the coast of Santa Barbara, in 
California. I know my colleague is going to comment more 
precisely on the geography of the island, so I won't, except to 
say it's not a small island. It's 54,000 acres, so it's fairly 
good-size island.
    This island was bought by the Park Department in 1986 for 
$30 million from the company Vail & Vickers, who had owned this 
island prior to that. The purpose was to restore its native 
ecology, and also to provide public access. In addition to 
that, the prior owners of the island were told that they would 
be allowed to keep hunting and grazing on the land through 
2011. There was a court--they went to court, and there was a 
settlement in the court. And the court found that they would 
remove the cattle immediately, but reaffirmed that the non-
native deer and elk would have to go by 2011. The court 
actually set up a framework for that: 75 percent will be left 
by the end of 2008, 50 percent by the end of the 2009, 25 
percent by the end of 2010, and zero by 2011.
    Now, this company runs the hunting on the island. This is 
$9,000 for a trophy elk on this island. This island is public 
property. It is all supposed to revert to the public in 2011. 
What was added in the defense authorization bill essentially 
prevents it from reverting to the public at the end of 2011, 
despite the court settlement, despite the fact that in 1986 the 
taxpayers paid $30 million for the island.
    Now, the reason given was, ``Oh, well, we're going to have 
hunting for the military.'' Well, we have a number of bases in 
California where the military can hunt, where disabled military 
can hunt. This is also a rugged island. It's difficult to get 
around. It's offshore, so getting people there, too, is 
somewhat difficult.
    I've been interested in this, because I don't quite 
understand why anyone would put in a bill to essentially give a 
very big monetary gift to owners who sold the island to the 
public, where there is a court settlement that specifically 
provides that all of this ends by 2011.
    So, Senator Boxer and my resolution essentially negates 
what has been put in the House defense authorization bill.
    Senator Thomas. Thank you very much.
    We're very pleased to have several Senators here today. 
I'll break our tradition, I think, and ask you to speak in the 
order of your appearance so it won't take very long.
    Senator Pryor.

          STATEMENT OF HON. MARK PRYOR, U.S. SENATOR 
                         FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And I want to thank 
you and the committee for allowing me to testify on behalf of 
S. 2417, legislation to designate the President William 
Jefferson Clinton Birthplace home, in Hope, AK, as a National 
Historical Site and unit of the National Park System.
    Congressman Mike Ross has shepherded identical legislation 
through the House of Representatives, which passed, on March 8, 
by an overwhelming majority.
    The little wood-frame house at 117 South Hervey Street 
begins the first chapter to a story that many people in America 
are familiar with. And it's a story of hope and opportunity. 
It's the home where Billy Blythe spent his first years, where 
he tells us he learned to walk and talk and pray and read and 
count by using playing cards. It is, by all means, a modest 
home that defines a humble childhood. It is the birthplace home 
of our 42nd President. Like the homes of presidents who came 
before him, I believe this landmark deserves Federal 
recognition and should be preserved as part of the National 
Park System.
    President Clinton's birthplace underwent an extensive 
renovation funded by the nonprofit Clinton Birthplace 
Foundation. During the home's dedication in 1999, then-
President Clinton recalled that we make seemingly ordinary 
places into landmarks because they ``remind us that America's 
greatness can be found not only in its large centers of wealth 
and culture and power, but also in its small towns, where 
children live, learn from their families and neighbors the 
rhythms and rituals of daily life. They learn about home and 
work, about love and loss, about success and failure, about 
endurance, and the power of dignity of their dreams.''
    Mr. Chairman, I know that the National Park Service has an 
objection, similar to the one that Senator Allen mentioned a 
few moments ago. They would like to do a 2-year study. They 
made the same objection with President Reagan's home, and the 
Congress overcame that objection. I think overcoming the 
objection here would be very justified, given the fact that the 
Clinton Birthplace Foundation has already done extensive 
renovation to the infrastructure and the other circumstances 
around this site.
    So, Mr. Chairman, thank you. And I want to thank members of 
the committee.
    Senator Thomas. Thank you very much.
    Senator Boxer.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    Mr. Chairman, it's a sort of a strange issue we bring 
before you, because Senator Feinstein and I are a little 
perplexed as to why this has happened. And I think she outlined 
that we have to be very careful here when there looks like a 
proposal that's going to benefit a private individual.
    I want to show you the picture of Santa Rosa Island, 
located right off of Santa Barbara. See, it's quite beautiful. 
And that's why the National Park Service wanted to have it for 
all of us to share, all of your constituents and mine, a very 
important parcel. And Senator Feinstein and I believe 
strongly--and I have a sense, after listening to your brief 
comments, Mr. Chairman, that perhaps you'll come down on our 
side.
    I just want to bring a point out here. We are perplexed, 
Mr. Chairman. You served in the House; right? I served in the 
House. Senator Akaka served in the House. It's unusual for a 
Congress Member from another district to come in and say to 
another member, ``This is what I want to do, and, whether you 
oppose it or not, I'm going to do it.'' It's rare. I mean, even 
with partisan divide, we really respect each other's boundaries 
most of the time. So, this is also confusing to us.
    And I won't go through everything Senator Feinstein said to 
you about the private company, about the deal that was cut, but 
I will tell you that there's--I wanted to talk to you 
specifically about the other opportunities for the military to 
hunt, because Senator Feinstein alluded to those. And I would 
ask unanimous consent to place in the record a little Web site 
from the Camp Roberts Hunting Program, if I might, Mr. 
Chairman.
    Senator Thomas. It will be included.
    Senator Boxer. And Fort Hunter Liggett. And we know 
Vandenberg has a hunting program. So, there are these great 
opportunities for hunting in other bases
    I don't know if I asked already, but I would like to put my 
whole statement in the record. And I'm really almost done, 
because I think I can just summarize.
    Senator Thomas. It will be in the record.
    [The prepared statement of Senator Boxer follows:]
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California
    Thank you Mr. Chairman, and let me begin by expressing my 
appreciation to the Subcommittee for holding a hearing on this 
important topic.
    I also appreciate the opportunity to speak on the matter before us, 
which greatly impacts a very special and fragile part of my state--
Santa Rosa Island in Channel Islands National Park.
    CHART--Island--This is Santa Rosa Island. Located off the South-
Central Coast of California, Santa Rosa Island is 54,000 acres.
    Mr. Chairman, Channel Islands National Park, like all National 
Parks, belong to everyone.
    All Americans, not just a select few, have the right to access and 
enjoy these marvelous places.
    That is why I am greatly disturbed by attempts to limit access by 
the general public to any national park especially one as stunning as 
Channel Islands.
    However, one member of Congress, Rep. Duncan Hunter is trying to 
change this and curtail conservation efforts and the general public's 
access to this National Park.
    Last week, Rep. Hunter included a provision in the House Department 
of Defense (DoD) authorization bill directing the Interior Secretary to 
cease the removal of non-native deer and elk populations on the Island 
this provision would effectively overturn? settlement agreement with 
the Park Service to phase-out hunting operations there and help restore 
the natural ecosystem.
    Last year, Rep. Hunter went as far as try to transfer control of 
the island from the National Park Service to the Department of Defense, 
for the private use of top military brass and their official guests. 
After that rationale failed, he tried to say that he wanted to give 
veterans more hunting opportunities.
    Mr. Chairman, I am all in favor of providing recreational and 
hunting opportunities to our service men and women. In fact, the 
Department of Defense is required to provide outdoor recreational 
opportunities on bases.
    Indeed, in my home state of California, Vandenberg Air Force Base, 
Fort Hunter Liggett Reservation, and Camp Roberts Reservation all 
provide hunting opportunities to the military and veterans.
    I would like to submit for the record the Fort Hunter Liggett 
Reservation hunting program, taken from the Reservation's website. 
There, our service men and women can hunt elk, deer, rabbit and fowl.
    Mr. Chairman, the Pentagon did not ask for this; the Park Service 
certainly didn't ask for this.
    Both Rep. Lois Capps and the Ventura County Board of Supervisors 
strongly oppose this.
    That is why Senator Feinstein and I introduced a Sense of the 
Senate Resolution expressing the need to manage the island under the 
laws and rules: of the Park Service.
    I would like to take a few moments and show you this special place 
and some of the wildlife that calls Santa Rosa Island home.
    CHART--This is the endangered Santa Rosa Island fox.
    CHART--Baby Fox--The Fox is a subspecies of the endangered Channel 
Island Fox. These foxes are unique to the islands--perfectly adapted to 
the distinct conditions of the islands, and they live nowhere else on 
earth.
    CHART--Golden Eagle--The foxes have become endangered because of 
the Golden Eagle.
    Golden Eagles were attracted to the young deer and elk, when they 
were brought to the island in the early 20th century for commercial 
hunting.
    After the Park Service purchased the Island for the Park in 1986, a 
settlement agreement was reached with the island's original owners to 
phase-out hunting and the deer and elk populations.
    Under the settlement agreement, the Park Service is removing these 
non-native populations to restore the ecosystem of Santa Rosa Island to 
its natural state.
    This is very important not only to restoring the island but also to 
allowing full access to the Park--90% of the island is off-limits to 
the general public for 4 or 5 months each year during the hunts.
    That is why the settlement agreement is so important.
    Mr. Chairman, this is a unique and special place--we cannot allow 
the whims of one Member of Congress--no matter how powerful that member 
may be--to compromise the public's access to treasures like Santa Rosa 
Island.
    I would like to conclude with the words of warning that President 
Harry Truman made when Everglades National Park in Florida was 
inaugurated.
    ``We have to remain constantly vigilant to prevent raids by those 
who would selfishly exploit our common heritage for their private gain. 
Such raids on our natural resources are not examples of enterprise and 
initiative. They are attempts to take from all the people for the 
benefit of a few.''

    Senator Boxer. I'd like to put in the record Rep. Lois 
Capps' statement for your consideration against this. She's the 
Congresswoman who represents the area. Also, the National Park 
Conservation Association opposing Representative Hunter's 
legislation and supporting ours, and other organizations. And 
the Ventura Board of Supervisors, which is quite bipartisan, 
opposing what Congressman Hunter is trying to do.
    [The prepared statement of Representative Capps follows:]

      Prepared Statement of Hon. Lois Capps, U.S. Representative 
                            From California

    Mr. Chairman and members of the Subcommittee, thank you for holding 
this hearing today and for the opportunity to present testimony in 
support S. Res. 468. This resolution recognizes the importance of Santa 
Rosa Island and the Channel Islands National Park, which is located in 
my congressional district.
    I want to also thank my colleagues from California, Senator 
Feinstein and Senator Boxer for introducing S. Res. 468 and for 
bringing this important issue to the Committee's attention.
    As you are well aware, the FY 2007 Department of Defense 
Authorization Act, which recently passed the House, contains a 
provision that negatively affect the public's access to Santa Rosa 
Island.
    Last week, I tried to offer an amendment to remove this offending 
provision from the bill. Unfortunately, my amendment was not made in 
order by the House Rules Committee and so the full House was not able 
to debate or express its will on the issue. That's why this legislation 
before you today is so important.
    The provision in the House defense bill has many problems.
    First, this issue has no place in the defense authorization 
legislation. This language deals with the operations of a National Park 
and interferes with the mission of the NPS to restore the islands and 
open them to the public. There have been no congressional hearings or 
opportunity for public input on this proposal. It is my understanding 
that the Defense Department has not requested this provision and the 
NPS strongly opposes it.
    Second, this proposal seeks to continue indefinitely an unusual 
trophy-hunting operation of non-native deer and elk on Santa Rosa. This 
operation currently closes off public access to about 90 percent of the 
island for 4 to 5 months of the year while hunting is underway. 
However, the hunting is scheduled to wind down over the next several 
years and cease completely in 2011, when full public access to the 
island will be ensured. This proposal would also undermine the Park 
Service's on going and successful work to restore the island to its 
natural form.
    The termination of hunting operations is being done through a 
legally binding court ordered Settlement Agreement entered into by the 
Park Service, the previous landowner (Vail & Vickers), the Justice 
Department, and the National Parks Conservation Association. It is my 
understanding that even Vail & Vickers is not seeking to extend the 
hunting operation. Neither is the Park Service, Justice Department or 
the National Parks Conservation Association.
    Under the provision in the defense bill, one of the principal goals 
of this settlement--year-round public access to Santa Rosa--simply 
would not happen. And it would hinder the Park Service's plans to turn 
the island into a destination spot, complete with overnight lodging and 
expanded access for disabled visitors.
    Third, this proposal appears to be predicated on giving members of 
the armed forces and disabled and paralyzed veterans' greater access to 
Santa Rosa Island. To be perfectly clear--everyone has access to the 
island right now, including members of the armed forces and veterans. 
If there is a need to address access problems for members of the armed 
forces or veterans, then this issue can be worked out without any 
legislation. I have spoken with the Superintendent of the Channel 
Islands National Park and he assures me that he is willing to do 
whatever he can to work with the Defense Department if there are any 
access problems veterans might be having. The Defense Department has 
made no such requests.
    Last year when this issue was raised at the end of the defense 
authorization conference, the author of the provision, the Chairman of 
the House Armed Service Committee, argued that this proposal would 
allow our servicemen and women and veterans to engage in hunting 
activities on the island. They can do that currently, but a quick look 
at the website of the hunting outfitter contracted by Vail & Vickers 
shows that hunting trips cost between $5,000 and $16,500. Admittedly, 
that is hardly within the reach of your average soldier, sailor or 
airman. But in an era of $300 to $400 billion annual deficits and 
monthly obligations of nearly $10 billion in Iraq and Afghanistan 
alone, it seems unlikely that the Pentagon will seek funding to 
subsidize hunting trips or that Congress would go along if it did.
    Mr. Chairman, it is important to remember how this all started. It 
was a mere five months ago that Chairman Hunter proposed kicking the 
public off Santa Rosa completely by transferring the island to the 
Defense Department. This was rejected by the defense authorization 
conference, after being called an attempt to create a private hunting 
reserve for top military brass and their official guests.
    Then the idea of giving veterans more hunting opportunities became 
the reason to intervene in Santa Rosa. But, as discussed earlier, 
veterans already have access to Santa Rosa and the Park Superintendent 
has offered to address any problems with that access. And veterans 
currently enjoy a wide variety of other hunting opportunities on 
private and publicly held lands, as well as on military bases around 
the country. For example, Vandenberg Air Force Base, Fort Hunter 
Liggett and Camp Roberts all on the Central Coast provide hunting to 
the military and veterans.
    The latest rationale for this proposal is supposedly to stop ``the 
extermination'' of these privately owned, non-native deer and elk on 
Santa Rosa Island. However, the settlement agreement only calls for 
removal of the animals; it does not specify how the animals must be 
removed. If Vail & Vickers wish to remove their animals to the 
mainland, they are not precluded by the agreement from doing so and I 
would support such an effort. It is important to remember that the 
animals are being removed because of the damage these large herds cause 
to Santa Rosa and federally listed species.
    The proposal contained in the defense bill would mean something far 
different than more hunting opportunities for veterans or animal 
protection. It would mean the indefinite continuation of inappropriate 
trophy-hunting in a National Park. This would keep the public off Santa 
Rosa for nearly half of the year while hunting is underway. I would 
remind the Committee that the public paid $30 million for this island 
20 years ago. Last year, some 5,000 people visited Santa Rosa Island 
and that this numbers will increase commensurately once the island is 
open year-round to the public.
    In addition, the defense bill language would require the Park 
Service to maintain the huge herds of non-native deer and elk on the 
island in numbers that exist today. These are, of course, animals the 
Park Service does not even own so there are takings issues at play 
here. And, from the conservation perspective, maintaining these huge 
herds would mean continued damage to federally listed species and 
reduce the value of the Channel Islands National Park.
    Mr. Chairman, the issue of ending hunting on the island is a very 
serious one. The Park Service and Vail & Vickers are in constant 
contact on this issue to ensure the cessation date is met and that it 
is done in a fair and equitable manner. The goal is to ensure that the 
public, finally, has full access to its national park.
    I hope the Committee adopts S. Res. 468 to show its support for the 
goal of making Santa Rosa Island publicly accessible year-round, as it 
should be.
    Thank you again for your interest in this issue and I look forward 
to working with the Committee to show support for Santa Rosa Island.

    Senator Boxer. But let me say, as a senior member on the 
Environment Committee, I just wanted to point something else 
out. This deal, which was resolved in the court, was resolved 
to protect--let's show the fox, the Santa Rose fox. And this 
beautiful--God's creature here, Mr. Chairman, is now a 
threatened species. And one of the reasons for the court deal 
was to protect this species, which is in deep trouble. Let's 
show the actual size. I know you're not--I mean, I'm excited 
about this because of the Environment Committee. So, I wanted 
to show you that this is--we're dealing with saving this--God's 
creature, as well as all these other things, preserving this 
area for everyone to use and enjoy.
    So, I hope you'll come--
    Senator Allen. Is that full grown?
    Senator Boxer. It's a baby.
    Senator Allen. Oh, OK. Good.
    Senator Boxer. It's a little baby.
    Senator Allen. Good.
    Senator Boxer. But look what happened to me, and I'm full 
grown. So, you never know.
    [Laughter.]
    Senator Boxer. You could have, you know, little guys out 
there.
    Bottom line, I think the deal that was agreed to in the 
court settlement is a good one. I think that as representatives 
of all the people from your State and mine, we have a chance to 
be on the right side here. And I hope that you will support 
Senator Feinstein and I in our quest to keep this as it's 
supposed to be a public park, with no hunting after 2011.
    Thank you.
    Senator Thomas. Thank you.
    Senator Sarbanes.
    Senator Sarbanes. Well, Mr. Chairman, I'll yield to Senator 
Warner, who has another engagement that he has to get to, and 
then I'll follow along.
    Senator Thomas. Fine.
    Senator Warner.

        STATEMENT OF HON. JOHN A. WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, members of the 
committee. I'll forgo my statement, given that my distinguished 
colleague and dearest of friends, George Allen, has covered 
every fact relating to this.
    [Laughter.]
    Senator Warner. And what minor omission he may have, I can 
tell you that Mr. Sarbanes will tell it all better than I can.
    [Laughter.]
    Senator Warner. He is known as Mr. Chesapeake Bay, because 
Senator Sarbanes and Senator Mathias, a former colleague of 
ours, have been the grand patrons of this bay for so many 
years. And you've done a wonderful job, I say to you, my dear 
friend. And I've been privileged to learn, at your side, all of 
the things about this glorious bay. Take it off from there and 
go with it.
    [Laughter.]
    Senator Warner. Thank you very much.
    Senator Thomas. Thank you, Senator.
    Senator Sarbanes.

       STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR 
                         FROM MARYLAND

    Senator Sarbanes. I think I'll yield to John Warner all the 
time.
    [Laughter.]
    Senator Sarbanes. Mr. Chairman and members of the 
committee, I welcome this opportunity to testify on S. 2568, 
designating the route of Captain John Smith's exploration of 
the Chesapeake Bay as a national historic trail.
    Mr. Chairman, I ask consent to include the whole statement. 
I know the committee's under some time pressure, and I'll try 
to summarize.
    Senator Thomas. It will be included.
    Senator Sarbanes. OK.
    We have, I think, a very unique opportunity to commemorate 
a very significant event in the history of our Nation, the 
400th anniversary of Captain John Smith's first landing and 
settlement at Jamestown, VA, and the beginning of his momentous 
voyages of discovery throughout the Chesapeake Bay region.
    Actually, there's a map over here that shows the 
explorations which John Smith made throughout the Chesapeake. 
And, of course, this is what we're trying to get designated now 
as National Historic Water Trail.
    That, I think, is Smith's version. Why don't we put the one 
that's a little more understandable up ahead of it. You can 
see, starting down at the bottom, the route that was followed.
    I think there's a compelling case for establishing this 
trail. Senator Allen and Senator Warner spoke to it. We're 
joined today by Pat Noonan, who's the chairman emeritus of The 
Conservation Fund, who originated this idea. And Pat's 
accompanied by Gilbert Grosvenor, the chairman of the board of 
the National Geographic Society. We'd like to get this done 
before the quadrennial celebration begins, in the spring of 
next year.
    Congress, of course, established the National Trail 
Systems. A number of have been so authorized. This would be a 
water trail, so this is somewhat different from most of them. 
It doesn't raise some of the problems others raise, because 
there's very little land acquisition involved. The cost is 
relatively minimal. Last year, the committee helped us to move 
through the authorization for the Park Service to undertake a 
study of the feasibility of the proposed trail. They're moving 
ahead on that. They just came in with a report, which I would 
submit for the record, that found the criteria that perhaps is 
most difficult in establishing a national trail has been met, 
and that is that it is nationally significant. The other two 
criteria are a documented route, through maps or journals--and, 
of course, Smith kept incredible records and journals--and a 
significant potential for public recreational use, which, we 
submit, is apparent, on its face.
    This project, I think it's important, if we possibly can, 
to get it done as we go into the quadrennial celebration. 
There'll be a high level of interest in Jamestown and Captain 
Smith, and Smith's voyages. The public, I think, will be very 
interested in the commemorative events, learning more about 
Jamestown, about Captain John Smith. And this anniversary year 
gives us the opportunity to establish the trail, name a trail 
manager, and open a trail office in time to provide the public 
with information on this chapter. As Senator Allen said, we 
want to integrate it with the actual marking of the 400th 
anniversary.
    Second, these National Historic Trails are--we reduce the 
cost substantially for the Federal Government by relying 
heavily on local nonprofit partners to help with education and 
interpretation and other components of the trail. And with the 
growing interest in the 400th anniversary, there's a unique 
opportunity to go to foundations, corporations, and other 
donors to seek non-Federal funds to help support the new trail. 
So, if we act promptly, we have the opportunity to save 
significant Federal funding with in-kind support, which we 
think is an important consideration.
    I'd just submit to you, Mr. Chairman, and members of the 
committee, what better way to commemorate this very important 
part of our Nation's history than to honor John Smith's 
courageous voyages by designating the Captain John Smith 
Chesapeake National Historic Trail? We're strongly supported in 
our endeavor by our cosponsors, Senators Mikulski, Carper, 
Biden, Santorum, and Specter, and the Governors of Maryland, 
Virginia, Delaware, Pennsylvania, the mayor of the District of 
Columbia, as well as scores of other officials, individuals, 
and organizations, including The Conservation Fund, the Garden 
Club of America, the Isaac Walton League of America, the 
Chesapeake Bay Foundation, and the Chesapeake Bay Commission.
    Now, the Park Service has received somewhat less than 200 
letters, which is a pretty good submission, all of them in 
favor. We know of no opposition to the legislation. But we're 
anxious to move the legislation in the effort to get the trail 
designated before the 400th anniversary celebrations. We think 
the most difficult criteria has been met by the submission of 
the advisory report. The Park Service is looking at the other 
two criteria, but no one expects any difficulty with those 
criteria. And we urge the committee, if it can find its way 
clear to do so, to get us on a fast track so we can get this 
trail in place as we go into the celebration of the 
quadrennial, in the early part of next year.
    I thank the Chair.
    [The prepared statements of Senators Sarbanes, Stevens and 
Hagel follow:]

Prepared Statement of Hon. Paul S. Sarbanes, U.S. Senator From Maryland

    Thank you, Mr. Chairman and Members of the Committee, for this 
opportunity to testify on S. 2568, designating the route of Captain 
John Smith's exploration of the Chesapeake Bay as a National Historic 
Trail.
    We have a unique opportunity to commemorate a very significant 
event in the history of our Nation and of the Chesapeake Bay--the 400th 
Anniversary of Captain John Smith's first landing and settlement at 
Jamestown, Virginia and the beginning of his momentous voyages of 
discovery in the Chesapeake Bay region. There is a compelling case to 
be made for establishing this trail and Senators Warner, Allen and I 
are joined here today by Pat Noonan, Chairman Emeritus of The 
Conservation Fund--who conceived this idea--and Gilbert Grosvenor, 
Chairman of the Board of the National Geographic Society, to make that 
case and to appeal to the Committee to swiftly approve this legislation 
and designate this trail, this year, before our nation's quadcentennial 
celebrations in 2007.
    As you well know, the Congress established the National Trails 
System ``. . . in order to promote the preservation of, public access 
to, travel within and enjoyment and appreciation of the open-air, 
outdoor areas and historic resources of the Nation.'' National Historic 
Trails such as the Lewis and Clark Trail, the Pony Express Trail, the 
Trail of Tears, and the Selma to Montgomery Trail were authorized as 
part of this system to identify and protect historic routes for public 
use and enjoyment and to commemorate major events which shaped American 
history. To qualify for designation as a National Historic Trail, a 
trail must meet three principal criteria: It must be ``nationally 
significant,'' have a documented route through maps or journals, and 
offer significant potential for public recreational use. There is no 
question that the proposed Captain John Smith Chesapeake National 
Historic Trail meets these criteria and is a fitting addition to the 
National Trails System.
    We are grateful for the Committee's support last year in helping us 
to enact provisions authorizing the National Park Service to undertake 
a study of the feasibility of establishing the proposed trail. Pursuant 
to that legislation, on March 21, 2006, the National Park System 
Advisory Board concluded that the proposed trail is ``nationally 
significant'' because of its impact on the exploration and settlement 
of North America, its impact on the commerce and trade of North America 
and its impact on our ethnic heritage and relations between the English 
settlers and the Native American tribes of the region. The National 
Park Service has been proceeding expeditiously with its examination of 
the other two criteria and recently completed a thorough, peer-reviewed 
report, which is now being published, documenting the routes of John 
Smith's Chesapeake voyages, satisfying the second of the three 
criteria. The careful journals that Smith kept and the remarkably 
accurate maps and charts he made of his voyages into the Chesapeake Bay 
and its tributaries provided a wealth of information to support this 
study.
    Likewise it is clear that the proposed trail offers tremendous 
opportunities for public recreation and historical interpretation and 
appreciation. Similar in historic importance to the Lewis and Clark 
National Trail, this new historic ``watertrail'' will inspire 
generations of Americans and visitors to follow Smith's journeys, to 
learn about the roots of our nation and to better understand the 
contributions of the Native Americans who lived within the Bay region. 
It would allow voyagers in small boats, cruising boats, kayaks and 
canoes to travel the same routes that Smith took--from the mouth to the 
headwaters of Chesapeake Bay--and serve as a national outdoor resource, 
providing rich opportunities for education, recreation, and heritage 
tourism not only for more than 16 million Americans living in the Bay's 
watershed, but for visitors to this area. Already reports about the 
proposed trail and the reproductions of the vessels the Godspeed and 
open shallop--are generating national and international attention and 
inquiries. Equally important, the Trail would help highlight the Bay's 
remarkable maritime history, its unique watermen and their culture, the 
diversity of its peoples, its historical settlements and our current 
efforts to restore and sustain the world's most productive estuary. In 
response to an inquiry on the status of the study that Senator Warner 
and I sent to the National Park Service, the Director recently 
responded ``. . . we have not encountered any information that would 
lead us to believe that the trail fails to meet required criteria for 
designation.''
    What better way to commemorate this important part of our nation's 
history and honor John Smith's courageous voyages than by designating 
the Captain John Smith Chesapeake National Historic Trail? We are 
strongly supported in this endeavor by our co-sponsors, Senators 
Mikulski, Carper, Biden, Santorum and Specter, by the Governors of 
Maryland, Virginia, Delaware and Pennsylvania and the Mayor of the 
District of Columbia, as well as scores of other officials, individuals 
and organizations, including the Garden Club of America, the Izaak 
Walton League of America, the Chesapeake Bay Foundation, and the 
Chesapeake Bay Commission. In fact we know of no opposition to the 
legislation.
    There is precious little time remaining in this session of the 
Congress--less than 15 weeks--and it is important to have this 
legislation on a fast track if we are to have any hope of having the 
trail designated before the 400th anniversary celebrations in 2007. We 
urge the Committee to swiftly approve this measure and report it to the 
full Senate for consideration.
                                 ______
                                 
    Prepared Statement of Hon. Ted Stevens, U.S. Senator From Alaska

    On November 5th, 2003 Congress passed legislation authorizing the 
construction of a visitor center to complement the Vietnam Veterans 
Memorial. In passing this legislation by Unanimous Consent, Congress 
enabled the creation of a facility that will tell the stories of those 
who served in the Vietnam War to the more than 4 million people who 
visit the memorial annually. The center will emphasize the traditional 
values of our men and women in uniform, including duty, honor, country, 
and respect.
    Having served with the Army Air Corps during World War II, I share 
a deep bond with those the memorial honors, and I salute their service. 
Our nation is now engaged in a Global War on Terror, and the ideals our 
fellow veterans fought to uphold are more important than ever. The 
exhibits at the memorial's visitor center will give all Americans who 
visit the memorial the opportunity to understand the values of military 
service and honor the men and women of the Vietnam War.
    Unfortunately, since Congress passed the original authorizing 
legislation, the site designation process has stalled. Senator Chuck 
Hagel, and Senator John Kerry and I have introduced the Vietnam 
Veterans Memorial Visitor Center Deadline Enforcement Act, which will, 
we hope, move this project forward. Ensuring the center's timely 
completion is a debt we owe to the veterans of the Vietnam War.
                                 ______
                                 
   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska

    Chairman Thomas, Ranking Member Akaka, thank you for the 
opportunity to address the Subcommittee on National Parks. I am here 
today to express my support for S. 2419, the Vietnam Veterans Memorial 
Visitors Center Deadline Enforcement Act. I am an original co-sponsor 
of this bill, and I enthusiastically support its passage.
    The Vietnam Veterans Memorial is a powerful tribute to those who 
fought and died in Vietnam. As a veteran of the Vietnam War, I have a 
personal understanding and appreciation of the sacrifices that this 
memorial represents. With each new generation, however, our citizens 
lose that personal connection. The Vietnam Veterans Memorial Visitors 
Center will serve to inform and educate the public about the Vietnam 
Veterans Memorial, and what it represents.
    I was the Deputy Administrator of the Veterans Administration when 
ground was broken for the Vietnam Veterans Memorial in March of 1982. 
Since then, I have continued to be involved with the Vietnam Veterans 
Memorial Fund and its efforts to preserve the legacy of the Memorial, 
promote healing, and educate people about the impact of the Vietnam War 
on our nation.
    In 2003, I introduced legislation to authorize the construction of 
the Vietnam Veterans Memorial Visitors Center at or near the Vietnam 
Veterans Memorial. In November 2003, President Bush signed that bill 
into law. Since that time, the Vietnam Veterans Memorial Fund, in 
conjunction with the National Parks Service, has conducted an extensive 
site selection study, selected an appropriate site, and worked to gain 
site approval for the Vietnam Veterans Memorial Visitors Center.
    The site they selected, commonly referred to as Site ``A'', is 
across Henry Bacon Drive from the Vietnam Veterans Memorial. It is the 
ideal location for the Memorial Visitors Center as it will tie the 
educational experience together with the Vietnam Veterans Memorial. In 
consideration of the open space and visual sight-lines on the National 
Mall, those involved with designing the Memorial Visitors Center have 
agreed it will be an underground facility.
    In September 2005, The Commission on Fine Arts approved the site 
selected by the National Parks Service and the Vietnam Veterans 
Memorial Fund. With that approval, all that remained in the site 
selection process was the approval of the National Capitol Planning 
Commission.
    Since July 2005 the National Capitol Planning Commission has 
delayed site approval. The Vietnam Veterans Memorial Fund and the 
National Parks Service have testified before the National Capitol 
Planning Commission in July and October, and both times they were 
instructed to review sites other than the one they had selected. After 
complying with these requests they were scheduled to testify for a 
third time in December, until the National Capitol Planning Commission 
removed them from the agenda the day prior to the hearing.
    Having observed this process from the beginning, I believe that the 
National Capitol Planning Commission is attempting to indefinitely 
delay site approval. This apparent lack of good faith effort on behalf 
of the National Capitol Planning Commission is what led me to co-
sponsor the Vietnam Veterans Memorial Visitors Center Deadline 
Enforcement Act. The Memorial Visitors Center is far too important to 
be indefinitely tied up in bureaucratic disagreements.
    I urge the Committee to pass S. 2419 and complete what was intended 
in the original legislation.
    Thank you.

    Senator Thomas. Thank you very much, Senator. I appreciate 
your being here.
    All right. Let's go now to our first panel: Mr. Steve 
Martin, Deputy Director, National Park Service, Department of 
the Interior; and Ms. Patricia Gallagher, executive director, 
National Capital Planning Commission, Washington, DC.
    Thank you very much for being here.
    Steve, if you'd like to go right ahead.

   STATEMENT OF STEVE MARTIN, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Martin. Mr. Chairman, thank you for the opportunity to 
appear before you today to present the views of the Department 
of the Interior on the five bills and the one resolution that 
are the subject of today's hearing.
    I have individual testimony on each bill that I would like 
to submit, and then I'll summarize all of our comments all 
together at once at the start.
    Senator Thomas. It'll be included in the record.
    Mr. Martin. S. 1686 would amend the Constitution Heritage 
Act of 1988 that authorized the construction of the National 
Constitution Center in Philadelphia, PA. The Department 
supports enactment of this bill, with some amendments.
    The NCC represents a true exemplar of the value of public/
private partnerships being undertaken today at Independence 
National Historic Park. S. 1686 would clarify provisions of a 
cooperative agreement between the Secretary of the Interior and 
the National Constitution Center. The main provision of the 
agreement requires that any revenues from facilities and 
services of the center shall be made available to the National 
Constitution Center to offset operating expenses without 
further appropriation. The bill also provides amendments to a 
number of sections to clarify the differences between the 
physical building and the 501(c)(3) organization.
    S. 2417 and H.R. 4192 would authorize the Secretary to 
establish the President William Jefferson Clinton Birthplace 
Home as a National Historic Site and a unit of the National 
Park System in Hope, AR. The Department supports the efforts to 
honor the birthplace home of former President William Jefferson 
Clinton, but suggests amending S. 2417 and H.R. 4192 to 
authorize a study. Along with a discussion of the historical 
significance of the site, a research study would look at the 
integrity of the buildings and other factors associated with 
the site, the appropriate management entity, the management 
structure, and the costs in acquiring, restoring, and operating 
the site.
    S. 2419 and H.R. 4882 would ensure the proper remembrance 
of Vietnam veterans in the Vietnam War by designating a site 
for a visitor center for the Vietnam Veterans Memorial. The 
Department supports development of a visitor center for the 
Vietnam Veterans Memorial.
    We also support the process governing such developments as 
set forth in the Commemorative Works Act, which separates the 
authorization of memorials and the site and design approval 
process, and provides for public input as well as appropriate 
NEPA compliance. Should the subcommittee decide to move 
forward, the Department recommends that the additional language 
in section 2(c) of S. 2419 be removed, because it is confusing 
and does not make a distinction between the site selection and 
the design of the facility. The siting process for the center 
is currently underway; however, the center has not yet 
undergone the design phase, and those decisions cannot be 
completed within 30 days.
    S. 2568 would designate the Captain John Smith Chesapeake 
National Historic Trail. The Department is currently completing 
the study authorized by P.L. 109-54 to determine the 
feasibility of designating this trail. We request that the 
committee defer action on the bill until the study is 
completed. To date, we have not encountered any information 
that would lead us to believe that the trail fails to meet the 
required criteria for designation as a National Historic Trail.
    In March 2006, the National Park System Advisory Board 
found the routes of John Smith's voyages to be nationally 
significant, a major requirement in the finding of national 
trail feasibility. We expect to issue a draft report for public 
comment no later than August of this year, at which time the 
public will be given an opportunity to comment on any proposed 
designation alternatives.
    S. 2627 would extend the authorization and improve the 
composition of the board members of the National Park System 
Advisory Board. The Department supports S. 2627. The Department 
wishes to thank Senator Domenici for sponsoring this 
legislation, at the Department's request. The National Park 
System Advisory Board is an invaluable partner of the 
Department as we carry out the national vision that created the 
National Park System 90 years ago. Throughout that time, the 
Department and the board have worked effectively together to 
enhance conservation efforts across the Nation.
    S. Res. 468 would support the continued administration of 
Channel Islands National Park, including Santa Rosa Island, in 
accordance with the laws, regulations, and policies of the 
National Park Service. The Department strongly agrees with the 
sentiment expressed by the resolution that Santa Rosa Island 
should continue to be managed in a manner that provides for 
protection of the park's resources and their enjoyment by 
visitors.
    The National Park Service spent 30 million to purchase 
Santa Rosa Island, to restore its native ecology and make it 
accessible for the general public recreational use year round 
as a national park. For that to happen, the non-native deer and 
elk need to be removed, and the hunting operation ended. The 
deer and elk are being phased out under a court-ordered 
settlement agreement, and they will be removed altogether by 
2011. The National Park Service believes we should stand by the 
settlement agreement.
    This concludes my prepared testimony, Mr. Chairman, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Martin follows:]

Prepared Statement of Stephen P. Martin, Deputy Director, National Park 
                  Service, Department of the Interior

                              ON. S. 1686

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
1686, a bill to amend the Constitution Heritage Act of 1988. The 
Department supports enactment of S. 1686 with some amendments.
    The construction of the National Constitution Center (NCC) was a 
major component of the reconstruction of Independence Mall, the three 
city blocks north of Independence Hall in Philadelphia, Pennsylvania. 
This multi-year planning effort also included a new Independence 
Visitor's Center completed in 2001, and the Liberty Bell Center 
completed in 2003. Improvements to the Mall landscape are continuing.
    The NCC represents a true exemplar of the value of public-private 
partnerships being undertaken today at Independence National Historical 
Park by the National Park Service. The state of the art facility, 
designed with more than 100 advanced interactive exhibits, opened to 
rave reviews on July 4, 2003, and continues to provide an outstanding 
visitor experience. Visitors to the NCC come away with an understanding 
of the framing and implementation of the Constitution of the United 
States, and as important, its continuing relevance to today's society. 
The NCC's programs are challenging, thought provoking and have received 
wide acclaim by visitors and scholars alike. The National Park Service 
is proud and privileged to be a partner with the non-profit 
organization of the same name, the National Constitution Center, which 
operates the NCC, in this most successful endeavor.
    S. 1686 would clarify the authorities that support current 
operations and agreements between the National Park Service and 
National Constitution Center. It would amend Section 4 of the 
Constitution Heritage Act of 1988 by adding a new subsection (c) 
relating to provisions of a cooperative agreement between the Secretary 
of the Interior and the National Constitution Center. The provisions 
specify that any revenues from facilities and services of the NCC shall 
be made available to the National Constitution Center to offset 
operating expenses without further appropriation, as is the current 
practice. It would also ensure the continuation of an existing 
cooperative agreement, and allow a subsequent agreement to be 
negotiated for up to 30 years, instead of the current limit of five 
years. This longer time period would facilitate the National 
Constitution Center's efforts to obtain financing. Other provisions 
would require the National Constitution Center to purchase insurance, 
provide annual reports, and take other administrative steps as part of 
a cooperative agreement. The bill also provides amendments to a number 
of sections by striking the word ``Center'' and inserting ``NCC'' to 
clarify the difference between the physical building and the 501(c)(3) 
organization.
    The relationship of the National Park Service with the National 
Constitution Center is a significant model for successful public-
private partnerships. We look forward to continuing our productive 
partnership in the future and request that the committee favorably act 
on S. 1686.
    We propose a few amendments to the bill to clarify when we are 
referring to the organization operating the NCC and not to the actual 
building. In addition, based on Public Law 107-217, we need to update a 
reference to an existing law that has been superseded. We would be glad 
to work with the committee on these proposed amendments.
    Mr. Chairman, this concludes my testimony, and I would be pleased 
to answer any questions you or other members of the committee might 
have.

                        ON S. 2417 AND H.R. 4192

    Mr. Chairman, thank you for the opportunity to testify on S. 2417 
and H.R. 4192, bills that would authorize the Secretary to establish 
the President William Jefferson Clinton Birthplace Home as a National 
Historic Site and a unit of the National Park System in Hope, Arkansas. 
H.R. 4192 passed the House of Representatives on March 8, 2006, without 
a hearing. The Department supports the effort to honor the birthplace 
home of former President Clinton, but suggests amending S. 2417 and 
H.R. 4192 to authorize a study.
    S. 2417 and H.R. 4192 would authorize the Secretary of the Interior 
to designate the William Jefferson Clinton Birthplace Home as a 
National Historic Site and a unit of the National Park System should 
the Secretary acquire, by donation only, the birthplace home and any 
personal property related to that site from the Clinton Birthplace 
Foundation, Inc. The Secretary would administer the unit in accordance 
with laws generally applicable to preserving national historic sites. 
It is our understanding that the Clinton Birthplace Foundation also 
intends to donate the existing visitor center located at 415 West, 
Division Street and adjacent to the birthplace home, however this 
property was inadvertently left out of S. 2417 and H.R. 4192 when the 
bills were introduced.
    In 1998, Congress passed Public Law 105-391, the National Parks 
Omnibus Management Act of 1998, which requires congressional 
authorization of areas to be studied for potential new units of the 
National Park System. The law also designates the criteria to be 
followed by the National Park Service (NPS) in determining whether to 
recommend an area as a unit of the National Park System.
    We recognize the importance of the birthplace of President William 
Jefferson Clinton and therefore appreciate the goals of S. 2417 and 
H.R. 4192. Consistent with our testimony on the Ronald Reagan Boyhood 
Home in March 2001, we suggest, however, that the subcommittee ensure 
that the intent of Congress, as expressed in Public Law 105-391, is 
carried out by amending the bill to authorize a study of the birthplace 
and the visitor center to determine whether they conform to the 
criteria of Public Law 105-391. We recognize the potential significance 
of these properties and would support an authorization of a new study. 
We would be glad to work with the subcommittee on the appropriate 
language.
    With respect to historical sites, the studies do not only look at 
whether the event or person associated with the site was historically 
significant. They also look at the integrity of the buildings, and 
other factors, such as whether there are other sites that might more 
appropriately tell the story associated with a particular individual.
    The National Park system consists of many previous residences of 
former Presidents. However, there are also many residences of former 
Presidents that are not part of the system. A study would look at 
whether the Federal government is the most appropriate entity to manage 
the site. Some sites are managed by other entities, such as state 
governments and private foundations. Conducting a professional study 
allows Congress to be sure it is protecting an area that meets the 
criteria of the National Park System.
    A study also will enable the NPS and the Congress to identify the 
costs in acquiring, restoring, and operating a potential site. We 
believe that the information gathered during the study process is 
invaluable and better ensures that the NPS can continue its progress in 
addressing maintenance backlog needs in our national parks. In fact, in 
March 2001, the Department also took the position that a study was 
needed when asked to testify on the designation of the Ronald Reagan 
Boyhood Home as a National Historic Site. Similar to S. 2417 and H.R. 
4192, that bill also proposed designation prior to the authorization 
and completion of a study.
    Presidential homes and sites provide a valuable link to 
understanding our country's history and government and are an important 
part of our national heritage. Plans to purchase and restore the 
birthplace home of then President William Jefferson Clinton began in 
1993, and the Clinton Birthplace Foundation, a non-profit organization, 
was formed to purchase, restore, and promote the history of the site. 
The two and one-half story American four-square home, patterned from a 
design in France, was built in 1917 by Dr. H.S. Garrett. The home is 
located at 117 South Hervey Street in Hope, Arkansas, and belonged to 
President Clinton's maternal grandparents, Eldridge and Edith Cassidy. 
William Jefferson Blythe, as he was then known, lived there from his 
birth in 1946, until his mother married Roger Clinton in 1950.
    The residence has been returned to its identical state when 
President Clinton lived there as a young boy. It is currently open for 
public tours operated by the Clinton Birthplace Foundation. When the 
home was placed on the National Register of Historic Places in 1994, it 
was described as ``. . . the single property most significantly and 
exclusively associated with Clinton's humble beginnings, the inner 
strength he learned from his mother, and the dedication to purpose that 
has sustained him throughout his distinguished political career.''
    The William Jefferson Clinton Birthplace site demonstrates the 
efforts of a local community working together to preserve and to tell 
the story of the birth and childhood of a man who later became the 42nd 
President of the United States to present and future generations.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other subcommittee members might have.

                        ON S. 2419 AND H.R. 4882

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2419 and H.R. 4882, bills to ensure the proper 
remembrance of Vietnam Veterans and the Vietnam War by designating a 
site for a visitor center for the Vietnam Veterans Memorial. The House 
of Representatives passed H.R. 4882 as amended on March 28, 2006, by a 
vote of 404-4.
    The Department supports development of a visitor center (center) 
for the Vietnam Veterans Memorial. We also support the processes 
governing such development as set forth in the Commemorative Works Act 
(CWA), which separates the authorization of memorials and the site and 
design approval processes and provides for public input, as well as the 
National Environmental Policy Act (NEPA), which describes a vision for 
balancing environmental, cultural, and economic goals and provides for 
cooperative problem solving by requiring public comment on the 
environmental effects of federal actions.
    We are making significant progress in the site approval process for 
the center as provided for under the CWA and the National Park Service 
(NPS) is nearing completion of the Environmental Assessment provided 
for under NEPA that was requested by the National Capital Planning 
Commission (NCPC). The NPS plans to release the Environmental 
Assessment for public comment before the end of May and submit our 
preferred site for the center to the NCPC by June 30, for approval at 
its August 3 meeting. If the NCPC agrees with our preferred site, the 
site selection process will be completed this summer.
    S. 2419 and H.R. 4882 would amend section 6 of Public Law 96-297, 
the Vietnam Veterans Memorial Act, by authorizing the location of the 
center for the memorial at Henry Bacon Drive, 23rd Street, Constitution 
Avenue and the Lincoln Memorial in the District of Columbia. S. 2419 
also would authorize a deadline for the final approval of the center no 
later than 30 days from the date of enactment of this legislation in 
section 2(c). Should the subcommittee decide to move forward, the 
Department recommends that the additional language in section 2(c) of 
S. 2419 be removed because it is confusing and does not make a 
distinction between the site selection and the design process. The 
siting process for the center is currently underway; however, the 
center has not yet undergone the design phase and those decisions 
cannot be completed within 30 days.
    The CWA developed a process for establishing memorials in the 
Nation's Capital. This process has worked well for 20 years, and we 
support this process. While it has been amended, these changes have 
strengthened the CWA without modifying the process as originally 
authorized. The CWA identifies the roles and responsibilities of the 
National Capital Memorial Advisory Commission, the NCPC, the Commission 
of Fine Arts (CFA), and the Secretary of the Interior. The NCPC and the 
CFA both play critical roles in the site selection and design process. 
We believe that the expertise offered and the approvals required by 
these entities as well as the process of gaining the approval of the 
Secretary of the Interior has resulted in new memorials of the highest 
quality. In addition, the CWA provides the American people with the 
opportunity to be involved in the decisions regarding how the 
historical events and persons will be honored in the Nation's Capital 
by providing public involvement in the siting and design of the 
memorials.
    Some of the organizations authorized by public law to erect 
memorials have been frustrated by the delays brought about by the 
opinions of these public bodies regarding the location or design of 
their projects. But by the time these memorials were dedicated, many 
have agreed that their commemorative work was of a higher quality due 
to the process used along the path to completion.
    The Act authorizing the center states that the provisions relating 
to siting of memorials under the CWA would apply. This includes 
approval of the site by both the NCPC and CFA. The CFA reviewed and 
conditionally approved the site at its September 15, 2005 meeting with 
the proviso that the design not detract from the Lincoln Memorial and 
Vietnam Veterans Memorial. Their conditional approval was based on a 
documentation of alternative sites evaluated for the center, which 
followed a similar format that other memorial sponsors have used since 
the enactment of the CWA. As mentioned above, NPS will complete its 
portion of the process by the end of June with the NCPC's consideration 
of NPS' site submission in August. We, thus, plan to complete the 
siting process by the end of this summer.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other subcommittee members might have.

                               ON S. 2568

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
2568, a bill to amend the National Trails System Act to designate the 
Captain John Smith Chesapeake National Historic Trail.
    The Department is currently completing the study authorized by 
Public Law 109-54 to determine the feasibility of designating this 
trail. We request that the committee defer action on the bill until the 
study is completed. To date, we have not encountered any information 
that would lead us to believe that the trail fails to meet the required 
criteria for designation as a national historic trail.
    S. 2568 would designate the Captain John Smith Chesapeake National 
Historic Trail as a component of the National Trails System. The trail 
would be administered by the Department of the Interior in coordination 
with the Chesapeake Bay Gateways and Watertrails Network and the 
Chesapeake Bay Program. In addition, the Secretary of the Interior 
would consult with other Federal, State, Tribal, regional, and local 
agencies, and the private sector in the administration of the trail. No 
land could be acquired for the trail outside the boundary of any 
Federally managed area without the consent of the owner of the land.
    As we approach the 400th anniversary of the Jamestown Settlement 
and the anniversary in 2007 of the beginning of Captain John Smith's 
explorations, the conduct of our present study is most timely. The 
proposed trail would follow a series of routes extending approximately 
3,000 miles along the Chesapeake Bay and the tributaries of the 
Chesapeake Bay in the States of Virginia, Maryland, Pennsylvania, and 
Delaware, and the District of Columbia that trace Captain John Smith's 
voyages charting the land and waterways of the Chesapeake Bay and its 
tributaries.
    Captain John Smith explored the Chesapeake Bay and its tributaries 
in a series of voyages and travels from 1607 through 1609, while 
executing his company's directives to search for a ``northwest 
passage'' to the Pacific Ocean. Smith's two major explorations occurred 
in the summer of 1608, each leaving from Jamestown, Virginia. Between 
the two voyages, Smith and a small crew traversed the entire length of 
the Chesapeake Bay, explored the shoreline of the lower half of the 
Eastern Shore, and ventured into the major tributaries along the 
western shore of the bay. Smith had extensive interactions with Native 
Americans and recorded significant information about these peoples and 
the general Chesapeake environment in his book published in 1612. He 
also made one of the first and most detailed maps of the Chesapeake 
Bay. In Smith's words ``heaven and earth never agreed better to frame a 
more perfect place for man's habitation.''
    Four hundred years later, the Chesapeake Bay's basic geography 
remains relatively similar to Smith's time, but much else has changed. 
More than 16 million people live in the Chesapeake Bay watershed, with 
the densest concentrations at locations adjacent to where Smith 
traveled (Washington, DC, Baltimore, MD and the greater Norfolk/Hampton 
Roads area in VA). Human uses of the bay region have caused significant 
impacts on the Chesapeake environment and the Bay itself. The 
establishment of a national historic trail traversing the routes of 
John Smith's early voyages would likely provide increased public 
knowledge of the history, and sensitivity to the valuable resources of 
the Chesapeake Bay, as well as increased recreational opportunities.
    The National Park Service enjoys a close association with the 
Chesapeake Bay and local governments and organizations in the region 
through the Gateways and Water Trails Network, authorized by the 
Chesapeake Bay Initiative Act of 1998. This partnership system of 147 
designated Chesapeake Bay Gateways serves to connect the American 
public with the resources and themes of the nationally significant 
Chesapeake Bay. Through its coordination of the network, the National 
Park Service is also authorized to provide technical and financial 
assistance to gateways for enhancing interpretation, improving public 
access, and stimulating citizen involvement in conservation and 
restoration efforts. All of these efforts would complement the proposed 
trail. S. 2568 provides for coordination of the trail with the 
Chesapeake Gateways and Water Trails Network and the Chesapeake Bay 
Program.
    Our study of the feasibility of designating the Captain John Smith 
Chesapeake National Historic Trail is nearing conclusion. In March 
2006, the National Park System Advisory Board found the routes of John 
Smith's voyages to be nationally significant, a major requirement in 
the finding of national trail feasibility. The Advisory Board concluded 
that the trail is of national significance for its association with the 
following themes: (1) Ethnic Heritage (American Indians); (2) 
Exploration and Settlement; and, (3) Commerce and Trade.
    We expect to issue a draft report for public comment no later than 
August of this year. In light of this schedule, we would request that 
the committee defer action so that the study may be completed and the 
public given an opportunity to comment on any proposed designation 
alternatives. Our receipt of 167 letters regarding the study since it 
began indicates considerable public interest in trail designation.
    The Department wishes to recognize the generous support of the 
State of Maryland, Commonwealth of Virginia, and the Chesapeake Bay 
Commission during the conduct of this study.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or the committee might have.

                               ON S. 2627

    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's comments on S. 2627, the National Park 
System Advisory Board Act of 2006, a bill to extend the authorization 
and improve the composition of board members of the National Park 
System Advisory Board (Board).
    The Department supports S. 2627, which is similar to a proposal 
transmitted to Congress by the Administration on December 7, 2005. The 
Department wishes to thank Senator Domenici for sponsoring this 
legislation at the Department's request.
    The National Park System Advisory Board was first authorized in 
1935 under the Historic Sites, Buildings and Antiquities Act. The Board 
advises the Director of the National Park Service and the Secretary of 
the Interior on matters relating to the National Park Service, 
including the administration of the Historic Sites, Buildings, and the 
Antiquities Act; the designation of national historic landmarks and 
national natural landmarks; and the national historic significance of 
proposed national historic trails. The Board may advise on matters 
submitted to the Board by the Director, as well as any other issues 
identified by the Board.
    The Board's membership consists of no more than 12 individuals 
selected from citizens of the United States having demonstrated 
commitment to the mission of the National Park Service, and 
representing various geographic regions, including each of the seven 
administrative regions of the National Park Service. The Board has 
provided exemplary service to the Director of the National Park Service 
and works cooperatively with the Director to ensure the preservation of 
this Nation's important natural and historic places for future 
generations of Americans.
    The Board is an active body currently engaged on a broad front of 
issues, meeting quarterly and consulting regularly with the Director. 
Recent accomplishments and ongoing efforts include:

  <bullet> The Board regularly considers recommendations from its 
        National Historic Landmarks Committee about properties the 
        committee wishes the Board would recommend to the Secretary for 
        designation as National Historic Landmarks.
  <bullet> Last year, the Senate passed Senator Thomas's ``Heritage 
        Partnership Act'' (S. 234), which incorporated recommendations 
        from a Board report. The Act would create a system of National 
        Heritage Areas and clarify the relationship of those areas to 
        the National Park Service.
  <bullet> The Board just completed an advisory report to the Director 
        recommending that the National Park Service undertake a series 
        of pilot projects to test, measure and validate the premise 
        that the national parks contribute to healthy lifestyle through 
        active participation in park-based recreational activities. 
        This report supports the President's HealthierUS initiative and 
        Executive Order 13266, which calls on federal agencies to 
        increase the accessibility of resources for physical activity.
  <bullet> In support of President Bush's call to help, ``restore civic 
        and historical understanding throughout American Society,'' the 
        Board recently convened a panel of prominent American 
        historians and scholars. The panel counseled the National Park 
        Service about its education/interpretive mission and ways in 
        which the program offered visitors at parks and historic sites 
        can advance the President's goal.
  <bullet> Next week, the Board will review and advise the Director on 
        the National Park Service's proposed final revision of NPS 
        Management Policies. Participating in this assessment will be 
        several former National Park Service Directors and past Park 
        Service senior executives.

    S. 2627 proposes amending the Board's statutory authorization in 
four areas. The first area would modify the membership to the Board. 
This would be done by requiring at least four members to have expertise 
in the fields of history, archeology, anthropology, historical or 
landscape architecture, biology, ecology, geology, marine science or 
social science; three members to have expertise and prior experience in 
management of National or State parks or protected areas or natural or 
cultural resources management; three members to have expertise in any 
other professional or scientific discipline important to the mission of 
the National Park Service; at least one member to have expertise in 
historic recreational opportunities within units of the National Park 
System; and at least one member to be an elected official from an area 
adjacent to or within close proximity to a unit of the National Park 
System. The second area would require that the Advisory Board members 
adhere to ethics and conflict of interest provisions by removing the 
current law's exemption. The third area extends the authority of the 
Board to 2016. A fourth area of revision provides for technical 
amendments. The Department supports the amendments, which will increase 
the Board's overall effectiveness and influence and improve clarity and 
ease of reference.
    The National Park System Advisory Board is an invaluable partner of 
the Department as we both carry out the national vision that created 
the National Park System 90 years ago. Throughout that time, the 
Department and the Board have worked effectively and collegially 
together to enhance conservation efforts across the nation. The 
Department looks forward to continuing this relationship with the Board 
as we strive to position the NPS for its next 100 years.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or members of the committee may 
have.

                             ON S. RES. 468

    Mr. Chairman, thank you for the opportunity to appear before the 
subcommittee today to present the views of the Department of the 
Interior on S. Res. 468, supporting the continued administration of 
Channel Islands National Park, including Santa Rosa Island, in 
accordance with the laws (including regulations) and policies of the 
National Park Service.
    Because S. Res. 468 is a Senate resolution that will not be signed 
into law, the Department is not taking a position on the resolution 
itself. However, the Department strongly agrees with the sentiment 
expressed by the resolution that the National Park Service (NPS) should 
continue to manage Channel Islands National Park, including Santa Rosa 
Island, in a manner that provides for protection of the park's 
resources and their enjoyment by visitors to the islands.
    S. Res. 468 calls for the NPS to manage Santa Rosa Island, part of 
Channel Islands National Park, in a way that protects and allows 
interpretation of the natural, scenic, and cultural resources of the 
island and provides visitors with a safe and enjoyable park experience. 
It further states that the NPS should not be directed to manage Santa 
Rosa Island in a manner that would result in the public being denied 
access to significant portions of the island or that would be 
inconsistent with the responsibility of the NPS to protect native 
resources within the park.
    We understand that S. Res. 468 is in response to repeated attempts 
in recent years to allow deer and elk, and associated hunting 
operations, to remain on Santa Rosa Island indefinitely. The current 
effort in this regard is language included in H.R. 5122, the National 
Defense Authorization for Fiscal Year 2007, which requires the 
Secretary of the Interior to stop the plan to remove the deer and elk 
from the island as required by a court-ordered settlement agreement. 
This provision would effectively overturn the 1998 settlement 
agreement, that the NPS is legally bound to, that requires the phaseout 
of non-native deer and elk over several years and their complete 
removal from the island by the end of 2011. Until the deer and elk are 
removed and the hunting operation ends, most of the island will remain 
closed to the public for significant portions of each year.
    Channel Islands National Monument was designated in 1938 by 
President Franklin D. Roosevelt under the authority of the Antiquities 
Act. In 1980, the monument was expanded to include additional islands, 
including the 54,000-acre Santa Rosa Island, and redesignated as 
Channel Islands National Park. The park's purpose is to protect the 
nationally significant natural, scenic, wildlife, marine, ecological, 
archaeological, cultural, and scientific values of the five out of the 
eight California Channel Islands that comprise the park.
    The question of whether to allow hunting in units of the National 
Parks System is decided by Congress on a case-by-case basis. Congress 
discussed the issue of the appropriateness of hunting on the Channel 
Islands during consideration of the legislation to redesignate Channel 
Islands National Monument as a national park in 1979 and 1980, and made 
a deliberate decision not to allow hunting there. We feel that this is 
still the appropriate decision today.
    It is important to note that once it was determined that Santa Rosa 
Island was to be incorporated within Channel Islands National Park, 
Vail and Vicker's, Ltd. (V&V) requested that Santa Rosa Island be the 
highest priority for acquisition by the NPS. This was reflected in the 
enabling legislation. In 1986, the NPS purchased Santa Rosa Island for 
$29.5 million from V&V, who retained a 25-year non-commercial 
reservation of use and occupancy covering a 7.6-acre area containing 
the ranch house and a nearby field. At the request of V&V, supported by 
members of Congress, the NPS issued a series of 5-year special use 
permits (SUPs) to allow V&V to continue their cattle ranching and elk 
and deer hunting operations.
    In 1996, because of the impacts on endangered species and water 
quality issues, the National Parks Conservation Association sued the 
NPS. In 1997, V&V sued NPS to retain their current SUP and continue 
their operations until 2011. A three-way settlement agreement, entered 
into court in 1998, provided for removing the cattle by the end of 
1998, which occurred on schedule, and for phasing out deer and elk, and 
removing them altogether by the end of 2011, when the V&V 25-year non-
commercial reservation of the 7.6 acre ranch expires. The settlement 
agreement included two options under which hunting could continue. The 
parties chose the second option, which was to manage the deer and elk 
using adaptive management guidelines. Each year, the NPS, with 
recommendations from an agreed upon scientific panel, determines 
whether an accelerated reduction in either the deer or elk herds are 
necessary. Regardless of the management option, all deer and elk are to 
be removed by V&V no later than the end of 2011. At that time, V&V will 
be required to remove all their property, including any remaining deer 
and elk, which V&V owns.
    It is necessary to end the hunting operation to open up the island 
for other recreational purposes, such as hiking, camping, and 
sightseeing, on a year-round basis. So long as a hunting operation 
continues, 90 percent of the island will be off limits for general 
recreation for four to five months of each year. After spending $29.5 
million to purchase the island and more to restore native plants and 
animals, the NPS has been eager to make this spectacular island 
available for full-time enjoyment by the general public.
    Santa Rosa Island is currently the most accessible of the five 
islands that are part of Channel Islands National Park. It is the 
island where the NPS can most easily and cost effectively welcome 
American citizens who have physical disabilities, including our men and 
women in uniform who have become disabled in the service to our Nation.
    Removal of the non-native deer and elk is necessary for native 
plants and animals to flourish on Santa Rosa Island, and to ensure that 
efforts spent on restoration are not wasted. Channel Islands National 
Park has been in the forefront of the NPS's efforts to control non-
native species that out-compete the native species. The park has 
undertaken several successful ecological restoration programs. The 
eradication of introduced rats from Anacapa Island has resulted in the 
increased survivability of the Xantus's murrelet. The removal of 
introduced rabbits, cattle, sheep, and mules from Santa Barbara, Santa 
Rosa, Santa Cruz and San Miguel Islands has allowed for vegetation 
restoration. Park staff, local communities, the Nature Conservancy, and 
the Montrose Trustees, who worked together to reestablish the American 
bald eagle were recently rewarded with the first eaglet born on the 
northern Channel Islands in 50 years, on Santa Cruz Island. The NPS 
looks forward to more successes of this type in the Channel Islands, 
including Santa Rosa Island.
    For all these reasons, the Department supports the continued 
implementation of the 1998 settlement agreement, so that the day will 
come, after 2011, when NPS will be able to manage Santa Rosa Island as 
Congress intended when Channel Islands National Park was established in 
1980.
    Mr. Chairman, that concludes my statement. I will be happy to 
answer any questions you or members of the subcommittee may have.

    Senator Thomas. Thank you very much.
    Ms. Gallagher.

 STATEMENT OF PATRICIA GALLAGHER, EXECUTIVE DIRECTOR NATIONAL 
          CAPITAL PLANNING COMMISSION, WASHINGTON, DC

    Ms. Gallagher. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to speak with you today.
    For the record, I am Patricia Gallagher, executive director 
of the National Capital Planning Commission. The commission is 
authorized by Congress to provide overall planning and guidance 
for the development and preservation of Federal lands and 
buildings in the National Capital Region. Through its planning 
and design review process, the commission works to protect and 
enhance the extraordinary historical, cultural, and natural 
resources of the Nation's Capital.
    To begin, Mr. Chairman, I must state emphatically that the 
National Capital Planning Commission supports the Vietnam 
Veterans Visitor Center. Our concern is with maintaining the 
integrity of the site selection and design review process, 
which Mr. Martin so clearly has described as making a key 
contribution.
    In my abbreviated testimony today, I want to make three 
points. First, the Mall is a special place that we have a duty 
to protect. Millions of tourists visit the Nation's Capital 
every year to see sites that are revered by all Americans. As 
trustees of our national heritage, Congress and Federal 
agencies have a responsibility to site, design, and build 
commemorative works, like the Vietnam Veterans Center, and, at 
the same time, to preserve some of the country's most important 
buildings and public spaces.
    The review and approval procedures embodied in our Nation's 
laws provide a means to take into account a full range of 
important values, including protecting existing monuments, 
memorials, and open spaces, as well as developing new 
commemorative works in ways that will enhance our treasured 
places, our history, and our culture. The Commemorative Works 
Act assures this important outcome, and setting aside this 
process makes protection of these values far more difficult.
    Second, Mr. Chairman, the review process for the site 
selection is moving forward appropriately. Congress authorized 
the visitor center in November 2003. In January 2005, the 
National Park Service and the Vietnam Veterans Memorial Fund 
made available to the public their site selection study, which 
identified seven alternative sites for the center at or near 
the National Mall. In March and May 2005, the Park Service and 
the Fund consulted with the National Capital Memorial Advisory 
Commission, as required by law. In September 2005, the Park 
Service requested NCPC's approval of the Henry Bacon Drive 
site. At its October meeting, the NCPC members deadlocked on 
approval and asked the Park Service to provide additional 
information about other sites along with information on the 
building program that would enable them to more fully 
understand the impacts of the center, that the center might 
have on--above ground at any site.
    Also in accordance with NCPC's environmental policies and 
procedures, and in consultation with the Council on 
Environmental Quality, NCPC requested the Park Service submit 
an environmental assessment with its next submission for site 
approval. This assessment will cover such matters as the effect 
of the visitor center on views to and from the Lincoln and 
Vietnam Memorials and important information about the 
environmental and historical impacts of the visitor center at 
two sites. This assessment is nearing completion and will be 
released to the public at the end of this month. NCPC intends 
to act on this matter at its August 3rd, 2006, regular public 
meeting. In short, the process is working.
    Finally, both bills would override all or part of this 
evaluation and public participation process. The Senate bill 
would override the National Historic Preservation Act and the 
National Environmental Policy Act for this project for both 
site selection and design. The House bill would select the 
Bacon Drive site without a review that takes into account 
possible impacts the visitor center would have on important 
environmental and historic preservation concerns, and it would 
limit our ability to propose design parameters and mitigation 
for the effects of the siting decision. These are critical 
considerations that will ensure the best siting and design for 
a visitor center that is worthy of our honored veterans and the 
American public.
    Mr. Chairman, we would be pleased to keep this committee 
informed of our progress on this project and answer any 
questions you might have. Thank you for your consideration.
    [The prepared statement of Ms. Gallagher follows:]

     Prepared Statement of Patricia Gallagher, Executive Director, 
                  National Capital Planning Commission

    Thank you for the opportunity to provide testimony on S. 2419 and 
H.R. 4882 related to the Vietnam Veterans Memorial Visitor Center 
(``Visitor Center''). The National Capital Planning Commission and the 
Administration actively support a Visitor Center to inform and educate 
the public about the Vietnam Veterans Memorial and the Vietnam War. We 
also support a sound process for site selection that includes 
development and evaluation of environmental and historical information 
and an opportunity for public input as provided under the Commemorative 
Works Act process. It is important to note that the National Park 
Service has nearly completed an Environmental Assessment, and wilt 
solicit public comment by the end of May, such that a site selection 
decision can move forward at NCPC's August 3, 2006 meeting.

                               THE BILLS

    The Commemorative Works Act process provides an important 
opportunity for the public to review the site for a commemorative work 
like this Center on the National Mall--one of the nation's most 
important public spaces; and provides for gathering and evaluating 
important environmental and historic preservation data in order to 
permit informed decisions about siting and design. The Commemorative 
Works Act process takes into account possible impacts, facilitates the 
development of design parameters and mitigation for the effects of the 
siting decision, and assures the best siting and design for a Visitors 
Center and a National Mall that is worthy of our honored veterans and 
the American public. While the text of S. 2419 is not clear, it appears 
to preempt meaningful evaluation, public input, and review at the site 
selection phase, and the concept, preliminary, and final design 
approval stages as well.
    The House bill, H.R. 4882 provides that the site of the Visitor 
Center will be at an area specified in that bill (``the Bacon Drive 
site''). It does not override the Commemorative Works Act process for 
the design phases of the project, including its implementation with 
NEPA and the National Historic Preservation Act. While H.R. 4882 as 
amended permits evaluation and public involvement in these design 
stages, it still precludes evaluation and public involvement at the 
critical basic stage of site selection.

   THE MALL IS A SPECIAL PLACE THAT WE HAVE A SPECIAL DUTY TO PROTECT

    As trustees of our nation's heritage, all of us--including federal 
agencies and Congress--have an important responsibility to site, 
design, and build commemorative works like the Visitor Center, and to 
preserve and protect some of the country's most important buildings and 
public spaces that grace the nation's capital. The National Mall is of 
particular importance as a ceremonial and cultural symbol of America's 
rich history. The review and approval procedures embodied in our 
nation's laws ensure the provision of important information and provide 
a means to take into account a full range of important values, 
including protection of existing monuments, memorials, and open spaces, 
as well as the development of new commemorative works in ways that 
enhance our treasured places, our history, and our culture.
    The Commemorative Works Act process assures this important outcome. 
For example, site selection for the Visitor Center may affect historic 
trees and spaces, views to and from the Lincoln Memorial and the 
Vietnam Veterans Memorial, traffic at a major gateway to our nation's 
capital, and the visitor experience to the Mall. The Public Law that 
authorized the Visitor Center provides for application of site and 
design criteria under the Commemorative Works Act and requires that the 
size of the Visitor Center be limited to ``prevent interference or 
encroachment on the Vietnam Veterans Memorial and to protect open space 
and visual sightlines on the Mall.'' The Commemorative Works Act 
process ensures that the public has an important role and can give 
views and comment on alternatives for meeting these standards.

                 SUMMARY OF THE REVIEW PROCESS TO DATE

    The impetus for the proposed legislation appears to be a concern 
that the review process for site selection for the Visitor Center has 
been slow. A look at the process to date shows that it has moved along 
appropriately.
    Our nation has commemorated Vietnam Veterans with three memorial 
components on the National Mall. These are: the Vietnam Veterans 
Memorial Wall and the three service men statue; the women in service to 
the Vietnam War statue; and the Vietnam Veterans Memorial Plaque. In 
November 2003, Congress passed Public Law 108-126, authorizing the 
Vietnam Veterans Memorial Fund (the ``Fund'') ``to construct a Visitor 
Center at or near the Vietnam Veterans Memorial on Federal land in the 
District of Columbia, or its environs . . . .'' The Act further 
reinforces that the Commemorative Works Act process, including approval 
by the National Capital Planning Commission and the Commission of Fine 
Arts, applies. The second title of the legislation establishes a 
Reserve on the Mall and underscores that siting of new commemorative 
works other than the Visitor Center is prohibited in the Reserve.
    Congress has made clear that the Visitor Center is to be sited and 
designed through the thoughtful and public process specified in the 
Commemorative Works Act as amended in P.L. 108-126. That process 
provides for site selection that is reviewed by the National Capital 
Memorial Advisory Commission (the ``NCMAC''), and subsequently approved 
by the Commission of Fine Arts (``CFA'') and the National Capital 
Planning Commission (``NCPC''). The Public Law specifies certain design 
requirements, such as that the Visitor Center be underground; it also 
provides for effective development, review and approval of the design 
of the Visitor Center. In April of 2004, after several years of work 
with CEQ, NCPC updated its environmental review procedures with 
specific provisions for site and design decisions under the 
Commemorative Works Act to ensure that compliance with the National 
Historic Preservation Act and the National Environmental Policy Act 
provides important information to the decision-makers and a key role 
for the public. This approach assures that there is full and effective 
vetting and weighing of impacts and values--particularly in such 
greatly significant places as the National Mall.
    After the authorizing legislation was enacted, the Fund worked with 
the National Park Service to develop and evaluate a number of 
alternative sites for the Center. In January 2005, the National Park 
Service and the Fund made available to the public their site selection 
study, which identified seven alternative sites on or near the National 
Mall. NPS and the Fund then submitted the study to the National Capital 
Memorial Advisory Commission (``NCMAC''), and in May 2005, the NCMAC 
recommended advancing two sites, Site A and Site E--the Department of 
the Interior South Building--for further study by the National Park 
Service. (A map with sites indicated is attached). In September 2005, 
the National Park Service submitted a request for approval of its 
preferred Site A to the Commission of Fine Arts and the National 
Capital Planning Commission. That same month, CFA gave conditional 
approval for Site A, raising many concerns about the sensitive nature 
of that site and advising NPS that CFA approval could be given only 
with the applicant's assurances that the project design would be 
developed to alleviate CFA's concerns that the Center not detract from 
the setting of the Lincoln Memorial and the experience of the Vietnam 
Veterans Memorial.
    The National Capital Planning Commission considered the application 
for site approval at its meeting of October 6, 2005. By a tie vote, the 
Commission did not approve or disapprove Site A. Rather, it voted 
unanimously to: ``Request that the National Park Service submit a study 
of the Interior South Building front yard, Site G, and any other sites, 
to determine if they are feasible for the Vietnam Veterans Memorial 
Center, using the same level of analysis previously undertaken for Site 
A; and that (b) The applicant [NPS] will also provide sufficient 
information on the Center's proposed building program to enable the 
Commission to better understand the impacts that the Center might have 
above ground on any site.''
    NPS conducted a site analysis of Site G. With regard to the 
Interior South Building front yard, the Department analyzed this option 
and determined that any change would have a negative impact on the 
operation of the offices currently located there and the ability of the 
Department to meet its mission. The Department explained these issues 
in a letter to NCPC dated October 27, 2005 citing operational, 
security, public access and design concerns.
    On October 28, 2005, NPS resubmitted the preferred site, Site A, 
for approval along with the additional analysis on Site G for 
consideration at the December 1, 2005 meeting of the National Capital 
Planning Commission. The NCPC subsequently removed the project from 
December meeting agenda, citing the lack of the required Environmental 
Assessment.
    The National Capital Planning Commission developed the updated 
Policies and Procedures in close consultation with the Council on 
Environmental Quality--the agency charged with oversight of NEPA 
through work that commenced in the year 1999. These updated policies 
were unanimously adopted by the Commission on April 1, 2004 after 
approval by the Council on Environmental Quality (``CEQ''). The Visitor 
Center is only the second Commemorative Work to be reviewed under the 
new Policies and Procedures, with the first the Victims of Communism 
Memorial--being non-controversial and meeting criteria in NCPC's 
Policies and Procedures for a categorical exclusion from NEPA. The 
Council on Environmental Quality (``CEQ''), by letter of December 1, 
2005, confirmed that an Environmental Assessment or Environmental 
Impact Statement is required by NCPC procedures at the site selection 
stage under the Commemorative Works Act in order to properly inform the 
Commission and involve the public in the review of the Center. (CEQ's 
Letter of December 1, 2005 is attached).
    Since that time, NCPC and the National Park Service, with 
assistance from CEQ, have worked to develop a cooperative and joint 
approach to an Environmental Assessment. A letter of agreement dated 
February 15, 2006 and signed by NCPC and NPS, sets forth the substance 
and process for the EA, and a useful EA is nearing completion. As of 
May 10, 2006, a revised working draft Environmental Assessment has been 
circulated for review by the National Park Service and NCPC staff. We 
expect the NPS will circulate an EA for public comment by the end of 
May and will, as the sponsoring agency, resubmit a request for site 
approval. NCPC will expeditiously review the application. Both the 
National Park Service and NCPC fully expect that this submission will 
be considered at NCPC's August 3, 2006 meeting.

 REVIEW AND EVALUATION OF SITE SELECTION AND DESIGN FOR THIS MEMORIAL 
                           PROTECTS THE MALL

    While the materials that the National Park Service developed in 
2005 for site selection for the Visitor Center looked at the effect of 
the environment on the proposed Visitor Center, there continues to be a 
need for important information about the effect of the Center on the 
environment and historic resources of the proposed site, the National 
Mall, and existing Memorials. The required environmental assessment, 
the opportunity for the public to engage in the process, and federal 
review of this project, will result in a Center that the nation's 
veterans and all Americans can be proud of. This commendable and 
important project deserves no less. Because of the special importance 
of the National Mall, and the particular concern of Congress in the 
Commemorative Works Act that agencies protect other Memorials on the 
National Mall, this information is crucial.
    The site selection process as specified in the Commemorative Works 
Act should move forward on a course that will ensure the kind of 
professional evaluation that Congress has recognized as important and 
useful. Most importantly, this process brings about a much better 
outcome by taking into account possible impacts, permitting mitigation, 
and assuring the best siting and design of a Visitor Center on the 
National Mall that is worthy of the nation's honored veterans and the 
American public. In summary, the process for review of site selection 
for the Visitor Center is moving forward quickly without further 
legislation.
                              Attachments
                 Executive Office of the President,
                          Council on Environmental Quality,
                                  Washington, DC, December 1, 2005.
Ms. Lois J. Schiffer,
General Counsel, National Capitol Planning Commission, Washington, DC.
    Dear Ms. Schiffer: This letter supplements our letter of March 31, 
2004, documenting and concluding the review by the Council on 
Environmental Quality (CEQ) of the final environmental and historic 
policies and procedures developed by the staff of the National Capitol 
Planning Commission (NCPC) for compliance with the National 
Environmental Policy Act (NEPA) and the National Historic Preservation 
Act (NHPA). The March 31, 2004 letter addressed changes to Section 4 of 
those procedures that were necessary to address the relationship 
between environmental documentation for siting decisions and subsequent 
environmental documentation for design decisions. Pursuant to CEQ NEPA 
regulations, 40 CFR 1507.3(a), CEQ found that the NCPC NEPA procedures 
conform to NEPA and CEQ regulations. In accordance with your request, 
this letter offers CEQ assistance to NCPC and the National Park Service 
as you address the NEPA decisions that NCPC is required to make in the 
process of approving a site for a commemorative work.
    Section 4 of the NCPC NEPA procedures identifies the Commission 
decision points for five stages of decision-making and states that the 
``Commission requires the following specified environmental documents 
(NEPA Environmental Assessment, Environmental Impact Statement, or a 
Categorical Exclusion determination) and the NHPA Section 106 process 
information that must accompany the request for a review decision.'' 
Section 4(a). For the Site Proposal Approval decision under the 
Commemorative Works Act, 40 U.S.C. 8905(a), or other law providing for 
separate site and design proposals, the Commission requires the 
submitting agency to ``submit an environmental document that considers 
the potential environmental effects of a site selection decision upon 
the proposed site and a reasonable range of alternative sites.'' 
Section 4(a)(2). This provision acknowledges the relationship between 
the environmental documents for site and subsequent design decisions by 
stating that the ``level of detail in the environmental analysis should 
be proportional to the scope of the site decision . . . and should 
defer detailed consideration of the effects of the design approval 
decision to a subsequent environmental document, to the extent that 
detailed consideration of alternative design proposals is 
impractical.'' Id.
    Section 4 requires NCPC, in cooperation with the submitting agency, 
to make decisions about the level of detail in environmental analysis 
that it needs to provide an adequate environmental document in support 
of decision-making on a site proposal. Section 4 recognizes that site 
decisions will range from environmentally insignificant to nationally 
significant, and thus requires one of the three forms of NEPA 
documentation, an Environmental Impact Statement, Environmental 
Assessment, or a Categorical Exclusion determination, for these 
decisions.
    As noted in our letter of March 31, 2004, CEQ has offered to assist 
NCPC and cooperating agencies in the implementation of these 
provisions. We look forward to working with you on the practical 
application of these provisions to pending decisions under the 
Commemorative Works Act.
            Sincerely,
                                          Edward A. Boling,
                                            Deputy General Counsel.
                                 ______
                                 
      NCPC Chronology for Vietnam Veterans Memorial Visitor Center

    November 17, 2003--Congress passes Public Law 108426 authorizing 
Vietnam Veterans Memorial Fund ``to construct a visitor center at or 
near the Vietnam Veterans Memorial on Federal land in the District of 
Columbia, or its environs . . .'' consistent with the Commemorative 
Works Act.
    April 1, 2004--National Capital Planning Commission (NCPC) adopts 
revised Environmental and Historic Preservation Policies and Procedures 
by unanimous vote. Procedures include requirement for an environmental 
document (that is either an Environmental Assessment or Environmental 
Impact Statement) at site selection stage for commemorative works.
    March 14, 2005--NCPC's executive director sends letter to NCMAC 
advising that NPS site selection study does not adequately address the 
project's impacts on its wider context and recommends that all 
potential sites remain on the table. NCPC's executive director notes 
that Site A could be problematic due to potential adverse affects to 
vistas, sightlines, and historic settings.
    May 11, 2005--As required under the Commemorative Works Act, the 
National Park Service (NPS) presents site selection study for Vietnam 
Center to National Capital Memorial Advisory Commission (NCMAC) for 
recommendation. NCPC testifies that Site A on the Lincoln Memorial 
Grounds is too sensitive and recommends that applicant give further 
consideration to Site E, Department of the Interior South Building. 
NCMAC recommends forwarding both Site A and Site E to NCPC and 
Commission of Fine Arts (CFA) for action.
    June 27, 2005--NCPC sends letter to NPS indicating need for 
additional study, including environmental information, and recommending 
further consideration of Interior South Building, Site E.
    September 2, 2005--NPS submits request for October site approval of 
Site A on Lincoln Memorial grounds to NCPC and CFA using same 
submission materials previously presented to NCMAC for consideration. 
NPS cites Department of the Interior statement that the Interior South 
Building (Site E) is not available. At its September meeting, CFA gives 
conditional approval for Site A specifying great concern about the 
sensitive nature of Site A and requiring NPS to prove that the Center 
can be designed without disrupting the Lincoln and Vietnam Veterans 
Memorials' settings. CFA states that it will retract site approval if 
NPS cannot make such a case during the design phase.
    October 6, 2005--At its October meeting, NCPC does not approve Site 
A, instructing NPS to provide a comparable level of analysis for the 
south lawn of the Interior South Building and for Site G as it provided 
for Site A, and to provide sufficient proposed building program 
information to enable the Commission to better understand the impacts 
that the Center might have above ground on any site. The staffs report 
(issued September 29) reiterates that NPS has provided inadequate 
environmental information. The report also indicates NPS's obligations 
for consultation with other agencies and parties, under Section 106 of 
the National Historic Preservation Act, is not yet sufficient for 
decision-making.
    October 28, 2005--NPS resubmits a request for approval of Site A 
(for December commission meeting), citing Department of the Interior 
statement that the lawn of Interior South Building is not available.
    November 18, 2005--NCPC staff sends draft report to NCPC Executive 
Committee.
    November 23, 2005--NCPC staff discusses draft report with NCPC 
Executive Committee, noting that NPS has still not submitted 
information on how the Center will impact the surrounding environment, 
and that NPS has not provided the required environmental document (that 
is an Environmental Assessment or Environmental Impact Statement) at 
the site selection stage for all commemorative works.
    November 28, 2005--NPS, NCPC and Council on Environmental Quality 
(CEQ) meet to discuss NCPC's requirements for environmental 
documentation. CEQ confirms that NCPC's Environmental and Historic 
Preservation Policies and Procedures adopted in April of 2004 require 
an environmental document (that is either an Environmental Assessment 
or Environmental Impact Statement) at the site selection stage for all 
commemorative works. CEQ subsequently reiterates this confirmation in 
writing.
    November 29, 2005--NCPC Executive Committee removes project from 
the agenda, citing lack of a required environmental document (that is 
either an Environmental Assessment or Environmental Impact Statement).
    December 1, 2005--NCPC Chairman convenes meeting with NPS and CEQ 
to discuss NCPC Environmental and Historic Preservation Policies and 
Procedures applicable to the site selection stage of commemorative 
works, including the Vietnam Veterans Memorial Center. CEQ confirms 
again that NCPC's procedures require an environmental document (that is 
either an Environmental Assessment or an Environmental Impact 
Statement) at the site selection stage for all commemorative works, 
including the Center. All parties begin to discuss the content and 
process for the NPS to move forward with an Environmental Assessment 
for the site selection stage of the Center.
    January 9, 2006--NCPC and NPS meet to discuss the process for 
moving forward on an Environmental Assessment for the Center, and agree 
to put together a letter of understanding between the parties as to the 
process and content for the Environmental Assessment. NPS indicates 
that it is moving forward to contract with a consultant to produce an 
Environmental Assessment for the Center.
    January 9-26, 2006--NCPC and NPS work jointly to produce letter of 
understanding on Environmental Assessment process and content.
    January 26, 2006--NCPC and NPS meet again to review Environmental 
Assessment process and content. NPS states that the consultant is 
beginning work on the Environmental Assessment.
    January 26-February 15, 2006--NCPC and NPS work jointly to finalize 
letter of understanding for Environmental Assessment process and 
content.
    February 15, 2006--NCPC and NPS finalize and execute letter of 
understanding. NCPC contacts NPS to suggest an immediate meeting among 
NCPC, NPS and NPS consultant to avoid any potential delay or 
misunderstanding on the consultant's part. NPS confirms that consultant 
is under contract and agrees to schedule the requested meeting. Letter 
of understanding also indicates that NPS will conduct Section 106 
consultation under the National Historic Preservation Act concurrent 
with completion of the Environmental Assessment for the Center for site 
selection.
    March 17, 2006--CEQ convenes meeting with NCPC, NPS, and the 
Vietnam Veterans Memorial Fund to discuss status of Environmental 
Assessment.
       prior actions affecting vietnam veterans memorial grounds
    1982--Vietnam Veterans Memorial Wall dedicated
    1984--Three Servicemen Statue dedicated on the Memorial grounds
    1993--Vietnam Women's Memorial dedicated on the Memorial grounds
    2004--Vietnam Veterans Memorial Plaque dedicated on the Memorial 
grounds

    Senator Thomas. Thank you very much. Thank you both.
    We'll have a few questions, I suspect. We'll try and have 
short questions, and perhaps you can have short answers, and 
that will get us through.
    Mr. Martin. We'll do our best.
    Senator Thomas. Mr. Martin, on the Constitutional Center, 
how much money does it currently take in that would be affected 
by this legislation?
    Mr. Martin. It runs between $4 to $6 million a year. It's 
been averaging $4 million, but this year, because of some 
special exhibits, it looks like it will be about $6 million.
    Senator Thomas. What happens to the money, currently?
    Mr. Martin. Under a cooperative agreement, it is being 
utilized by the Center, and this legislation would just clarify 
it and make sure that there was no question that that was the 
intent.
    Senator Thomas. So, it's already staying with the 
institution.
    Mr. Martin. That's correct. But this----
    Senator Thomas. Why is this legislation necessary?
    Mr. Martin. I think, in our minds, it just ensures that the 
tool we're using is the accurate one. And sometimes when we're 
doing things, passing money through and allowing it, with just 
an agreement, it's better to have it codified.
    Senator Thomas. Would this be something picked up by other 
park sites?
    Mr. Martin. It potentially could, because of some of the 
other significant projects that are underway that are being put 
together, with the need for revenues to make them operable, it 
could be, yes.
    Senator Thomas. Parks are generally 80-20, in terms of 
their funding. They keep 80 percent and turn 20 percent into 
the fund; isn't that normal?
    Mr. Martin. Yes, 80 percent stays in the park, and 20 
percent goes to a national fund, for distribution.
    Senator Thomas. OK. On the Clinton birthplace, what's, 
roughly, the annual cost to operate and maintain that? Do you 
have any idea?
    Mr. Martin. Our preliminary estimates are roughly $600,000 
a year to maintain it and operate it.
    Senator Thomas. And who's paying this now?
    Mr. Martin. That's the entities that are--that have it. I 
think that they have a small foundation that's running that.
    Senator Thomas. That cost would be shifted to the Park 
Service?
    Mr. Martin. Yes.
    Senator Thomas. OK. On the Vietnam Center, what's the role 
of the Park Service in reviewing these projects? What other 
organizations are involved?
    Mr. Martin. Our role is basically to submit a 
recommendation to the National Capital Planning Commission and 
to the commission on Fine Arts. All three agencies must agree 
on the site once a memorial site is authorized to be 
undertaken.
    Senator Thomas. I see. This moves it up, then, or at least 
pushes it on the report. Are you aware of any other instances 
where the Congress has intervened, in terms of sites such as 
this?
    Mr. Martin. Not in the last 20 years, is what we looked at, 
since the most recent act, the Commemorative Works Act.
    Senator Thomas. When do you expect the study on the John 
Smith Water Trail to be completed?
    Mr. Martin. We hope to have it out in August and completed 
in October.
    Senator Thomas. Would that be in time to meet the 
centennial?
    Mr. Martin. The 400-year celebration, yes.
    Senator Thomas. Good.
    Mr. Martin. We feel that it should be completed in time.
    Senator Thomas. OK. Let's see. Ms. Gallagher, when do you 
think this study will be completed?
    Ms. Gallagher. We've been working very cooperatively with 
the National Park Service over the last several months. They 
are charged with producing the environmental assessment. They 
are scheduled to--the document has been completed, in draft, 
and they are expected to release it for public review and 
comment at the end of this month. So, we anticipate presenting 
the project--the site-selection approval to our commission at 
its August 2006 meeting.
    Senator Thomas. I understand your organization waited until 
November 2005 to say it was necessary to have an environmental 
assessment; why did you wait so long?
    Ms. Gallagher. Mr. Chairman, we had advised--at the staff 
level, we had advised the National Park Service, in our early 
consultation, that the site analysis developed by the fund and 
the Park Service contained inadequate environmental 
information. We had advised them, in writing, in e-mail, and in 
conversations. When the project came to the commission in 
September, our staff report noted, in quite a bit of detail, 
the insufficient environmental information contained in the 
submission. We then consulted with the commission, the Council 
on Environmental Quality, for adherence to NCPC's revised 
environmental policies and procedures to clarify the exact 
nature of the environmental information that was required for 
site selection. The CEQ did agree with the NCPC that the 
submission materials were inadequate. So, therefore, the 
submission was removed from further consideration until that 
environmental assessment was complete.
    Senator Thomas. This has taken a little longer than it 
probably would have been, had this whole thing begun in one 
package in the beginning.
    Ms. Gallagher. We first received the submission for our 
formal review in September 2005, so we don't feel that this was 
delayed unduly, on our part.
    Senator Thomas. All right, thank you.
    Senator Akaka, do you have any questions?
    Senator Akaka. Yes, thank you very much, Mr. Chairman.
    Mr. Martin, I would like to begin with a question 
concerning Channel Islands National Park. According to your 
testimony, in enacting the enabling legislation for the park, 
Congress--and I'm quoting--``made a deliberate decision not to 
allow hunting there. We feel that this is still the appropriate 
decision today.'' In addition, it is my understanding that Park 
Service regulations state that hunting is prohibited in the 
National Park System unless specifically authorized by law; 
and, even then, it is only allowed if the park superintendent 
determines that the hunting is consistent with public safety 
and enjoyment and sound resource management principles.
    According to your testimony, the previous owner of the 
island retained use for 7\1/2\ acres of land surrounding a 
ranch house for noncommercial use, but the rest of the island 
was conveyed to the United States without restriction. My 
question is, what authority did the Park Service have to allow 
commercial hunting within the park?
    Mr. Martin. To be honest with you, I'm not sure. I think 
that that was done through an agreement, that it was probably 
not in accordance with our practices or regulations, but in 
negotiations, after the purchase and for that life estate, it 
was determined that they felt, I guess, it could be authorized. 
I don't feel that that's something that we would do if we were 
starting over again now.
    Senator Akaka. Thank you for your candid answer there.
    I'd like to follow up with a related question. Even if the 
hunting was a legal activity within the park, the hunting on 
Santa Rosa Island is a large-scale commercial operation. As you 
noted, the reservation retained by the previous owner was for 
noncommercial use. As I understand the situation on Santa Rosa 
Island, the Vail & Vickers Company uses land it no longer owns 
for the hunting operation. It charges thousands of dollars per 
trip, and keeps all of the revenue without a concessions 
contract or any other payment to the Park Service.
    Now, first of all, is my understanding correct? And, if so, 
what authority did the Park Service have to allow this to 
occur?
    Mr. Martin. I think, at this point in time, it's upholding 
our portion of the settlement agreement. And we feel that 
that--the court-ordered settlement agreement that we've worked 
out allows us to continue. But that's also, I think, the reason 
why we feel, in 2011, it needs to stop.
    Senator Akaka. You have referred to the 1998 settlement 
agreement which allowed hunting to continue on the island until 
2011. Is the National Park Service generally able to enter into 
binding agreements to allow activities for which it has no 
legal authority?
    Mr. Martin. I think, as a result of court settlement 
agreements, I would say that that's--that we feel that we have 
sufficient legal authority to manage the island like we are 
now. But I think that one of the reasons that we entered into 
it was some of the lack of the jurisdictional issues that 
you're bringing up that had been laid out prior to that. And it 
is not a normal set of circumstances, for sure.
    Senator Akaka. Yes. Well, thank you very much for those 
responses. I just want to be sure my understanding is correct 
here.
    Ms. Gallagher, your testimony states that the NCPC fully 
expect that the issue of the visitor center location will be 
considered at the commission's next meeting, in August. While 
assurances--what assurances can you give that the location 
issue will not only be considered, but that it will be resolved 
by the commission's next meeting?
    Ms. Gallagher. We fully believe that the work that has been 
conducted by the National Park Service in completing its 
environmental assessment over the past couple of months will be 
sufficient to meet our requirements under our environmental 
policies and procedures. We have the full support of commission 
members understanding the significance of this project. My 
chairman has committed to expedite this--the review and 
approval of this project.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    I want to focus on the John Smith Water Trail issue, and my 
questions will be directed to Mr. Martin.
    Earlier this year, the National Park System Advisory Board 
found that the trail is nationally significant, which is one of 
the key criteria for designation. In your testimony, with 
regard to the remaining two criteria, Mr. Martin, you stated 
that, quote, ``We have not encountered any information that 
would lead us to believe that the trail fails to meet the 
required criteria for designation.''
    Now, although the study's not yet completed, is it your 
view that the proposed John Smith Water Trail satisfies the 
remaining two criteria--namely, it's a route with established 
historic uses, and it has significant potential for outdoor 
recreation and historical interpretation?
    Mr. Martin. Yes.
    Senator Allen. Thank you. Good answer. I like that.
    [Laughter.]
    Senator Allen. Adducing the good testimony.
    Second, Mr. Chairman, Senator Sarbanes referenced this 
also, but I don't think it was made part of the record. The 
U.S. Department of the Interior, on March 20 of this year, the 
Landmarks Committee unanimously recommended that the full 
advisory committee approve the statement of national 
significance for the proposed Captain John Smith Chesapeake 
National Historic Water Trail. On March 21 of 2006, the first--
the full advisory board voted unanimously to approve the 
statement of national significance, and that will be put into 
the full feasibility study. That is a correct assessment; 
right, Mr. Martin?
    Mr. Martin. Yes.
    Senator Allen. I'd like this to be made part of the record 
of the committee.*
---------------------------------------------------------------------------
    * The study has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Thomas. Without objection.
    Senator Allen. Now, Mr. Martin, in January of this year, 
the Park Service did begin the whole--the full public process 
by sending out letters to interested parties, providing notice 
that the National Park Service was moving forward with the 
study that we authorized by legislation previously. Based on 
your testimony and the number of letters--out of the nearly 200 
letters, or any comments you've received, have any of them been 
opposed to this water trail?
    Mr. Martin. Not that I'm aware of. I don't have a complete 
breakdown. I think we've received about 170, and my 
understanding is that it's been supportive. There could be some 
in there that express concerns over what the Federal 
involvement--or exactly how the trail would be managed, 
questions like that. But my understanding is that they've been 
very much supportive of the trail.
    Senator Allen. And the Governors of Virginia, Maryland, 
Pennsylvania, and Delaware are supportive of the trail?
    Mr. Martin. That's my understanding.
    Senator Allen. You mentioned one of the reasons for 
requesting the committee to defer action on the bill is to wait 
until the full feasibility study is completed, and you said it 
would probably be completed in October. Just so you understand 
the schedule here, in October, we're going to be out of 
session. Senator Akaka will be cruising on his way to 
reelection in Hawaii. There will be others that will not--we're 
out. We have elections in November. The only time, as a 
practical matter, after this is completed, which will be in 
late October/November, which would be in the event that we have 
a lame-duck session sometime, during the holidays, before 
Christmas, which means mostly--and who knows if something like 
this would pass then. Then the way this place operates is, you 
go into session January 3 of next year; usually nothing much 
happens in January, to the aggravation of some of us, but 
nothing happens much; you wait for the State of the Union 
Address; and sometime in February, you get into legislating; 
and it would probably pass in February of next year. Next year 
is the 400th anniversary.
    And so, having us wait until the full study is completed, 
and given the time it takes to move legislation, and also 
looking at the calendar this year, aren't we--as a practical 
matter, if we waited--precluding Congress from establishing the 
trail this year, in advance of the 2007 400th anniversary of 
Jamestown?
    Mr. Martin. Again, I think our view is that these proposals 
are generally strengthened by having it out for public input, 
that we get a lot of valuable insight into how to manage the 
trails or manage new park areas. And so, that's why we try, as 
best we can, to work within the established process. But we 
also understand the importance--and that's why we've been very 
supportive in accelerating this whole process--the importance 
of getting it done in a timely fashion, especially with a 
project that has this support and is of this quality.
    Senator Allen. Mr. Martin, doesn't Congress have the 
ultimate authority to designate national historical trails, and 
has actually done so in the past, in the absence of a complete 
study?
    Mr. Martin. Yes, that's happened a couple of times.
    Senator Allen. And it is also possible--let's assume that 
this was adopted and passed at the end of next month or so. 
There's no reason why the Park Service and the States and the 
Jamestown commemoration folks, the National Geographic Society, 
the Chesapeake Bay Foundation, all those that are involved in 
this, could not adapt--listening to reasonable, good, 
constructive ideas, and adapt as they move forward, but at 
least everyone would know it's established and can take into 
account the good ideas that may come from organizations and 
individuals; could that not still occur?
    Mr. Martin. Yes, I think it could.
    Senator Allen. Thank you. Thank you, Mr. Martin.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you. Thank you very much.
    We have another member of the committee. While he's being 
seated, let me ask one quick question.
    On this reauthorization of the advisory board, I've heard 
some rumblings that perhaps the reauthorization would change, a 
little bit, the character of it, putting more emphasis on 
recreation, as opposed to maintaining the resources. Is there 
any reason to think that's the case?
    Mr. Martin. I think that the makeup that's proposed would 
change some of the focus of the advisory board. I think it 
would--our belief is that it would allow us to ensure that the 
makeup of the advisory board would keep us relevant and would 
keep us attuned with what's going on. It would also, the makeup 
that's proposed, ensure that the protection of park resources 
was a key component of everything that we do.
    Senator Thomas. Thank you.
    Senator Alexander, would you have any comment or question?
    Senator Alexander. Mr. Chairman, thank you. I'd like to 
make a short comment, if I may.
    Senator Thomas. Sure, very good.
    Senator Alexander. If it would be appropriate right now.
    Senator Thomas. Certainly.
    Senator Alexander. I'd just like to say that I appreciate 
the efforts that have been made on the Captain John Smith 
Chesapeake National Historic Trail Designation Act. And what 
impresses me about it, Mr. Chairman, are a couple of things. 
One, it's relevant to the 400th anniversary of the founding of 
the first English settlement. That's important to all of us in 
America. And I know Virginia is especially proud of that, which 
is Senator/Governor Allen's comment. But the thing that 
interests me, too, is the strong private partnerships that Gil 
Grosvenor, Pat Noonan, Will Baker, and others have forged 
there. I think we need more of that in this country. The 
Federal Government can't shoulder the whole load. And so, it 
makes a big difference to me that so many private organizations 
and other organizations are pitching in on this. So, it has 
exceptionally strong leadership, and I was proud to be a 
cosponsor of the legislation to authorize the study. I'm going 
to continue to watch it carefully.
    And I really came to the hearing primarily to emphasize my 
support for it and to notice the strong private partnerships 
that could make it succeed.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you. Very good.
    Senator Allen, I just would mention to you that most trails 
in Wyoming leave footprints. This one will not; is that 
correct?
    [Laughter.]
    Senator Allen. No, no footprints. It's all water.
    Senator Thomas. That's unusual.
    Thank you. Thank you both very much. We appreciate it.
    Mr. Martin. Thank you.
    Senator Thomas. Now, if we could have our second panel, 
please: Mr. Ray Saikus, a Vietnam veteran from Ohio; Patrick 
Noonan, chairman emeritus of The Conservation Fund; Gilbert 
Grosvenor, chairman of the board, the National Geographic 
Society; and Harry Robinson, consultant, TRG Consulting Studio.
    Thank you, gentlemen. We'll take you just as you're seated 
there, if you please. And if you'll hold your statements to 
about 5 minutes, and then we'll have some short questions.
    Mr. Saikus.

STATEMENT OF RIMANTAS (RAY) SAIKUS, VIETNAM VETERAN, U.S. ARMY, 
        173RD AIRBORNE BRIGADE, 1968-1969, CLEVELAND, OH

    Mr. Saikus. Thank you, Mr. Chairman and members of the 
subcommittee, for this opportunity. I'm honored to testify on 
behalf of myself and the family and my best friend, Steve 
Mylant, a U.S. marine who was killed in Vietnam in 1967, my 
fellow Vietnam veterans, and my fellow citizens, who are in 
concert with the statements and concerns to be presented here, 
but could not attend.
    My testimony is directed to your deliberations regarding S. 
2419 and H.R. 4882, bills to ensure the proper remembrance of 
Vietnam veterans and the Vietnam War by providing a deadline 
for the designation of a visitor center for the Vietnam 
Veterans Memorial.
    I was shocked and angered on learning, from the National 
Trust for Historic Preservation, of the course of action that 
the House of Representatives has taken with H.R. 4882 and the 
Senate is considering with S. 2419. My alarm about these bills 
moved me to inform others and participate here.
    Those who serve, and have served, have placed their lives 
on the line with the believe that, as we bring freedom and 
self-determination others, we're guaranteeing the same for our 
families and our fellow citizens. This bill, if enacted, will 
dishonor those who gave their all for their country and those 
who serve, or served, by stripping the right and ability of 
ordinary citizens to participate in our Government, especially 
from the families of those who made the ultimate sacrifice, as 
well as those who served, and their families.
    I can assure you, from my personal experience, that the 
laws which would be pre-empted by these bills, laws like the 
National Environmental Policy Act and the National Historic 
Preservation Act are fundamental to the rights of citizens in 
our democracy and are effective ways for citizens to 
participate in our Government.
    The House of Representatives seems to perceive citizens' 
involvement as a nuisance that should be eliminated. They did 
not even give us an opportunity to present our insight on its 
impact.
    It is critical to understand that by shutting off these 
well-established public comment procedures, Congress would be 
silencing the voices of the families of those who made the 
ultimate sacrifice, Vietnam veterans who served, and their 
families, and denying all of their ability to have any say in 
the location and design of their visitor center. It will also 
take away the opportunity to benefit from the still gravely 
needed healing process that the site selection and design 
process for the Vietnam Veteran Memorial visitor center can 
bring.
    I have had the privilege of participating as a veteran and 
as a citizen in volunteer organizations dedicated to honoring 
our heritage and honoring those who serve, so I have a special 
appreciation for the importance of protecting our heritage, 
which these bills would undermine.
    In my written testimony, I site four examples in which I 
have been personally involved for the process of public 
involvement by citizens and veterans, including through the 
very laws that Congress is considering pre-empting here or 
having a meaningful effect. Because we, as citizens and 
veterans, so far were left out of these bill passage processes, 
I am one of the voices for those who want to make sure that the 
families of those who made the ultimate sacrifice, those who 
still have both physical and emotional scars from the Vietnam 
War, as well as their families and the veterans who served have 
an opportunity to be heard on how we're going to commemorate, 
memorialize, and interpret the story of their sacrifice and 
alleviate their pain and suffering, and especially how we're 
going to help them, and our Nation, heal.
    Our soldiers serving in Iraq, Afghanistan, and other parts 
of the world expect, and will find comfort, knowing that, on 
our watch, the freedoms and rights of their families to 
participate in the government decisionmaking process are being 
protected, especially when many of them are sons and daughters 
of Vietnam veterans.
    My personal healing has come a long way, because I have 
been able to participate in the administrative process that 
influences the decisions of our Government. Gentlemen--the 
ladies are gone--through your actions, you can help veterans, 
and the Nation, heal. Please do not disrupt the ability of 
others to heal by taking away their right to participate in the 
public process that will help to decide the location and design 
of our visitor center.
    A little wait by us, Vietnam veterans and families, through 
this process, will give an opportunity for the end product to 
be a significant and memorable addition to our ``Wall'' and one 
that those honored on ``The Wall'' deserve. Taking the 
additional time to allow a public process would also give the 
Vietnam veterans themselves the opportunity to participate in 
influencing the location and design of the new visitor center.
    The bill, as proposed, will completely shut us out of that 
discussion, and all interested citizens, including the veterans 
themselves, deserve to be heard and have the right to 
participate, and be defended and protected by this Congress.
    I must commend the chairman and the Senate committee for 
respecting their fellow citizens, especially the Vietnam War 
families and veterans, by giving them this opportunity to 
express their position on this issue and bill. The wisdom you 
have demonstrated to hold this hearing, and the cry from 
veterans and citizens, can only lead you to conclude that this 
bill should not be passed. Please let the process that is in 
place have a chance to work.
    Thank you.
    [The prepared statement of Mr. Saikus follows:]

  Prepared Statement of Rimantas (Ray) Saikus, Vietnam Veteran, U.S. 
         Army, 173rd Airborne Brigade, 1968-1969, Cleveland, OH

    Thank you, Mr. Chairman and members of the Subcommittee, for this 
opportunity to testify on behalf of myself and the family of my best 
friend, Steve Mylant, a U.S. Marine, who was killed in Vietnam in 1967; 
my fellow Vietnam Veterans; and my fellow citizens, who are in concert 
with the statements and concerns to be presented here but could not 
attend. My testimony is directed to your deliberations regarding S. 
2419 and H.R. 4882, bills to ensure the proper remembrance of Vietnam 
veterans and the Vietnam War by providing a deadline for the 
designation of a visitor center for the Vietnam Veterans Memorial.
    I have made this trip in the midst of a monumental task--helping to 
organize the placement of Memorial Day flags honoring the 120,000-plus 
veterans buried in more than 150 cemeteries throughout Greater 
Cleveland in Cuyahoga County, Ohio. I am the Vice-President of the 
Memorial Day Association of Greater Cleveland.
    But the course of action that the House of Representatives has 
taken with bill H.R. 4882 and the Senate is considering with bill S. 
2419, alarmed me and moved me to participate in this hearing in memory 
of those who we honor on Memorial Day. If this bill is enacted, it 
would bring into light a painful reality about what value we place as a 
nation on the beliefs and sacrifices of those who gave their lives for 
their country and those who serve or served in the past. My fellow 
veterans and myself served and placed our lives on the line with the 
belief that, as we brought freedom and self-determination to others 
throughout the world, we were guaranteeing the same for our families 
and our fellow citizens. The right and ability of ordinary citizens to 
participate in our government is what these bills would strip from the 
families of those who made the ultimate sacrifice, those who served and 
the citizens. It would take away the opportunity to benefit from the 
still gravely needed healing process that the site selection and design 
process for the Vietnam Veterans Memorial Visitors Center can bring.
    I can assure you from my personal experience that the laws which 
would be preempted by these bills--laws like the National Environmental 
Policy Act and the National Historic Preservation Act--are fundamental 
to the rights of citizens in our democracy, and are effective ways for 
citizens to participate in our government. The House of Representatives 
seems to perceive citizen involvement as a nuisance that should be 
eliminated. But it is important to understand that, by shutting off 
these well-established public comment procedures, Congress would be 
silencing the voices of Vietnam veterans themselves, as well as their 
families, and denying veterans the ability to have any say at all in 
the location and design of their visitor center.
    I have had the privilege of participating in volunteer 
organizations, as a veteran and as a citizen, dedicated to honoring our 
heritage and honoring those who served. As a Mechanical Engineer and 
member of the American Society of Mechanical Engineers, now ASME 
International, I had the honor of successfully nominating two icons of 
our nation's industrial heritage, the Steamship William G. Mather and 
the Hulett Iron Ore Unloaders in Cleveland, for designation as ASME 
International Historic Mechanical Engineering Landmarks. So I have a 
special appreciation for the importance of protecting our heritage, 
which these bills would undermine. I would like to cite four examples 
in which I have been personally involved, where the process of public 
involvement by veterans, including through the very laws that Congress 
is considering preempting here, is having a meaningful effect.

  <bullet> I was a co-founder of Greater Cleveland Veterans Memorial 
        Inc., an organization in Cleveland that reclaimed Marshall 
        Frederick's ``Fountain of Eternal Life'', a once-abandoned 
        monument and plaza originally dedicated to honor those who died 
        during WWII and the Korean War. In a process that took over 10 
        years, we participated to guarantee the monument's proper 
        refurbishment and to bring about its expanded scope, one 
        honoring all of those who made the ultimate sacrifice for our 
        country from Cuyahoga County, beginning with the Spanish-
        American War up to and including the present Iraq and 
        Afghanistan Wars. Over 5500 names are now engraved on plaques 
        around the fountain.
  <bullet> On another occasion, we Vietnam Veterans of Northeast Ohio 
        had to fight to retain the name of ``Vietnam Veterans of 
        American Highway'' from being changed to ``Hall of Fame 
        Highway,'' a proposal that had been developed and advanced 
        without any consultation at all with the veterans.
  <bullet> In another area of Cleveland, Rockefeller Park, trees were 
        planted with plaques at their bases in memory of the 800-plus 
        soldiers from the County that were killed in action in World 
        War I. Rockefeller Park is also the site for four other 
        veterans-related memorials, the American Colonial Garden with a 
        monument to those who perished at Pearl Harbor, the Brotherhood 
        Shrine Garden with a monument in memory of the four Chaplains 
        who gave their lives to save our troops, the American Legion 
        Peace Garden of the Nations and the American Legion Peace 
        Garden of the United States. This area, once abandoned by the 
        city, has been continually restored during the last twenty 
        years by volunteers and has become a pristine area in honor of 
        those WWI soldiers, the other veteran memorials, with pride in 
        the heritage of Rockefeller Park and Cleveland's Cultural 
        Gardens. Then the Doan Brook ``Restoration'' project was 
        introduced by the FAA in an attempt to mitigate damage to 
        wetlands and streams from the expansion of the Cleveland 
        Airport. However, the veterans were totally excluded from this 
        decision-making process, even though the veterans were the 
        earliest and among the most affected stakeholders. The 
        remediation design called for imposing extensive blotchy 
        sections of wild growth, demolishing retaining walls, and 
        creating a look of abandonment, with major safety problems for 
        volunteers, residents and visitors. Fortunately for us 
        veterans, the National Trust for Historic Preservation advised 
        us about the proposed project. The veterans immediately rallied 
        to the defense of a place of honor for those who cannot defend 
        it themselves. Yet our requests to reopen the decision were 
        rejected by the FAA and the Advisory Council on Historic 
        Preservation, even though the project was running into other 
        problems as a result of bids that far exceeded estimated costs. 
        The veterans informed them that the Doan Brook ``Restoration'' 
        project was a misnomer and misled us into assuming that they 
        were fixing the retaining walls and improving the area. Though 
        this conflict has not yet been resolved, we are confident that 
        the process will eventually be effective.
  <bullet> On another project in Cleveland, four of the last remaining 
        Hulett Iron Ore Unloaders were the subject of a legal battle in 
        Federal Court in which I was one of the Plaintiffs against the 
        U.S. Army Corps of Engineers for not complying with Section 106 
        of the National Historic Preservation Act. We lost two of the 
        four Huletts to demolition when the Army Corps issued a 
        dredging permit without even considering preservation of the 
        Huletts. With the help of the National Trust for Historic 
        Preservation, however, we were vindicated by a federal court, 
        and the dredging permit was revoked. Six years later, the Port 
        Authority is re-applying for a permit and the National Historic 
        Preservation Act is empowering us to defend and preserve for 
        future generations the remaining two Huletts, icons of this 
        country's ingenuity and its industrious people.

    Because we as citizens and veterans were left out of many of these 
processes, I am one of the voices for those who want to make sure that 
the families of those who made the ultimate sacrifice, those who still 
have both physical and emotional scars from the Vietnam War as well as 
their families, and the veterans who served, have an opportunity to be 
heard on how we are going to memorialize and interpret the story of 
their sacrifice, and alleviate their pain and suffering, and especially 
how we are going to help them and our nation heal. Our soldiers serving 
in Iraq, Afghanistan and other parts of the world will find comfort 
knowing that on our watch the freedoms and rights of their families to 
participate in the government decision-making process are being 
protected, especially when many of them are sons and daughters of 
Vietnam Veterans.
    Congress has created the procedures for citizens to participate and 
bring forth their visions. Since this Visitor Center will be built on 
public federal property or with the support of public funds or 
services, then all interested citizens, including the veterans 
themselves, deserve to be heard and have their right to participate 
defended and protected by this Congress.
    My personal healing has come a long way because I have been able to 
participate in the administrative process that influences the decisions 
of our government. Gentlemen and ladies, through your actions you can 
help other veterans and the nation heal. Please do not disrupt the 
ability of others to heal by taking away their right to participate in 
the public process that will help to decide the location and design of 
our Visitor Center.
    The WWII and Korean Veterans waited longer than the Vietnam 
Veterans for their memorials. A little wait by us Vietnam Veterans and 
families through this process will give an opportunity for the end 
product to be a significant and memorable addition to our ``Wall'' and 
one that those honored on the ``Wall'' deserve. Taking the additional 
time to allow a public process would also give the Vietnam Veterans 
themselves the opportunity to participate in influencing the location 
and design of the new Visitor Center. The bill as proposed would 
completely shut us out of that discussion.
    We respect and salute those who have championed the cause to honor 
those who gave their all during the Vietnam War, and those who served. 
Now is the time to reflect on their accomplishments, cherish the legacy 
that they have left, and let not haste and exclusion taint their good 
deeds.
    Below are organizations (Veteran and Civic) I am currently 
associated with and hold offices in:

    Vice-President--Memorial Day Association of Greater Cleveland, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="77050504371a131618101459180510">[email&#160;protected]</a>, www.mdaogc.org
    Secretary-Treasurer--Joint Veterans Commission of Cuyahoga County, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aedcdcddeec4d8cdc1cdcd80c1dcc9">[email&#160;protected]</a> wwwjvcocc.org
    Life member of--Vietnam Veterans of America, VVA Delegate to 
MDAOGC, 82nd Airborne Division Association, 82nd ADA Delegate to JVCOCC
    President--Citizens Vision, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1c3c3c2f1d2d8c5d8cbd4dfc2c7d8c2d8dedf9fdec3d6">[email&#160;protected]</a>, 
www.citizensvision.org
    Member of Executive Board--Cleveland Cultural Garden Federation, 
http://ccgf.kliot.net/

                       Resume Provided Separately

    Senator Thomas. Thank you very much.
    Mr. Robinson.

STATEMENT OF HARRY G. ROBINSON, III, CONSULTANT, TRG CONSULTING 
   STUDIO, WASHINGTON, DC, ON BEHALF OF THE VIETNAM VETERANS 
                         MEMORIAL FUND

    Mr. Robinson. Thank you, Mr. Chairman, members of the 
committee. I'm honored to be here today to present this 
testimony. We do have a statement in the record, and I'm going 
to summarize that.
    For the record, I would like to say that I'm a Vietnam 
veteran. I served in that country in 1967. That service 
garnered for me the Purple Heart and the Bronze Star. And, with 
the exception of that period out of this city and a period in 
grad school, I've spent my entire life here in Washington, DC. 
Indeed, I was on the Fine Arts Commission for a period of 8 
years, and out of those 8 years, I served as either the acting 
chair or the chair of that body.
    I say this to say that I understand that a public process 
from these agencies--the NCPC and the Fine Arts Commission--
must have transparency, honesty, the absence of personal bias, 
neutrality, and competency. And it is those issues that I 
think--or those values that I think have been missing from this 
process.
    The four points that I would like to summarize relative to 
S. 2419 are thus: VVMF and its partner, the Park Service, have 
had extensive public hearings--at least six, to my count. We 
have been before every public body to which we have been 
summoned. We have spoken honestly. We have hired the best 
possible expertise to assist us. And, from these meetings, we 
have taken counsel, and we've changed many directions from 
them.
    In the legislation, there was a statement of ``at or near 
the memorial.'' We hired Dr. Sue Taylor, from Howard 
University, who created a brilliant statement about what ``at 
or near'' meant. It was a statement that included not only 
distance, but emotional separation. This statement of ``at or 
near'' has never been challenged in any meeting or any public 
forum; neither have we received any response to this statement 
from any of the reviewing bodies.
    We have engaged the best possible architects and designers 
to do the study for us. The Polshek Partnership and Ralph 
Applebaum Associates are well underway on their studies, and 
had, in fact, made a presentation in this very building last 
week. I'd like to remind you that this facility is underground, 
as required by the legislation.
    I'd like to speak to the Vietnam Veterans Memorial Fund's 
adherence to CWA. When we first built what has become to be 
known as ``The Wall,'' it is that legislation, it is that 
process, that gave us great direction. The late J. Carter 
Brown, in his position as chairman of the Fine Arts Commission, 
gave much counsel to Jan Scruggs and those working with him to 
build ``The Wall''. We respect the values of CWA. We respect 
the history of CWA, and the Mall. We simply ask for a clear, 
unfettered path to site selection as appropriate to our 
purposes.
    I thank you very much.
    [The prepared statement of the Vietnam Veterans Memorial 
Fund follows:]

        Prepared Statement of the Vietnam Veterans Memorial Fund

    Today, you are considering S. 2419, the Vietnam Veterans Memorial 
Visitor Center Deadline Enforcement Act, which was introduced by 
Senators Stevens, Kerry and Hagel on March 15. A similar bill was 
passed in the House last month.
    The Vietnam Veterans Memorial Fund is testifying today to answer 
some of the questions members of the Senate may have about the 
necessity of this bill.
    The Memorial Fund is the organization that built the Vietnam 
Veterans Memorial. Over the years, we have found that ``The Wall That 
Heals'' has become ``The Wall That Educates.'' Many of the 4 million 
visitors who come to the Wall each year are schoolchildren who were not 
even alive during the Vietnam War. The Memorial Fund has come to 
realize that we need to do more to educate the country's young people 
about the patriots who sacrificed for their country during that war.
    We have sought the advice of experts who have a great deal of 
knowledge about the National Mall. Our initial site evaluations were 
conducted by the designers who created Constitution Gardens and the 
architect of record for the Vietnam Veterans Memorial.
    We have worked in good faith with the commissions responsible for 
new projects on the Mall, but the delays continue. Congressmen Richard 
Pombo and Steve Pearce met with the chairman of the National Capital 
Planning Commission (NCPC) on March 2, 2006, and asked him about these 
delays. They soon thereafter introduced and passed H.R. 4882 to force 
compliance with the law authorizing the Center. Senators Ted Stevens, 
Chuck Hagel and John Kerry agreed that a legislative solution was 
needed, and they introduced S. 2419, now under consideration by this 
Subcommittee.

 THE VIETNAM VETERANS MEMORIAL FUND HAS WORKED WITHIN THE ESTABLISHED 
         SYSTEM TO GET A SITE APPROVED FOR THE MEMORIAL CENTER

    This legislation is not an alternative to going through the normal 
channels. We have, in fact, been working within the system. Two of the 
three commissions that must approve a site before it is awarded have 
approved our preferred site, which is the site named in the 
legislation: ``Site A,'' the land bordered by Henry Bacon Drive, 23rd 
Street and Constitution Avenue. (For a timeline of all activity on the 
Memorial Center, see Exhibit 1.)
    The National Capital Memorial Advisory Commission recommended two 
sites for the Memorial Center on May 11, 2005: Site A and the Interior 
South Building on Constitution Avenue, which is not available.
    The Commission of Fine Arts (CFA) gave conditional approval to Site 
A during a Sept. 15, 2005 meeting, approval that was reasonably 
conditioned on seeing an appropriate design.
    The problems have stemmed from the National Capital Planning 
Commission (NCPC), the third group that must give approval to the use 
of Site A.

   THE MEMORIAL FUND AND THE NATIONAL PARK SERVICE HAVE EXPERIENCED 
        NUMEROUS AND CONTINUING DELAYS AT THE HANDS OF THE NCPC

    The Memorial Fund and the National Park Service have acted in good 
faith, trying to work with the NCPC to comply with all of its requests. 
Here are three examples:

  <bullet> During a presentation at the Oct. 6 NCPC meeting, architect 
        James Cummings, AIA, presented traffic data gleaned from 
        existing studies conducted in 1992, 1998 and 2000. The NCPC 
        concluded that this information was not current enough and 
        requested a new traffic study be conducted. It was commissioned 
        by the Memorial Fund immediately, completed and submitted to 
        the NCPC in time for the Dec. 1 meeting.
  <bullet> From the beginning of their dealings about the Memorial 
        Center, the NCPC and the Memorial Fund have been using the 
        NCPC's own Museums and Memorials Master Plan as a guide for how 
        and when information should be submitted in the approval 
        process. This document clearly shows that a preliminary 
        environmental analysis should be completed prior to site 
        approval, and an in-depth environmental assessment should be 
        completed once a site has been named. (Exhibit 2) Yet, the 
        Memorial Center was taken off of the agenda for the Dec. 1, 
        2005 NCPC meeting because the commission insisted that a 
        detailed environmental assessment needed to be conducted on two 
        sites before approval was given for any site. The Memorial Fund 
        commissioned this assessment. It has taken four months and has 
        cost $80,000-time and money the Memorial Fund was forced to 
        invest in a site that has not even been approved.
  <bullet> In June 2005, the Department of the Interior refused to 
        allow its Interior South Building on Constitution Avenue to be 
        considered as a site for the Memorial Center. In spite of this 
        refusal, the NCPC insisted the building, as well as land in 
        front and in back of it, be considered for the Center. At NCPC 
        insistence, the National Park Service went back to the 
        Department of the Interior several times to request that 
        permission to use Interior South be reconsidered. The answer 
        remained ``no.'' When the National Park Service and Memorial 
        Fund did not advance the building as a serious site candidate, 
        the NCPC staff recommendation prior to the Oct. 6, 2005 meeting 
        criticized them for not giving this site more consideration 
        (Exhibit 3).

                WHY IS THE NCPC DELAYING SITE APPROVAL?

    The NCPC is on the record opposing the Vietnam Veterans Memorial 
Center since the project was first being considered by Congress in 
2001. In 2003, as part of her testimony before this subcommittee 
concerning the Vietnam Veterans Memorial Visitors Center, NCPC 
Executive Director Patricia Gallagher said, ``Since 1991, the 
Commission has been consistent in expressing its objection to additions 
to the Vietnam Veterans Memorial.''
    In 2003, Congress passed legislation allowing a Vietnam Veterans 
Memorial Center ``at or near'' the Memorial. President Bush signed that 
bill into law that same year. Although the will of Congress is clear, 
NCPC members have felt free to continue debating the question as late 
as October 2005, when they were supposed to be considering where to put 
the Center.

  <bullet> ``I understand that Congress passed and said that the 
        Vietnam Memorial Visitor Center would be exempt from that [the 
        ban on future memorials on the Mall], and that would be the 
        last one. Well, that doesn't ring a bell with me, because 
        Congress has said that will be the last one on a lot of other 
        things, too, and they didn't live up to what they said.''--
        Herbert F. Ames, NCPC Commissioner
  <bullet> ``This is sort of deja vu of World War II for me, which I 
        voted against consistently for one reason: I do not believe we 
        should study war on the Mall. I think the Mall is a sacred, 
        hallowed ground, underneath or on top, and I believe that we 
        should not have more and more things that point to war and 
        celebrate it.''--Arrington Dixon, NCPC Commissioner
  <bullet> ``If you ask the average American person, they would 
        probably say the Mall is finished. Stop doing things to it. 
        Leave it alone. I think that what we are trying to do here in 
        continuing to nibble away at it by special exceptions will 
        never end unless we all cumulatively take a stand on this.''--
        Jose L. Galvez III, NCPC Commissioner

    Documents that the Vietnam Veterans Memorial Fund has obtained 
through the Freedom of Information Act illustrate an institutional bias 
against the Memorial Center on the part of key members of the NCPC:

  <bullet> In an e-mail in February 2005 about the Vietnam Veterans 
        Memorial Center project, NCPC Historic Preservation Officer 
        Nancy Witherell jokes about a colleague's comments that, to get 
        to a remote site, ``pedestrians can `run' when they get a Walk 
        sign!'' (Exhibit 4)
  <bullet> In the same e-mail, Witherell referred to a recently held 
        public meeting about the Memorial Center site as ``an NPS dog 
        and pony show.'' (Exhibit 4)
  <bullet> In another e-mail sent around the same time, Witherell 
        dismisses the importance of the Memorial Center: ``I realize 
        Jan Scruggs/Congress is a high-powered applicant, but so was 
        MCl/Mayor Barry/Abe Pollin/Federal City Council.'' (Exhibit 5)

    Other memorials, including the World War II Memorial and the FDR 
Memorial, have found the bureaucracy of the NCPC to be inhibiting to 
forward progress and have also sought legislative remedies to the 
problem.

THIS LEGISLATION WILL NOT ENABLE THE VIETNAM VETERANS MEMORIAL FUND TO 
            IGNORE HISTORIC AND ENVIRONMENTAL CONSIDERATIONS

    Furthermore, it has never been the intention of the Vietnam 
Veterans Memorial Fund to bypass environmental concerns or distract 
from the historic importance of the Mall.

  <bullet> The Memorial Fund has demonstrated again and again that it 
        cares about preserving the historic vistas of the National 
        Mall.


    <bullet> The year-long study commissioned by the Memorial Fund to 
            evaluate potential sites was conducted by Henry Arnold and 
            George Dicky, who designed Constitution Gardens, and J.C. 
            Cummings, the architect of record for the Memorial.

    <bullet> The Memorial Fund conducted a public design competition 
            that took nearly nine months and produced two world-renown 
            firms as winners: Polshek Partnership LLC as the architect 
            and Ralph Appelbaum Associates as the exhibit designer.

    <bullet> In his testimony in front of the NCPC in October 2005, 
            architect James Polshek stated his goals for the Memorial 
            Center: ``This is a project that [will] not bear, in the 
            end, the signature of an architect, something that you are 
            all too familiar with here in Washington . . . I talked to 
            my staff and my partners and I said, `We are going into 
            this as a facilitator, as a mediator and as a protector 
            that, in the end, our job is to protect the sanctity of the 
            memorial and its site.' ''

    <bullet> The National Park Service is a partner with the Memorial 
            Fund to make sure the site chosen is best for the Center, 
            the Mall and the country. 4 VVMF Testimony Page 5 o A board 
            member of the Vietnam Veterans Memorial Fund and a key 
            advisor in this process is Harry Robinson, chairman of the 
            department of architecture at Howard University and a past 
            member and chairman of the Commission of Fine Arts.

  <bullet> The enabling legislation passed in 2003 stipulates that the 
        Center will be underground. So, while a representative of the 
        NCPC was quoted by the press not long ago as saying that this 
        legislation would result in ``a five-story building on the 
        National Mall,'' that is impossible. And it is not the goal of 
        the National Park Service or the Memorial Fund. The Center will 
        be underground. (For the facts about other misconceptions that 
        have aired in the press, see Exhibit 6. )
  <bullet> The Vietnam Veterans Memorial Fund and the National Park 
        Service must still work with the NCPC and other commissions to 
        get approval on the design aspects of the Memorial Center. Our 
        intention is not to bypass these bodies, but to remove the 
        delays from getting the center under way.

    Thank you for your consideration of these points. We urge the 
members of this subcommittee and the entire Senate to approve S. 2419.
                                 ______
                                 
                               Exhibit 1

                    VIETNAM VETERANS MEMORIAL FUND--
               VIETNAM VETERANS MEMORIAL CENTER TIMELINE

    September 21, 2000--Plans to introduce legislation to build an 
education center on the Vietnam Veterans Memorial grounds are announced 
by combat veterans Sen. Chuck Hagel (R-Neb.), Rep. John P. Murtha (D-
Pa.) and Vietnam Veterans Memorial Founder and President Jan Scruggs.
    January 2001--An independent survey is commissioned by the Memorial 
Fund and conducted by Reed Haldy McIntosh & Associates. It finds that: 
nearly 80 percent of adults polled see a need for an education center; 
younger adults (age 18-29) more enthusiastically support the idea; and 
75 percent of teachers surveyed felt learning about the war was 
important.
    February 7, 2001--Legislation is introduced in the House (H.R. 510) 
and Senate (S. 281) to authorize the construction of an education 
center near the Vietnam Veterans Memorial.
    February 11, 2002--The National Park Service, under the direction 
of the Bush Administration and the Department of Interior, supports 
construction of an ``underground'' educational facility at the Vietnam 
Veterans Memorial. Former U.S. presidents George H. W. Bush and Gerald 
Ford also support the initiative.
    May 23, 2002--Texas Senator Phil Gramm halts passage of Vietnam 
Veterans Memorial Education Act for the third time.
    June 5, 2002--The U.S. Senate Energy and Natural Resources 
Committee approve legislation to establish a Vietnam Veterans Memorial 
Education Center on the National Mall.
    March 26, 2003--Exactly 21 years after the groundbreaking of the 
Vietnam Veterans Memorial, House Resources Chairman Richard Pombo (R-
CA) introduces bipartisan legislation (H.R. 1442) providing for 
construction of a Visitor Center at the Vietnam Veterans Memorial.
    May 19, 2003--U.S. Senator Chuck Hagel (R-NE), introduces the 
Vietnam Veterans Memorial Visitor Center Act (S. 1076) providing for 
construction of a visitor center at the Vietnam Veterans Memorial.
    May 21, 2003--A historical congressional hearing of the House 
Subcommittee on National Parks, Recreation and Public Lands is held 
near The Wall to discuss H.R. 1442. It is the first time a hearing 
occurs within the core area of the National Mall.
    June 3, 2003--William P. Lecky, AIA, internationally acknowledged 
for his award-winning work, most notably the Vietnam Veterans and the 
Korean War Veterans Memorials, testifies before the Senate Subcommittee 
on National Parks in favor of a Vietnam Veterans Memorial visitor 
center.
    June 25, 2003--The U.S. Senate Energy and Natural Resources 
Committee unanimously approves legislation (S. 1076) authorizing the 
design and construction of a visitor center at the Vietnam Veterans 
Memorial.
    July 18, 2003--The U.S. Senate unanimously approves legislation (S. 
1076) allowing a visitor center to be built at the Vietnam Veterans 
Memorial.
    September 24, 2003--The Vietnam Veterans Memorial Visitor Center 
Act (H.R. 1442) passes the House Resources Committee.
    October 15, 2003--The U.S. House of Representatives passes 
legislation (H.R. 1442) virtually assuring the construction of a 
visitor center at the Memorial. Jan Scruggs calls for President Bush to 
sign legislation by Veterans Day.
    November 5, 2003--The Senate unanimously approves H.R. 1442. 
(Language changes necessitate another vote.)
    November 6, 2003--The U.S. House of Representatives unanimously 
approves the legislation.
    November 17, 2003--President Bush signs H.R. 1442, amending Public 
Law 96-297, ensuring the creation of an underground center which will 
honor the memory of Vietnam veterans and educate visitors of the 
sacrifices that veterans have made in the name of freedom.
    January 15, 2004--The Vietnam Veterans Memorial Fund announces a 
two-stage national competition to select a team to design the Vietnam 
Veterans Memorial Center.
    February 2004--The Memorial Fund commissions a site study and 
environmental analysis to determine the most suitable site for the 
Vietnam Veterans Memorial Center. Objectives are to find a location 
that will enhance the visitor's experience and respect the sanctity of 
the National Mall and the Vietnam Veterans Memorial.
    March 2, 2004--Nine finalists are chosen in the design competition 
out of 39 entrants.
    March 31, 2004--The field of design teams is further narrowed to 
four.
    July 19, 2004--The inaugural meeting of the Vietnam Veterans 
Memorial Center Advisory Board is held, chaired by General Barry R. 
McCaffrey, USA (Ret.). The Board consists of veterans, historians, 
authors, educators and scholars to consider the design of the Center 
and nature of the exhibits.
    September 17, 2004--Memorial Fund announces award-winning Polshek 
Partnership Architects, LLP to head design team to build the visitor 
center. The team includes award-winning Ralph Appelbaum Associates, 
Inc., Exhibit Design.
    November 30, 2004--The Vietnam Veterans Memorial Center Advisory 
Board holds its second meeting.
    January 26, 2005--The Memorial Fund and the National Park Service 
hold a joint news conference announcing the completion of the site 
study and the study team's recommendation of the site bordering Henry 
Bacon Drive, Constitution Avenue and 23rd Street, NW, for construction 
of the Vietnam Veterans Memorial Center.
    February 22, 2005--A public meeting is held at the American 
Institute for Architects to review the site selection process and 
gather public comment.
    March 15, 2005--A site study presentation is given to the National 
Capital Memorial Advisory Commission. The commission requests that 
further study be conducted on Sites A (Henry Bacon), B (East Knoll) and 
E (Interior South).
    May 11, 2005--The second presentation of the site study is made to 
the National Capital Memorial Advisory Commission. The commission 
recommends Sites A and E.
    May 29, 2005--The third Meeting of the Vietnam Veterans Memorial 
Center Advisory Board is held.
    June 23, 2005--A second public meeting is held. The National Park 
Service announces that the Secretary of Interior has removed Site E 
from further consideration.
    September 15, 2005--A presentation is made to the Commission of 
Fine Arts. The commission approves Site A subject to conditions of 
architectural development.
    October 6, 2005--At the National Capital Planning Commission 
meeting, a motion was made to vote in favor of the executive director's 
report which would eliminate Site A. Before voting on this motion, 
Chairman Cogbill suggested a substitute motion to conditionally approve 
Site A. The substitute motion resulted in a 6-6 tie, ending the motion. 
The NCPC then returned to the first motion, which also resulted in a 6-
6 tie. John Parsons made a motion to have the applicants return to the 
NCPC with an evaluation of the front lawn of the Interior South 
Building (a site put forth in the executive director's report), further 
analysis of Site G and program information for Site A. This motion 
passed unanimously.
    November 29, 2005--The National Capital Planning Commission removes 
the Vietnam Veterans Memorial Center from the agenda for its meeting on 
December 1, 2005. The reason given is that the Commission would like an 
in-depth environmental assessment completed before it will consider the 
site chosen by the Memorial Fund. In spite of protests by the National 
Park Service and the Vietnam Veterans Memorial Fund, the decision 
stands.
    January 27, 2006--The Vietnam Veterans Memorial Fund commissions 
EDAW to conduct an environmental analysis on Site A and Site G to 
comply with NCPC requests. The study will take several months to 
complete and cost nearly $80,000.
    March 28, 2006--The U.S. House of Representatives passes H.R. 4882, 
the Vietnam Veterans Memorial Visitor Center Deadline Enforcement Act, 
404-4. The act, which was introduced by Rep. Richard Pombo, would give 
the NCPC 30 days to approve Site A for the Memorial Center.
    May 16, 2006--The Senate Subcommittee on National Parks holds a 
hearing on S. 2419 and H.R. 4882, bills that would end the delays in 
approving a site for the Vietnam Veterans Memorial Center. S. 2419 was 
introduced by Sen. Ted Stevens.
                                 ______
                                 
                               Exhibit 2*
---------------------------------------------------------------------------
    * Appendix A--From the Memorials & Museums Master Plan, National 
Capital Memorial Commission, February 2001
---------------------------------------------------------------------------
       STEPS FOR ESTABLISHING A MEMORIAL IN THE NATION'S CAPITAL

    Individual characteristics of proposals may require additional 
related actions, the combination of two or more actions, or a change in 
the order of steps as outlined in this guide.
Initiation
    1. Memorial sponsor seeks National Capital Memorial Commission 
(NCMC) staff assistance to review the requirements and process 
established by the Commemorative Works Act (CWA) and its applicability 
to the proposed memorial.
Legislation
    2. Memorial sponsor seeks a Senator or Representative who is 
willing to draft and introduce a bill to authorize establishment of the 
memorial.
    3. Staffs of NCMC, member of Congress who will introduce bill, and 
authorizing committees draft a bill that conforms to the provisions of 
the CWA.
    4. Congressman and/or Senator introduce bill authorizing the 
memorial and designating the sponsor as the entity responsible for its 
erection at no cost to the federal government.
    5. NCMC considers proposed authorizing legislation to establish its 
views pursuant to CWA (See. 3(d)).
    6. Chairmen of House and Senate authorizing subcommittees solicit 
views of NCMC, may hold hearings on proposed authorizing legislation, 
and take action on a bill before sending it to the full House and 
Senate for a vote on the bill.
    7. President signs bill into law if passed by Congress.
    8. Memorial sponsor organizes the structure of the entity that will 
establish the memorial and begins planning for fund-raising efforts.
Site Selection and Approval
    9. If requested by the sponsor, the Secretary of the Interior or 
the Administrator of the General Services Administration (GSA), 
depending on whose land is involved, seeks the advice of NCMC to 
determine whether the memorial warrants placement in Area 1. Secretary 
or Administrator, if requested, notifies Congress of a determination 
that the subject is of preeminent and lasting historical significance 
(CWA See. 6(a)) so that Congress can consider passage of legislation 
authorizing an Area 1 location.
    10. Memorial sponsor works with staff of NCMC to identify potential 
sites and prepare alternative site study and accompanying preliminary 
environmental analysis.
    11. Memorial sponsor submits alternative site study and 
accompanying preliminary environmental analysis to NPS or GSA for 
approval of preferred site. After consultation with NCMC, NPS or GSA 
approves a preferred site on behalf of the Secretary of the Interior or 
the Administrator of GSA, depending on whose land is affected.
    12. NPS or GSA submits approved site to the National Capital 
Planning Commission (NCPC) and the Commission of Fine Arts (CFA) for 
approval and initiates consultation with the State Historic 
Preservation Officer (SHPO).
Design Approval
    13. After site approval by NCPC and CFA, and comment by SHPO, the 
design process begins.
    14. Memorial sponsor selects (1) a designer, or (2) a coordinator 
for design competition if a competition is to be held.
Design Approval
    16. Memorial sponsor selects preferred design concept and meets 
with NPS or GSA to discuss issues that design may present. After 
possible refinements, sponsor submits the design concept and 
accompanying environmental assessment to NPS or GSA for approval. NPS 
or GSA reviews design concept and, upon concurrence, submits it to 
NCPC, CFA, and SHPO.
    17. Memorial sponsor, in close coordination with NPS or GSA, 
refines the design concept on the basis of agency comments and submits 
preliminary design to the landholding agency who, upon approval, 
submits it to NCPC, CFA, and SHPO.
    18. Memorial sponsor, in close coordination with NPS or GSA, 
refines preliminary design on the basis of agency comments and submits 
final design to NPS or GSA who, upon approval, submits it to NCPC, CFA, 
and SHPO.
    19. Memorial design team completes final drawings and 
specifications in close coordination with NPS or GSA.
Fundraising and Construction
    20. Memorial sponsor completes fund-raising.
    21. Memorial sponsor submits to NPS or GSA final drawings and 
specifications, cost estimate, and evidence of funds on hand, plus 10 
percent cash payment of design and construction costs for maintenance. 
The sponsor seeks final approval by the Secretary of the Interior or 
the Administrator of GSA.
    22. NPS or GSA issues a construction permit on behalf of the 
Secretary of the Interior or the Administrator of GSA.
    23. Memorial sponsor begins construction and preparation of 
operation, maintenance, and preservation plans for the memorial.
    24. Memorial is dedicated and transferred to NPS or GSA for 
management with accompanying as-built operation, maintenance, and 
preservation plans.
                                 ______
                                 
                               Exhibit 3
                      National Capital Planning Commission,
                                   Washington, DC, August 24, 2005.
Hon. Gale A. Norton,
Secretary, U.S. Department of the Interior, Washington, DC.
    Dear Secretary Norton: The National Capital Planning Commission 
(NCPC) was disappointed to learn of the decision to drop the Interior 
South building from consideration as a possible site for the Vietnam 
Veterans Memorial Visitor Center. Given that this center will impact 
one of the nation's most precious resources--the National Mall--I write 
to respectfully request that you revisit this decision.
    The Interior South building, at Constitution Avenue between 19th 
and 20th Streets, NW, would allow both NCPC and the Department of the 
Interior to further our respective roles as stewards of this treasured 
open space. While we recognize that a change of use would have some 
impact on existing operations at Interior, we believe the site is 
worthy of further consideration given the many positive benefits to 
locating the visitor center off the Mall. Use of Interior South would 
protect the Mall's historic open spaces, views and nearby memorials; 
its location and architecture are appropriate for greater public use; 
and it would create the opportunity to locate additional visitor 
services, such as food and orientation facilities, with the visitor 
center.
    I would like to encourage you to ask your staff to reconsider the 
site analysis prepared by NCPC on this matter. Enclosed is a letter we 
sent to your staff in late June, outlining our rationale for our strong 
support of the Interior South Location. We hope you will agree that the 
merits of this location are worthy of further deliberation and study.
    I would welcome the opportunity to discuss this project with you 
further at your convenience.
            Sincerely,
                                              John Cogbill,
                                                          Chairman.
[Enclosure.]
                                 ______
                                 
                                Department of the Interior,
                                Washington, DC, September 27, 2005.
Mr. John V. Cogbill, III,
Chairman, National Capital Planning Commission, Washington, DC.
    Dear Mr. Cogbill: This will respond to your August 24 letter to 
Secretary Gale Norton in which you requested reconsideration of the 
Interior South Building as a possible site for the Vietnam Veterans 
Memorial Center (Center) authorized by Public Law 108-126, enacted 
November 17, 2003.
    We appreciate the role of the National Capital Planning Commission 
as the Federal planning agency and one of the stewards oldie Nation's 
Capital. Similarly, the Secretary of the Interior bears the ultimate 
responsibility for the property under the jurisdiction of the 
Department of the Interior. As such, we must balance the mission of all 
agencies within the Department as stewards of this Nation's unique 
natural and cultural resources providing access for visitors from home 
and abroad to these exceptional places and national recreational 
opportunities, Additionally, because the Center will be built pursuant 
to the requirements at the Commemorative Works Act, the Secretary of 
the Interior must also approve the site.
    Adaptive use of the Interior South Building. for the Vietnam 
Veterans Memorial Center would result in serious operational, security 
and fiscal impacts to the Department, as well as the Office of Surface 
Mining and the Bureau of Indian Affairs. That determination was 
reinforced in recent discussions between the Department Assistant 
Secretary, Policy, Management and Budget, and. the Chairman, Advisory 
Council on Historic Preservation, who agreed that the Interior South 
Building was removed from further consideration for very valid reasons.
    In carrying out the requirements of Public Law 108-126 to construct 
and landscape the Center in a manner harmonious with the site of the 
Vietnam Veterans Memorial, consistent with the special nature and 
sanctity of the Mall, we have engaged the public and worked closely 
with-the Vietnam Veterans Memorial Fund (Fund) to complete an analysis 
of site alternatives, including the Interior South Building. 
Consequently, we have submitted on behalf of the Fund, our preferred 
site, located in the parcel of park land south of Constitution Avenue 
between Bacon Drive and 23rd Street, NW. We have included in the 
submission, for the Commission's consideration, specific design 
guidelines that we believe will protect West Potomac Park and the 
Lincoln memorial from adverse visual impacts. We look forward to the 
Commission's review of those design guidelines as pay of its 
consideration of the proposed site.
    We appreciate your interest and concerns, and trust that you can 
respect the Department's position on this important project.
            Sincerely,
                                              Paul Hoffman,
       For the Assistant Secretary for Fish and Wildlife and Parks.
                                 ______
                                 
                                Department of the Interior,
                                  Washington, DC, October 27, 2005.
Mr. John V. Cogbill, III,
Chairman, National Capital Planning Commission, Washington, DC.
    Dear Mr. Cogbill: This letter responds to further conceptual site 
selection ideas for the future location of the Vietnam Veterans 
Memorial Center discussed by the National Capital Planning Commission 
(Commission) at its meeting of October 6, 2005. We continue to 
appreciate the vital role. of the Commission in this process as one 
oldie stewards of the Nation's Capital.
    At the last Commission meeting, the potential use of the south lawn 
of the U.S. Department of Interior (DOI) South Building was suggested 
as a potential underground site for the Vietnam Veterans Memorial 
Center. There are many operational, security, public access and design 
concerns associated with the use of this site for a high-volume public 
facility.
    The DOT South Building and its grounds are the setting in which the 
DOI manages a wide range of federal initiatives and land management 
programs station-wide. The change of any portion of this building, its 
grounds, or its attendant facilities will have a negative impact upon 
the operations of these offices and, therefore, on the ability of the 
DOI to meet its mission,
    The south lawn of the DOI South-Building is bisected by the 
ceremonial path leading to the grand south entrance. As authorized by 
Public Law 108-126, enacted November 17, 2003, the Vietnam Veterans 
Memorial Center will be an underground facility. The small scale of 
available lawn in the suggested location would not provide for 
adequate. space. to accommodate expected visitation entering and 
exiting from the Center. The visual intrusion of sufficient entrance 
and exit above-ground structures would overwhelm the landscape and the 
immediately adjacent structure, as well as, disrupt the historic 
building line and streetscape along the north side of Constitution 
Avenue. Further, the ability to construct a visually unobtrusive 
entrance to a facility under the south lawn is extremely problematic 
because of the scale of available lawn and the existing architectural 
features, such as walls and plazas.
    The introduction of a new high-volume public facility and the 
attendant increased bus awl vehicular traffic associated with a 
facility serving more than two million visitors annually adjacent to 
sensitive federal facilities presents a serious concern for the DOI. In 
addition to the several years of disruption associated with the 
necessary construction and commissioning of an underground facility in 
immediate proximity to the DOI, we are aware that neighboring Federal 
agencies have raised serious concerns about similar impacts to their 
facilities during public meetings as well as in testimony given at the 
October meeting.
    Further, this site remains inherently problematic as indicated to 
discussion presented within the Vietnam Veterans Memorial.Center Site 
Selection Environmental Study for sate visitor movements to and from 
the Vietnam Veterans Memorial. The barrier created by the 8-lane 
arterial roadway, Constitution Avenue, which would divide the Center 
and Memorial, is detrimental to successful operation of programs which 
will involve large school groups, veterans groups and other similar 
organizations for which the Center's message is primarily intended.
    Therefore, the Interior South Building and its grounds are not 
available for consideration as a potential site for the Vietnam 
Veterans Memorial Center.
    We appreciate the Commission's. suggestions, and we trust that you 
can respect the Department's position on this important project.
            Sincerely,
                                              Craig Manson,
               Assistant Secretary for Fish and Wildlife and Parks.
                                 ______
                                 
                               Exhibit 4
From: Witherell, Nancy
Sent: Wednesday, February 23, 2005, 1:52 PM
To: Maloney, David (OP)
Subject: FW: TR Bridge and Viet Vets--read this after your staff 
reports. n

    Comments from Tony Simon below--he obfuscates a bit at the bottom--
I think your language generally is fine, or you could add 2M to future 
statements if you wish, or even better refer to long-term federal 
planning goals on and around the Mall. Everyone understands the space 
crunch--and you have created potential new museum site.
    If Parsons' office could get funding for a Mall Master Plan, we'd 
all be better off. This is a huge problem--bigger every year. CFA got 
us off to a good start last week by suggesting a Mall summit to discuss 
goals and how to achieve them. And we have given specific statements to 
GAO several times this year about need for NPS to do Master Plan and 
our offer to do it with NPS if we can get the money from Congress.
    Gene Keller also wrote me that he likes your plan--he thinks the 
building site looks a bit isolated on the plan but that pedestrians can 
``run'' when they get a Walk sign!
    I'm still reading Viet Vets study--will have more comments on that 
and in relation to TR by tomorrow afternoon.
    Also. I e-mailed Martha to learn if she had seen NPS ``106'' letter 
on Viet vets (``106'' in quotations! )--not, so I faxed to her. She 
would like our briefing comments on Viet in advance of March 15 if 
possible. I'm assuming I can share at least a version of them--I'll 
send to you, too. Hate, to burden you, but I hope you or Lisa can sit 
for Mayor.
    Thank you again for faxing NPS letter to me. Wayne and I spent some 
time yesterday exchanging snarky a-mails about NPS's 106 procedures 
and, more specifically, how they intend to hide politically behind you, 
us, and CFA on this entire project. Wayne and I just love the level of 
analysis in the letter! Parsons could state that any underground site 
here would be adverse and STILL be playing it very safe. But, no, he 
can't even do that. Even if he was the one to suggest to Congress that. 
it be placed underground, he still would be merely stating his own 
stewardship responsibility by stating that any museum here would be 
adverse. Sally's sentence in the letter is ludicrous--and of course NPS 
will now claim that they have initiated, and will always reiterate the 
date during the upcoming lawsuit.
    Did I mention that Tony Simon went to the public meeting last 
night? He and 2 vets were there . . . they were both in support. So 
much for a well-publicized public meeting . . . or for the ``trust'' 
that C100 and Coalition have in an NPS dog and pony show.

                                           Nancy Witherell,
Historic Preservation Officer, National Capital Planning Commission
                                 ______
                                 
                               Exhibit 5
From: Costa, Wayne E.
Sent: Tuesday, February 22, 2005, 2:26 PM
To: Witherell, Nancy
Subject: RE: 106 for Vietnam Visitors Center

    Based on that letter, it really looks like NPS is going to use 
NCMAC, CFA and us as the foils for Jan Scruggs. If they were being 
honest--and even without a preferred site, I would think they--would 
have to say that the area around the existing memorial would be 
adversely affected. It's the Mall or adjacent to the Mall. To show they 
are not doing any initial analysis, is just digging themselves a hole.

                                            Wayne E. Costa,
              General Counsel, National Capital Planning Commission
Original Message
From: Witherell, Nancy
Sent: Tuesday, February 22, 2005, 2:19 PM
To: Costa, Wayne E.
Subject: RE: 106 for Vietnam Visitors Center

    Sigh. This is just how ww2 started, you know . . . NPS came in for 
concept approval from us with little more analysis than that. I have 
never, ever sent an initiation letter to the SHPO (and of course, NPS 
is also a licensing agency in this context) without (Ding the affected 
NR properties and making at least a preliminary determination about the 
nature and type of the effects. I realize Jan Scruggs/Congress is a 
high-powered applicant, but so was MCI/Mayor Barry/Abe Pollin/Federal 
City Council.

                                           Nancy Witherell,
Historic Preservation Officer, National Capital Planning Commission
                                 ______
                                 
                               Exhibit 6
  the vietnam veterans memorial center: addressing the misconceptions
    Rumor: By bringing Congress into the picture, the Vietnam Veterans 
Memorial Fund is making an ``end run'' around the established memorial 
approval process already in place in Washington, D.C.
    Fact: The Vietnam Veterans Memorial Fund and the National Park 
Service have been working within the established review process for 
several years now. The two groups have been studying sites, 
commissioning analyses and reports, holding public meetings and working 
with the Commission of Fine Arts (CFA), the National Capital Memorial 
Advisory Commission (NCMAC) and the National Capital Planning 
Commission (NCPC) since 2004.
    Rumor: The plans for the Vietnam Veterans Memorial Center will not 
stand up to the rigorous review process of the three commissions that 
must approve it.
    Fact: The Vietnam Veterans Memorial Center preferred site at Henry 
Bacon Drive, 23rd Street and Constitution Avenue (also called ``Site 
A'') has already received approval from two of the three commissions 
that must give approval before the project can proceed.
    On May 11, 2005, NCMAC, after hearing a presentation by the 
Memorial Fund and the National Park Service, recommended two sites be 
advanced for the Vietnam Veterans Memorial Center: Site A, the 
preferred site, and the Department of Interior South building, north of 
Constitution Avenue at 20th Street. The Department of the Interior has 
repeatedly refused permission for use of that building and its 
surrounding area.
    The second body that must approve new Mall projects, the CFA, gave 
the Vietnam Veterans Memorial Center conditional approval on Sept. 15, 
2005.
    Since then, the Memorial Fund and the National Park Service have 
been working in good faith to meet the requirements of the NCPC, but 
those requirements keep changing.
    Rumor: The NCPC has not asked the Memorial Fund and the National 
Park Service for anything that it has not required of every other group 
it has worked with.
    Fact: The NCPC's own study, the Museums and Memorials Master Plan, 
indicates that an in-depth environmental study will not be required 
until after a site is approved.
    The National Park Service and the Memorial Fund conducted a 10-
month study of seven potential sites, which included environmental 
analyses, noise studies, analyses of historic sightlines of other 
memorials, traffic studies, pedestrian counts, studies of the impact on 
area vegetation and tree growth, and how placement of a Memorial Center 
in each of these spots would affect the other memorials on the National 
Mall. This study has been added to over the last year, as the NCPC has 
requested other information.
    The Vietnam Veterans Memorial Center site was on the agenda to be 
considered by the NCPC at its Dec. 1, 2005 meeting. On Nov. 30, it was 
pulled from the agenda without warning. At that time, the NCPC 
requested an in-depth environmental study of two sites before it would 
consider the Memorial Center again. This is unprecedented, as past 
memorials have not been required to submit such a costly and time-
consuming analysis until after a site was approved.
    Even so, the Memorial Fund commissioned the in-depth environmental 
study requested. However, this will cost $80,000 and take several 
months. And at the end of it, there are still no guarantees that the 
site will be approved.
    Rumor: The public has not had the opportunity to weigh in on a 
Vietnam Veterans Memorial Center and where it should be located.
    Fact: Two public meetings were held in 2005 to solicit response and 
opinions from the public. The Memorial Fund held a public meeting on 
Feb. 22, 2005 at the American Institute for Architects. The National 
Park Service held a second public meeting on June 23, 2005.
    Rumor: If Congress approves this legislation, it will send a signal 
to other groups wanting fast approval of their memorial sites: ``You 
don't have to get a good design. Just hire a lobbyist.''
    Fact: The Memorial Fund did not hire a lobbyist to get this bill 
passed in Congress. Rep. Richard Pombo (R-Calif.) introduced H.R. 4882 
after researching the delays in site approval and meeting with NCPC and 
Memorial Fund officials. As a supporter of the Vietnam Veterans 
Memorial Center, he was dismayed at the continual delays the project 
was facing.
    Also, the Memorial Fund has spent a good deal of time, effort and 
money on the Memorial Center's design. A national competition to hire a 
designer was announced in January 2004. Many rounds of careful judging 
ensued before a design team was selected on Sept. 18 of that year.
    The architect and exhibit designer chosen for the project are world 
renowned and, between them, have worked on such prestigious projects as 
the National Holocaust Museum and the William Clinton Presidential 
Library.
    Rumor: The Vietnam Veterans Memorial Fund has not considered other 
locations.
    Fact: The Vietnam Veterans Memorial Fund and the National Park 
Service have considered eight sites. Seven of them were included in the 
10-month study mentioned earlier, which was conducted by 
preservationists, landscape architects and the designers of 
Constitution Gardens.
    At the conclusion of the study, Site A was recognized as the 
location that met the most criteria set by the Memorial Fund, the 
National Park Service and the authorizing legislation.
    The eighth site, the space in front of the Interior South building, 
was suggested by the NCPC last fall and was studied by the National 
Park Service and the Memorial Fund. However, the Department of the 
Interior has repeatedly refused requests to use the Interior South 
Building or its grounds.
    Rumor: The Vietnam Veterans Memorial Center will disrupt the other 
attractions on the National Mall.
    Fact: The analysis conducted of potential sites for the Memorial 
Center studied noise, foot traffic and other factors that could 
possibly disrupt visitors to other memorials on the National Mall, and 
Site A was found not to be disruptive.
    Rumor: If the NCPC is taken out of the decision-making process, the 
Vietnam Veterans Memorial Center will end up being a five-story 
building on the National Mall.
    Fact: The National Park Service would never support such a plan, 
and the Vietnam Veterans Memorial Fund would never propose it. Every 
care has been taken to preserve the look and feel of the National Mall.
    Also, this contention overlooks an important fact: the authorizing 
legislation calls for the Vietnam Veterans Memorial Center to be an 
underground facility.

    Senator Thomas. Thank you, sir.
    Mr. Noonan.

     STATEMENT OF PATRICK NOONAN, CHAIRMAN EMERITUS OF THE 
   CONSERVATION FUND, ARLINGTON, VA; ACCOMPANIED BY GILBERT 
               GROSVENOR, CHAIRMAN OF THE BOARD, 
                  NATIONAL GEOGRAPHIC SOCIETY

    Mr. Noonan. Mr. Chairman, I thank you and the committee for 
holding this hearing today.
    I want to introduce my colleague, Gil Grosvenor, to my 
right. Gil is chairman of the board of the National Geographic 
Society and, along with me, a child of the Chesapeake. He joins 
me in supporting this important legislation before you.
    In the interest of time, I ask consent to have my 
statement, and that of Mr. Grosvenor, entered in the record.
    Senator Thomas. Without objection.
    Mr. Noonan. I especially want to acknowledge the leadership 
of Senator Sarbanes and the bipartisan support for this 
legislation. Senators Warner, Allen, and Mikulski--they, along 
with Senators Biden, Carper, Santorum, and Specter, are the 
real visionaries behind this legislation.
    On behalf of trail supporters across the Bay watershed, we 
express strong support for this bill. This bill recognizes and 
commemorates the historic 3,000-mile voyage of Captain John 
Smith throughout the Chesapeake Bay region.
    I ask consent to submit for the record a list of 
individuals, groups, governmental entities, and tribal 
governments who support this bill. Thank you.
    I do want to mention the full support of the Chesapeake 
Executive Council, chaired by Governor Ehrlich, the Chesapeake 
Bay Commission, and the Chesapeake Bay Foundation.
    Mr. Chairman and members of the committee, there's a map to 
your left. That map was provided by the National Geographic 
Society, which has done extensive research on John Smith's 
diaries and his early drawings from 1608 to 1612, remarkably 
accurate drawings that have been recreated on a current base 
map detailing his travels in his areas of exploration.
    We've heard that the National Park Service has completed 
the mandated study of the proposed trail as to its historical 
significance, and determined that it is nationally significant, 
as well, a critical first step to establish the trail.
    2007 will mark the 400th anniversary of Captain Smith's 
journey. There is growing interest and enthusiasm in the Bay 
area and around the world for commemorating this remarkable 
event. We need to designate this trail now, in anticipation of 
next year's 400th celebration, the first quadricentennial 
celebration in our Nation's history, so that the National Park 
Service and its non-Federal partners will be ready and able to 
meet the public's high expectations for Jamestown.
    We have been extremely fortunate that the private 
partnerships with the State and local governments, the 
departments of tourism, nonprofit and corporate America, 
including DuPont, Verizon, Lockheed Martin, and other 
corporations have embraced this concept. We express our 
appreciation.
    Smith's exploits were nothing short of remarkable. With 
only a few men, he courageously explored the entire region, 
from the Virginia Capes to the lower Susquehanna River. His 
famous map of 1612 was the first accurate description of the 
region and provided, along with his diaries, similar depictions 
of the Bay and its peoples. My friends, this was the earliest 
extensive exploration of America by the English of this great 
land we now call America, 200 years before Lewis and Clark.
    Smith was a bold leader. As the president of the Jamestown 
Colony, he was an inspiration political force who stressed the 
importance of loyalty, hard work, respect for the individual, 
and planted the seed of our democratic ideals.
    The proposed trail is important on many levels. There are 
opportunities for education and interpretation, recreation, 
economic development, tourism, and especially the rapidly 
expanding and very exciting area of heritage tourism.
    Yes, Captain John Smith's routes of travel deserve to be 
recognized and commemorated as a National Historic Trail, not 
just for our generation, but more importantly, for future 
generations.
    Thank you, Mr. Chairman.
    [The prepared statements of Mr. Noonan and Mr. Grosvenor 
follow:]
     Prepared Statement of Patrick F. Noonan, Chairman Emeritus of 
                         The Conservation Fund

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today in support of S. 2568, the ``Captain John 
Smith Chesapeake National Historic Trail Designation Act of 2006.'' I 
am Patrick F. Noonan, Chairman Emeritus and founder of The Conservation 
Fund--a national organization dedicated to conserving historic, natural 
and working landscapes and to promoting sustainable economic 
development through tourism, education and community-based initiatives.
    I am accompanied by my good friend and colleague, Mr. Gilbert 
Grosvenor, the Chairman of the Board of the National Geographic 
Society. Gil Grosvenor and I have worked closely together to educate 
the public about the importance of Captain John Smith's voyages and the 
splendors of Chesapeake Bay. Mr. Chairman, in the interest of time, I 
ask consent to include Mr. Grosvenor's statement in the record.
    We also wish to thank Senator Sarbanes for his leadership role in 
introducing this bipartisan bill with the outstanding support of 
Senator Allen and Senator Warner. The bill is co-sponsored by Senator 
Mikulski, Senator Biden, Senator Carper, Senator Santorum and Senator 
Specter, a testament to their recognition of our nation's rich history 
and the importance of commemorating the 400th anniversary of the 
establishment of Jamestown and Captain John Smith's voyages.
    We strongly support S. 2568, a bill to amend the National Trails 
System Act to designate Captain Smith's routes of travel as the Captain 
John Smith Chesapeake National Historic Trail. By establishing a new 
National Historic Trail, the bill would designate Smith's historic 
routes of travel as nationally significant. These routes of travel 
extend for approximately 3,000 miles in the Chesapeake Bay and along 
portions of the Bay's major tributaries in the states of Virginia, 
Maryland, and Delaware.
    For over thirty years, I have worked to protect America's great 
treasures, such as Civil War battlefields, by forming partnerships with 
private landowners, major corporations, and state and federal agencies. 
The Chesapeake region is particularly special to Gil and me because we 
are ``children of the Chesapeake'' and have lived near its shores for 
our entire lives.
    The proposed Captain John Smith Chesapeake National Historic Trail 
comes from the people of the Chesapeake. After the hearing before this 
Subcommittee last year, we have seen a tremendous outpouring of support 
for establishing the trail, from state and local governments, Indian 
tribes, businesses, chambers of commerce, tourism leaders, non-profit 
organizations, landowners, educational institutions and individual 
citizens. We are pleased that the proposed trail enjoys the support of 
the governors of Maryland, Virginia, Delaware and Pennsylvania as well 
as the Virginia Council on Indians and the Nanticoke Indians. Mr. 
Chairman, I ask unanimous consent that a list of supporters be included 
in the record.
    The completion of a replica of Captain John Smith's 30-foot boat, a 
shallop, earlier this year has heightened this level of public support 
and stirred the imagination of the general public about Smith's 
voyages. We are pleased that the shallop will be on display here in 
Washington, D.C. at the National Geographic Society later this year. We 
anticipate that the public's enthusiasm for telling this important 
story will only grow in advance of next year's commemoration of the 
important events that took place in the Bay nearly 400 years ago.
    In carrying out the Congressionally-authorized study of the 
proposed trail, the National Park System Advisory Board recently found 
that Smith's voyages are nationally significant, a key step in the 
process to establish the trail. The Board concurred in the findings of 
the National Park Service and National Landmarks Committee that Smith's 
routes of travel are nationally significant with respect to several 
broad themes in our nation's history including ethnic heritage (Native 
Americans), exploration and settlement, and trade and commerce. Because 
of the historic, cultural, and economic importance of Captain John 
Smith's explorations of the Chesapeake Bay and the public's demand for 
information on Smith's voyages, we respectfully request that Congress 
pass the bill to establish the trail this year.

           BRINGING AMERICAN HISTORY AND IMAGINATION TO LIFE

    As you know, 2007 marks the 400th anniversary of the founding of 
Jamestown, the first permanent American settlement and of Captain John 
Smith's arrival in the New World. Captain John Smith--sailor, soldier, 
explorer, and colonial leader--played a crucial role in establishing 
the roots of our nation's rich maritime heritage when he explored the 
Chesapeake Bay in a shallop. Smith saved the hour at America's birth 
and served as indefatigable leader who, with the assistance and 
forbearance of the Native Americans, turned fate by keeping Jamestown 
afloat.
    As the eve of the quadricentennial of Jamestown's founding 
approaches, it is important to commemorate the national significance of 
Smith's voyages, which are on par with Lewis and Clark's Corps of 
Discovery and their exploration of the nation's interior. The proposed 
trail will recognize John Smith's leadership and inspire generations of 
Americans and overseas visitors to follow Smith's journeys, gain a 
better understanding of the contributions of the Native Americans and 
to learn about the roots of American democracy.
    Captain John Smith's exploration of Chesapeake Bay was a monumental 
and historic achievement, shaping the boundaries, character and future 
of America. Smith and his crew of just over a dozen men courageously 
traveled almost 3,000 miles along the Bay exploring a vast region from 
the Virginia capes to the lower Susquehanna River near Pennsylvania.
    Smith saw a Chesapeake Bay with its incredible, productive 
ecosystem intact and with sophisticated and diverse Native American 
cultures thriving along the shores of what is known today as Maryland, 
Virginia, Washington D.C., Pennsylvania and Delaware.
    Smith's famous 1612 map was the first accurate depiction of the 
Chesapeake Bay and the native settlements present. For nearly a 
century, the map served as the definitive map of the region, including 
areas documented entirely with information supplied by Native 
Americans. By providing accurate information, this map enabled the 
colonization of British North America. Smith's voyages also opened the 
door of opportunity to establish our democratic forms of government for 
all Americans
    On his voyages and as President of the Jamestown Colony, Captain 
Smith became the point of first contact for scores of Native American 
leaders from around the Chesapeake. His notes describing the indigenous 
people he met in the Chesapeake are still widely studied by historians, 
anthropologists and scientists. The impact of Smith's voyages on the 
American Indians is a critical element of the story.
    Smith commonly formed partnerships with the many different tribes 
by building an economic relationship based on trade. The supplies he 
obtained through trade with American Indians are credited with saving 
the Jamestown colony, during its early years. The historic meeting 
between colonists and Native Americans profoundly impacted both 
cultures and changed the course of history. These early interactions 
between the ambassadors of both peoples were in many ways a significant 
prelude for events to come.
    As chronicled in his journals, Smith's voyages in America ignited 
the imagination of the Old World. He produced many books and his 
writing inspired hundreds, and then thousands of people to settle in 
the ``dense woods and fertile valleys'' of the Chesapeake. His 
adventurous spirit, descriptive writing and accurate mapping all serve 
to bolster his place in history. A man of humble birth, he was a 
captivating individual that played a crucial role in our country's 
history. The proposed National Historic Trail provides a practical 
opportunity for the outdoor enthusiast as well as the historian to get 
a taste of Smith's spirit by traveling the same route he did nearly 400 
years ago.
    In many ways, Captain John Smith personified the chance for a 
better life that would become the American dream for the millions of 
immigrants who would later benefit from his daring. The son of a farmer 
in Lincolnshire, England, Smith left his home to seek adventure and 
fortune in the wider world. Although he was not part of England's upper 
class, he became President of the Jamestown Colony, which was funded by 
the London based Virginia Company, one of North America's first 
``venture capital'' enterprises. Smith demonstrated that America was a 
different place, where success was achieved through hard work, not 
necessarily noble birth. He helped set the foundation for America's 
philosophy of equality through his famous ``don't work, don't eat'' 
policy. Smith focused on skills and talents, not titles, setting an 
egalitarian outlook that has echoes in America to this date.
    Smith was a bold leader who defied the odds and ignited a nation. 
His contemporaries gave him the credit for having supplied the firm 
hand and common sense that saved the Jamestown colony during its early 
struggles with starvation and disease. If not for his leadership, the 
colony would most likely have failed like the earlier lost colony of 
Roanoke. England may have lost its claim on the New world and our 
history would have been vastly different. Instead, he planted the seeds 
of our American democracy right here in the arms of the Chesapeake and 
provided inspiration to our county's founding fathers, such as Thomas 
Jefferson when writing the Declaration of Independence.
    In 1804, in his book on The Life of George Washington, Chief 
Justice John Marshall wrote of Captain Smith ``[w]hen we consider that 
he sailed above three thousand miles in an open boat; when we 
contemplate the dangers, and the hardships he encountered, and the 
fortitude, courage and patience with which he met them; when we reflect 
on the useful and important additions which he made to the stock of 
knowledge respecting America, then possessed by his countrymen; we 
shall not hesitate to say that few voyages of discovery, undertaken at 
any time, reflect more honor on those engaged in them, than this does 
on Captain Smith.''

               MARITIME HERITAGE, TOURISM AND RECREATION

    In addition to commemorating Smith's voyages, the proposed trail 
offers tremendous economic opportunities through heritage tourism, such 
as: trail outfitting and guide services, motor coach tours, food, 
lodging and maritime commerce. By establishing the trail, S. 2568 would 
provide an excellent opportunity for the public to learn about Native 
American history, early English settlement, as well as the Chesapeake 
Bay's natural resources. The trail could promote public education 
through: trail maps and guide books, classroom and field experiences, 
museum and website exhibits, and interpretive buoys.
    Smith is a proud part of the region's rich maritime and cultural 
heritage, which includes the fleets of working boats tied up to the 
docks at watermen's villages, restored 19th century skipjacks and 
buyboats, Native American villages, and documentation in local maritime 
museums. John Smith's waterways of history would link these features 
with other recreational, cultural and historic destinations providing a 
highly desirable tourism opportunity for the region.
    The Chesapeake Bay Commission, the Chesapeake Executive Council, 
and economic development officers, chambers of commerce and local 
governments have recognized the potential historic tourism 
opportunities of the trail. Involving volunteer communities, non-
governmental organizations, public agencies, business and private 
landowners in the planning and operation of the trail will make the 
trail a new model for public-private partnerships so crucial to 
protecting the ecological integrity of working waterways and the 
ability to experience history.

                               CONCLUSION

    The Chesapeake is an American treasure. It is the cradle of our 
nation and ties us to our history as a nation from Yorktown to the 
nation's capital. The Chesapeake is also a working landscape providing 
billions of dollars annually to the economy of the region and is 
cherished by the millions of people that live near its shores. Through 
the bipartisan leadership of the Maryland, Virginia, Delaware, and 
Pennsylvania Congressional delegation, the establishment of the Captain 
John Smith Chesapeake National Historic Trail would create exceptional 
opportunities for recreation and historical tourism experiences, 
education and stewardship.
    S. 2568 recognizes the riches of the Chesapeake, just as John Smith 
did when, referring to the Chesapeake, he said, ``Heaven and earth 
never agreed better to form a more perfect place for man's 
habitation.'' We urge your favorable consideration of this bill and 
would be pleased to answer any questions you may have.
                                 ______
                                 
    Captain John Smith Chesapeake National Historic Trail Supporters

    The following entities have expressed support for Senate Bill S. 
2568 specifically and/or the expedited completion of the National Park 
Service's feasibility study for the trail as well as the general 
concept of the Captain John Smith Chesapeake National Historic Water 
Trail.

                        COMMONWEALTH OF VIRGINIA

    Governor Tim Kaine, Virginia Department of Conservation and 
Recreation, Virginia Senate, Virginia House of Delegates, Virginia 
Council on Indians, Chickahominy Indian Tribe
    Arlington County, County of Accomack, County of Charles City, 
County of Henrico, County of Stafford, James City County, King William 
County, Northampton County, Surry County
    City of Fredericksburg, City of Norfolk, City of Richmond, City of 
Virginia Beach, Town of Colonial Beach
    Arlington County, Committee on Jamestown 2007; BikeWalk Virginia; 
Cape Charles Historical Society; Colonial Beach Yacht Center, Inc.; 
County of Charles City, 2007 Planning Committee; Eastern Shore of 
Virginia Tourism Commission; Friends of the Rappahannock; Friends of 
the Rivers of Virginia; George Washington's Fredericksburg Foundation; 
James River Association; Jamestown 2007; Lynnhaven River 2007; New Kent 
Chamber of Commerce; Richmond Metropolitan Convention & Visitors 
Bureau; Richmond Region 2007; Tidewater Marine Trade Association of 
Virginia; Virginia Beach 2007; Virginia's Eastern Shore Tourism 
Commission

                           STATE OF MARYLAND

    Governor Robert Ehrlich, Delaware Department of Natural Resources, 
Delaware Department of Transportation
    Anne Arundel County; Cecil County; Dorchester County; Mid-Shore 
Regional Council (Talbot, Dorchester & Caroline Counties); Upper Shore 
Regional Council (Cecil, Kent & Queen Anne's Counties); Wicomico 
County; Worchester County
    City of Annapolis, City of Salisbury, Town of Bel Air, Town of 
Cecilton, Town of Elkton, Town of North East, Town of Perryville, Town 
of Port Deposit, Town of Rising Sun, Town of Vienna
    Dorchester County Tourism Department, Heart of Chesapeake County 
Heritage Area Management; DelMarva Low Impact Tourism Experiences; 
Eastern Shore Land Conservancy; Lower Eastern Shore Heritage Council; 
Marine Trades Association of Maryland; Maryland Legislative Sportsmen's 
Caucus; Nanticoke Watershed Alliance; National Aquarium in Baltimore; 
Rural Maryland Council; Somerset County Tourism; The Salisbury 
Zoological Park; Salisbury Area Chamber of Commerce

                      COMMONWEALTH OF PENNSYLVANIA

    Governor Ed Rendell, Pennsylvania State Senate, Pennsylvania House 
of Representatives, York County, City of Harrisburg, Pennsylvania 
Environmental Council, The Western Pennsylvania Watershed Program

                           STATE OF DELAWARE

    Governor Ruth Ann Minner; Delaware Economic Development Office; 
Delaware Department of Natural Resources & Environmental Control; 
Delaware State Senate; Delaware House of Representatives; Nanticoke 
Indian Tribe; New Castle County; City of Seaford; Town of Laurel; 
Bethany-Fenwick Area Chamber of Commerce; Greater Seaford Chamber of 
Commerce; Laurel Chamber of Commerce; Southern Delaware Tourism, Sussex 
County; University of Delaware

                         GREATER CHESAPEAKE BAY

    Chesapeake Bay Commission; Chesapeake Executive Council; American 
Rivers; Chesapeake Bay Foundation; The Conservation Fund; Discovery 
Creek, Children's Museum; DuPont Corporation; Garden Club of America; 
Izaak Walton League of America; National Geographic Society; Sultana 
Projects, Inc.
                                 ______
                                 
         Prepared Statement of Gilbert M. Grosvenor, Chairman, 
                      National Geographic Society

     Mr. Chairman, and members of the Committee, thank you for the 
opportunity to provide a statement on the importance of Captain John 
Smith's voyages of exploration in Chesapeake Bay. When my good friend, 
Pat Noonan, a distinguished member of our Board of Trustees and 
Chairman emeritus of The Conservation Fund, came to me with the idea to 
create the Captain John Smith Water Trail I got on board immediately 
with Pat and Will Baker, President of the Chesapeake Bay Foundation as 
a founding member of the Friends of the Captain John Smith Chesapeake 
National Historic Water Trail.
    National Geographic is an international organization with a mission 
to increase and diffuse geographic knowledge. For 118 years, the 
Geographic has developed new and exciting vehicles to bring the world 
to our millions of members and the public at large. Captain Smith's 
voyages of exploration are a vital chapter in American history, and 
national recognition of these voyages creates yet another new mechanism 
to provide information to the public about history, geography, and the 
environment.
    Nearly 400 years ago, Captain John Smith and a dozen or so men 
traveled nearly 3,000 miles on the Chesapeake Bay in a small open boat. 
They carefully documented the region's geography, ethnography and 
ecology. By learning to speak Algonquin, Smith shared information and 
traded with the Native Americans for supplies vital to the survival of 
the Jamestown colony. Smith's 1612 map of the region is the Magna Carta 
of American cartography and provides us with an invaluable record of 
English discovery and our nation's social history. For over 60 years, 
it served as the definitive source for all other maps of the region, 
providing information on geography, elevation, forest cover, and Native 
American settlements and it opened the door to English settlement of 
America.
    Smith and his accomplishments in Chesapeake Bay were the inception 
of the American spirit of adventure. We support the effort to educate 
our citizenry about the importance of Smith's voyages and the 
establishment of Jamestown. In accordance with our mission, National 
Geographic has undertaken a number of actions to promote geography 
education in the Chesapeake Bay, including:

  <bullet> A June 2005, National Geographic Magazine story on the 
        Chesapeake Bay, that included a piece on Captain John Smith 
        (circulation over 7,000,000 worldwide).
  <bullet> Also in 2005, National Geographic TV & Film produced a 
        documentary; ``Nightmare in Jamestown.'' They also produced an 
        educational video; ``John Smith's Voyage of Discovery,'' that 
        was distributed free of charge to educators across the 
        watershed and is streamed on our web site.
  <bullet> Our Education Foundation established a $2,000,000 
        ``Chesapeake Bay Geography Education Fund,'' an endowment 
        intended to encourage and support geography and environmental 
        education pertaining to the Chesapeake Bay among K-12 students 
        and teachers.
  <bullet> Also Last year, National Geographic Maps produced and 
        distributed, free of charge, 100,000 state-of-the-art printed, 
        large-format maps of the Bay; one side depicting the Bay in 
        John Smith's time, including natural habitats and Native 
        American communities, and the other focusing on the 
        environmental health of the Bay today. We also reconfigured the 
        map for grades 2-3 and 4-6 and published nearly 1 million 
        copies for Explorer Magazine for kids.
  <bullet> In addition, we created a web resource that serves students, 
        educators, and the general public (www.nationalgeographic.com/
        chesapeake). The site also includes a new, innovative, online 
        interactive map.
  <bullet> Since hosting an Education Summit on the Chesapeake Bay in 
        November of 2005, we have been working with the National 
        Oceanic and Atmospheric Administration (NOAA) to develop the 
        Chesapeake Interpretive Buoy System, which would mark the John 
        Smith trail and facilitate environmental monitoring and 
        education. The buoys could relay historical, educational and 
        real-time scientific data to nearby boaters and kayakers on the 
        Trail and to children in their classrooms via the Internet.
  <bullet> National Geographic Books will publish a children's book on 
        the life of Captain John Smith and a Special Publications book 
        on John Smith's routes of exploration in the Bay authored by 
        John Page Williams, Senior Naturalist, at the Chesapeake Bay 
        Foundation.
  <bullet> Lastly, our Research, Conservation and Exploration Group has 
        awarded a grant to Sultana Projects, Inc. in support of their 
        efforts to build a replica of the shallop used by Captain John 
        Smith to explore the bay. The shallop will be on display at 
        National Geographic headquarters in Washington D.C. from 
        November 3rd, 2006 to January 7th, 2007. It will be accompanied 
        by an educational exhibit that illustrates the early 17th 
        century Chesapeake Bay region. This will be an excellent 
        opportunity to view the shallop up-close before it sets off in 
        2007 on its epic re-enactment of Smith's voyages.

    Thank you for considering my thoughts on the importance of Smith's 
voyages of exploration. Smith's spirit of adventure has captured the 
imagination of the American public for hundreds of years. Smith's 
voyages of exploration and his interactions with Native Americans were 
important in the history of the formation of our democracy. In the 
event that Congress should establish the Captain John Smith Chesapeake 
National Historic Trail, we look forward to working with the National 
Park Service to continue the development of interpretive materials for 
this important chapter in American history.

    Senator Thomas. You're very welcome. The other material you 
mentioned will be included in the record as well.
    Mr. Noonan. Thank you.
    Senator Thomas. Mr. Saikus, you want involvement in the 
procedure, as I understand it. Do you have specific concerns 
about the location or the design?
    Mr. Saikus. Yes. The main thing that's--when I presented, 
to my fellow veterans in Ohio, some of the design concepts and 
everything like that--and some of them are suffering from 
PTSD--the one statement--and you should have seen their facial 
expression--was, ``Great, a bunker, that's all we need.'' OK?
    I was involved in a veterans memorial in Cleveland, OH, 
where we unified all the veterans from the Spanish-American War 
to the current Iraq war. And part of the design had gazebos in 
the quadrants to have entrances to the garage, because they put 
a garage underneath. And what happened, there was glazing 
around the gazebo, and, to many of us Vietnam veterans, OK, it 
reminded us of site of--we've seen and read about our fellow 
veterans that were incarcerated in the POW cages, and we had to 
fight it along the way. And that's one of the things about this 
process that's very critical to involve more of the Nation's 
veterans.
    The fund has done great work, and I commend them and salute 
them, OK, and fellow veterans, for coming through with ``The 
Wall,'' but this is something that the Nation--it belongs to 
the Nation, it belongs to all the veterans throughout the 
Nation, and this process has to slow down to give a chance for 
all the veterans of the Nation--all of us don't have a chance 
to participate here. And I'm honored to be here, and I 
appreciate your invitation.
    Senator Thomas. This bill, as I understand it, would move 
up the normal study, then, if this did not pass, and the normal 
study took place, would that meet your needs; do you think?
    Mr. Saikus. The main thing of this process, what really 
concerned me as soon as I heard it, is that it is unusual to 
try to move things so fast when there are avenues there. I've 
been involved in processes in Cleveland where the FAA came in 
and brought in the wetlands into an area where there's veterans 
memorials from World War I. Well, there's--none of the World 
War I veterans, and very few relatives, are left to be able to 
fight that issue.
    Senator Thomas. OK.
    Mr. Saikus. And they never even consider getting veterans 
involved. And we respect veterans and citizens.
    Senator Thomas. Sure.
    Mr. Saikus. And that's why we want to make sure our----
    Senator Thomas. Well, this process has gone on for some 
time.
    Mr. Saikus. No, I understand that.
    Senator Thomas. I mean, this isn't a brand new idea.
    Mr. Saikus. No, I understand that. But what we're trying 
to--why I'm here is that this idea of just pushing things 
along, while there's still time to input--the final design 
stages are not there and everything else, and to move it along, 
the concern that we have is why should Congress be in such a 
rush, when our health benefits and other things for veterans 
are not coming through; OK?
    Senator Thomas. OK.
    Mr. Saikus. So, it's part of that package, where I think 
this will require a little bit insight to really heal all of 
us.
    Senator Thomas. Yes, I understand. Thank you.
    Mr. Robinson, just in summary, what is your concern?
    Mr. Robinson. Mr. Chairman, my concern is that we've been 
involved in a process that doesn't have the values that I 
ascribe to those review processes in Washington, DC, from NCPC 
and CFA.
    Senator Thomas. You mean the opportunity to have input?
    Mr. Robinson. No, the actions of the NCPC staff have not 
been transparent. I believe they have not been honest. And we 
have been as transparent and honest as we possibly can.
    Senator Thomas. I see.
    Mr. Robinson. We've had conflicting views of our work. 
We've had--we've been lauded, on one hand, and then it was 
turned down, on the other hand. We would like to have a process 
that's clear and unfettered by personal bias.
    Senator Thomas. I see. Your organization isn't officially 
involved; is that correct?
    Mr. Robinson. No, Mr. Chairman, it's a Park Service 
process, but we're partnering with them.
    Senator Thomas. I understand. OK, very good. Thank you for 
making that clear.
    Mr. Noonan, do you think, from what you've heard today, 
that this study will be completed in time to meet the needs for 
the 400th anniversary?
    Mr. Noonan. Our concern is the mushrooming and growing 
interest in this Nation and across the world in the 400th 
anniversary celebration, 1 year from today, from this week. The 
interest is growing rapidly. There's tremendous need to put in 
place understanding and education programs. We have the private 
sector anxious to participate. And so, we would hope that this 
bill could be moved forward quickly so we could develop the 
appropriate partnerships that are now available to us, to 
ensure that we have a quality experience.
    Senator Thomas. So, the partnerships could be put together 
after the bill is approved; is that it?
    Mr. Noonan. They could be, but they--the partnerships, 
before they commit money, would like to be ensured that there's 
going to be a historic trail. And so, the effort to date has 
been to try and bring this trail to fruition in an effort to 
increase those partnerships. I might ask my colleague, Mr. 
Grosvenor, just to comment on his view on the partnership 
effort of National Geographic, which is rather extensive, at 
this time.
    Senator Thomas. Yes, please.
    Mr. Grosvenor. Mr. Chairman, I think Senator Alexander hit 
the nail on the head. This is a marvelous example of not-for-
profit partnerships forming an important project.
    National Geographic's mission will be to disseminate 
information about the importance of this historic voyage. We'll 
do it through schools, through K-through-12 programs. We'll do 
it through magazines. We'll do it through our Web site. It will 
drive home to Americans the importance of the Jamestown 
celebration. And we feel it's extremely important to get that 
information out ahead of that celebration so Americans are 
prepared for it.
    Senator Thomas. I understand. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I just want to thank our panel for their responses. This is 
going to be helpful when we consider these bills.
    Thank you.
    Senator Thomas. Thank you.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Let me follow up on your questions to Mr. Noonan, and Mr. 
Grosvenor's added comments. You heard my questioning of the 
first witness, from the Park Service, Mr. Martin, about waiting 
around until they finally finish the study, which they say 
might be in October. The voting schedule here is, we're going 
to be out of session in October, then elections in November, so 
at best, it would be December. From your perspective, Mr. 
Noonan--and you're very respected, Mr. Grosvenor, and how you 
would want to present this history, the context--you have made 
up the maps, but then there's also the dissemination, the 
education, the promotion, the garnering of the private-sector 
folks who want to help in it. As a practical matter, if this 
were actually passed--and the earliest that I can really 
foresee it would be in the undesirable, but possible, event 
that we have a lame-duck session in December--how many months 
does it take, do you think, to properly present this? And would 
action in December, as a practical matter, hamstring or hobble 
the full potential of this presentation and interest in the 
Captain John Smith Historic Water Trail?
    Mr. Noonan. The Governors of Maryland, Pennsylvania, and 
Virginia financially helped participate with the study, in the 
hope that this bill would pass as quickly as possible. This is 
an unprecedented celebration, with millions of people, the 
President, the Queen of England. It is a wonderful opportunity 
to celebrate 400 years here, 400 years of history.
    In order to put together those celebrations and go beyond 
Jamestown to the water trail, the opportunities are before us 
right now to put in place educational materials, supporting 
efforts, engage communities who can plan events around the 
water trail. As you know, we have a model shallop that's been 
built that will be available to go across the Bay watershed, 
following the route. All of these efforts are poised to move 
forward, but they seek assurance that this water trail is going 
to be a reality so that they can begin their planning. That is 
the critical element we now face, whether it's in the nonprofit 
sector, local communities, public agencies, or the private 
sector.
    Senator Allen. Mr. Grosvenor, what's your view of how much 
lead time--if this were actually passed, let's say, in 
December, or even, probably more likely, February of next 
year--the point is, how many months do you think it would take 
to get this program, the interest--see, to me, this is 
obviously wonderful for Virginia. When I was Governor, we 
started the funding and the promotion, the 10-year countdown, 
license plates and getting prepared. This is a homecoming for 
all of America. That doesn't--folks in Wyoming, folks in 
Hawaii, folks in Tennessee, folks all across the country--this 
is the cradle of American liberty. It's where the first elected 
body was in the New World, first glassmaking, first steel, and 
some of the more negative aspects and blemishes of American 
history, the first slaves brought into what became the United 
States. And, granted, the French and the Spanish were over in 
the New World way before Jamestown, but insofar as America and 
so many of our foundational values, it was there.
    To present this in the whole context of the whole region, 
it's not something that is just done in the year 2007. It takes 
preparation for this aspect of it, Mr. Grosvenor, because your 
people put together these maps, and they didn't do this in just 
a weekend. It wasn't just a click and--you know, point and 
click. So, how long would you think--how many months do you 
think it would take to get this properly presented to 
educators, to students, to tourists, and others who would be 
interested in the heritage and history of these many voyages 
and explorations up the tributaries of the Chesapeake, and the 
Chesapeake itself?
    Mr. Grosvenor. We started in this project well over a year 
ago. We published our first articles of this celebration last 
spring. We have entered into a permanent endowment with the 
Lenfest Foundation, where we each put a million dollars into a 
permanent endowment for the States of Virginia, Maryland--all 
the Chesapeake Bay States. We will do this, regardless of 
whether it is approved in time. However, this historic water 
trail adds a wonderful dimension for kids to understand 
exploration, and to tie that in to our work would make it much 
more meaningful. We're going to do it anyway, but it will 
become much more meaningful for these kids if they can see this 
trail. We will have the shallop on display at the Geographic, 
which was made--which was a replica of his vessel. That, too, 
will draw tens of thousands of kids in K through 12 into this 
picture. Having the trail established will clearly make our job 
easier. It will make it more successful. And I think the State 
will benefit from it dramatically.
    Senator Allen. Do you all know of any--we've been talking 
here for over an hour about history in Virginia and the 
region--do you know of any other--I'm only aware of one other 
National Historic Trail that's currently in Virginia, and 
that's the one that goes through the Cumberland Gap, as best I 
understand it. Is that correct, Mr. Noonan?
    Mr. Noonan. I believe that is correct.
    Senator Allen. I have no further questions. Thank both you 
all for your leadership, your commitment to our heritage, our 
history. And one learns from history, and you make--you 
understand the foundations, you also understand some of the 
mistakes, so that we have the proper action in the future.
    And I thank you all with National Geographic. I love maps, 
and you all just have fantastic maps. You interest young 
people. The way this coordinates with our schools is also, I 
think, going to be wonderful for young people, because, after 
all, The Virginia Company was a commercial venture, and all of 
us are modern-day shareholders in that commercial venture.
    And I thank both you and the organizations for your truly 
salutary, wonderful, important leadership for our future by 
better understanding our past.
    Senator Thomas. Thank you, Senator Allen. Come visit the 
Oregon Trail sometime.
    [Laughter.]
    Senator Allen. I will say the Oregon Trail is, by far, the 
very best computer game.
    [Laughter.]
    Senator Allen. I love playing. Any teachers, parents, it is 
the best computer game. You learn logistics, weather, the 
different people along the Oregon Trail trading, bartering, 
whether to caulk a wagon or not, or hire an Indian guide. It is 
the best. So, I'd highly recommend the Oregon Trail.
    Senator Thomas. Very good, thank you, Senator.
    Senator Allen. It's the best computer game ever.
    [Laughter.]
    Senator Thomas. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    A question for Mr. Noonan and Mr. Grosvenor. You said 
you're going to do this anyway, but as I know something about 
the entrepreneurial abilities of Mr. Noonan, wouldn't it be 
easier to raise all this money and excite all this interest if 
it was designated before the 400th anniversary, rather than 
after?
    Mr. Noonan. Absolutely. December is simply just too late. 
If you think about--as you know, Jamestown is going to have a 
national ``teach-in.'' That national ``teach-in,'' in November, 
will reach every schoolchild in America. Now, why should we not 
move forward, create the National Water Trail to be part of 
those educational materials that will soon be developed or in 
process? It's a wonderful opportunity to share, not just with 
the people in this room, but to share with every schoolchild in 
America, so they understand the 400-year legacy that we enjoy.
    So, Mr. Senator, you're absolutely right that December is 
too late. There are too many things that are starting to move 
forward that we need to partner in to capture the true essence 
of this and make this a national celebration of international 
importance.
    Senator Alexander. Are you willing to estimate the amount 
of money or in-kind contributions that you're hoping that this 
trail will attract if it were given a timely approval?
    Mr. Noonan. Well, we already have some examples because of 
the Governors who have already contributed funding to help just 
with the planning, which is unprecedented for a national trail. 
Here, the Governors came forward, from Pennsylvania, Maryland, 
and Virginia, and said, ``We'll match you on this study.'' 
That's unheard of. And from that, DuPont Corporation and 
Lockheed Martin made substantial gifts. Mr. Senator, I think we 
don't know the full measure until we move on with the process. 
If you give us the national trail, if the legislation does 
pass, we will certainly be able to raise much more money, 
increase the number of partnerships, and leverage this desire 
to reach every schoolchild. If we don't have the legislation, 
and we wait until January or February 2007, it will be too 
late, and I think we'll miss the mark.
    Senator Alexander. I notice--and maybe you mentioned this a 
little earlier--that on March 21 the full advisory board--the 
full National Park Advisory Board voted unanimously to approve 
the statement of national significance for the trail. What's 
the significance of that statement to any action that the 
Congress might take?
    Mr. Noonan. Mr. Senator, it's probably the most important 
statement, because if that element is met, that it is of 
national significance and historically importance, which that 
study reflects, the 50-some-page report, where some of the best 
historians in the Nation working with the National Park 
Service, some of the finest people in the National Park 
Service, who worked on this, that is an historic document, and 
the most important document, in the minds of historians, in the 
determination of a National Historic Trail. From that flows the 
other elements, including public recreation, which we think 
will be easily met. And the gentleman from the National Park 
Service testified earlier that, in his view, he felt this trail 
would meet all the criteria, and he saw no impediments. That, 
Mr. Senator, is a very important statement.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Well, gentlemen, thank you very much.
    Just one quick one, Mr. Noonan. One of the problems we're 
having, as the park grows, and accumulates more responsibility, 
is problems with the funding and so on. What do you see, over 
time, with the funding of this trail?
    Mr. Noonan. We think the study itself can be completed by 
the National Park Service, based upon other Park Service 
studies, over a 3- or 4-year period, for $400,000, which we 
don't believe is very much. We also believe, in terms of actual 
manpower, personnel, we're looking at an annual budget of 
$350,000 a year. Again, we're dealing with a water trail. And I 
would like to mention the full partnership that NOAA is showing 
in providing educational materials. So, we are leveraging out. 
And we think for a reasonable sum of money we will get a very 
high return on the investment.
    Senator Thomas. OK, well, thank you.
    Thank all of you very much, and thank you all for being 
here. If there are further questions, we'll submit them to you 
and hope that you'll give us an answer. Thank you very much.
    The committee is adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Fran Mainella to Questions From Senator Thomas

    Question 1a. (S. 1686, Constitution Center): S. 1686 allows the 
National Constitution Center to keep 100% of revenue generated from 
entrance fees, concessions, and other fees for use in managing the 
National Constitution Center.
    How much money does the National Constitution Center currently take 
in that would be affected by this legislation?
    Answer. The National Constitution Center earned over $3 million 
during the first six months of this fiscal year (October 1, 2005--March 
31, 2006) which should result in annual revenue of $6 million. The 
normal annual revenue is approximately $4 million, but the new Ben 
Franklin exhibit has increased visitation, and thus, increasing revenue 
this fiscal year.
    Question 1b. What currently happens to the money that is being 
collected?
    Answer. The money currently goes to the National Constitution 
Center, based on the 1988 authorizing legislation.
    Question 1c. Why is this legislation needed?
    Answer. Although the 1988 authorizing legislation gives the 
National Constitution Center the general authority to operate the 
Center, all parties wanted to clarify that the non-profit organization 
was authorized to keep the revenue instead of it going to the U.S. 
Treasury. Also, the proposed bill language would authorize the National 
Constitution Center to occupy the site for 30 years, which enables them 
to finance future capital improvement projects.
    Upon further review of S. 1686, the Department also would like to 
recommend an additional clarifying amendment. As currently drafted, the 
bill would amend Section 4 of the Constitution Heritage Act of 1988 by 
creating a new section (c)(1)(A)(iv), which would authorize the NCC to 
``negotiate and enter into agreements, leases, contract . . .'' we 
recommend removing the authority provided to NCC to enter into leases, 
since the site would remain under the ownership of the U.S. Government 
and thus, such authority may not be appropriate or desirable for NCC's 
purposes. Instead, we believe that the authority provided to NCC to 
enter into contracts would sufficiently address NCC's future plans for 
the site.
    Question 2a. (S. 2417/H.R. 4192, Clinton Birthplace Designation): 
S. 2417 and H.R. 4192 would designate the Clinton birthplace a National 
Historic Site.
    Would the National Park Service manage the Clinton birthplace as an 
independent unit or add it to the responsibilities of an existing unit?
    Answer. The National Park Service testified in support of the 
effort to honor the birthplace home of former President Clinton, but 
suggested amending S. 2417 and H.R. 4192 to authorize a study. Should 
Congress decide to enact these bills, the National Park Service would 
manage the Clinton Birthplace Home as an independent unit. The 
birthplace home is 89 miles south of Hot Springs National Park, the 
nearest park unit in Arkansas.
    Question 2b. What is the estimated annual cost to operate and 
maintain the Clinton birthplace as a National Historic Site?
    Answer. Since the Department testified on S. 2417 and H.R. 4192, we 
understand that the Clinton Birthplace Foundation, Inc. has 
incorporated the parcel of land where the Clinton Birthplace Home is 
located at 117 South Hervey Street and the adjacent parcel of land 
where the visitor center is located at 415 West Division Street into 
one document of title.
    We understand the intention is to donate both parcels under one 
title for the Establishment of the National Historic Site. The 
estimated annual cost to operate and maintain the proposed National 
Historic Site is $633,000:

------------------------------------------------------------------------

------------------------------------------------------------------------
Personnel.................................................   $506,000
Leased Space ($12,000-15,000).............................     15,000
2 leased vehicles.........................................     12,000
Furnishings, supplies and equipment.......................    100,000
                                                           -------------
    Total cost............................................   $633,000
------------------------------------------------------------------------

    Question 2c. How many full-time and part-time National Park Service 
employees will be required to operate and maintain the site?
    Answer. It would take 9 employees to operate and maintain the site. 
The following is a list of the FTEs needed:

------------------------------------------------------------------------

------------------------------------------------------------------------
Superintendent/Site Manager-GS 12/13................      $66,000-78,000
Administrative support-GS 5/6/7.....................      $30,000-36,000
Chief, Interpretation--GS 11........................             $55,000
Interpretive Ranger-GS 9............................             $43,000
Interpretive Ranger-GS 5............................             $28,000
Park Guide-GS 4.....................................             $25,300
Education Specialist-GS 9...........................             $43,000
Facility Manager-WS 5...............................             $40,300
Maintenance Worker-WG 3.............................             $25,000
------------------------------------------------------------------------

    Question 3a. (S. 2419/H.R. 4882, Vietnam Memorial Visitor Center): 
What is the role of the National Park Service in reviewing and 
approving projects on the National Mall? What other organizations are 
involved?
    Answer. With respect to National Park Service projects, such as 
perimeter security, visitor service facilities, or other similar 
capital projects, the NPS submits its projects to the National Capital 
Planning Commission (NCPC) and Commission of Fine Arts (CFA) for 
approval. In both cases, the District of Columbia State Historic 
Preservation Office and/or the Advisory Council on Historic 
Preservation are consulted.
    Since enactment of the Reserve in 2003, there will be no 
commemorative works other than the Vietnam Veterans Memorial Center and 
the Martin Luther King, Jr. Memorial constructed on the National Mall. 
With respect to commemorative works authorized pursuant to the 
Commemorative Works Act in other areas of the city, the project 
sponsor, in consultation with the NPS, develops an alternative site 
study in the manner described below, generally following the lists of 
sites contained in the Memorials and Museums Master Plan. The National 
Capital Memorial Advisory Commission considers the alternative sites 
and makes a recommendation of a preferred site or sites to the NPS. The 
NPS submits its preferred alternative site to the CFA and the NCPC for 
approval. Sites for commemorative works must be approved by all three 
agencies.
    Question 3b. Has the approval process for the Vietnam Veterans 
Memorial proceeded any differently than previous memorial proposals? 
How?
    Answer. In April 2004, after several years of work with CEQ, the 
NCPC adopted new Environmental and Historic Preservation Policies and 
Procedures that explicitly require an environmental document (defined 
as an Environmental Assessment or Environmental Impact Statement) at 
site selection. NCPC's prior environmental procedures were adopted 
before the Commemorative Works Act was enacted, and did not 
specifically address it. Thus, site selection for memorials approved 
before the new policies generally did proceed without an Environmental 
Assessment or Environmental Impact Statement, with these documents 
frequently submitted at the preliminary design stage.
    Question 3c. Has the National Park Service had to provide the 
National Capitol Planning Commission with the level of documentation/
information being requested for the Vietnam Memorial Visitor Center for 
any previous memorial, monument, or project on the National Mall? If 
yes, please explain.
    Answer. As stated in the answer to Question b, site selection for 
memorials approved before the adoption of NCPC's April 2004 Policies 
and Procedures generally did proceed without an Environmental 
Assessment or Environmental Impact Statement, with these documents 
frequently submitted at the preliminary design stage. Between early 
2005 and November 2005, NCPC and NPS actively worked together on the 
content of the environmental analysis needed to support the site 
selection process for the Vietnam Memorial Visitor Center. NCPC and NPS 
did not have the same interpretation of what was required by NCPC's new 
procedures. On November 29, 2005, after consulting with CEQ, both NCPC 
and NPS agreed the information would be incorporated into an 
Environmental Assessment for the site selection.
    On June 29, on behalf o the Vietnam Veterans Memorial Fund, the NPS 
submitted its preferred alternative (Site A) for consideration by NCPC 
at its August 3 meeting. As agreed between NPS and NCPC staff, the 
submission included presentation materials for Site A, proposed design 
guidelines, and copies of public comments received on the Environmental 
Assessment and our response to those comments. The Environmental 
Assessment is part of the submission but was previously provided to 
NCPC when it was made available for public comment from May 24 to June 
23, 2006.
    With respect to other NPS projects, as described in the answer to 
question (a) above, the NPS prepares an Environmental Assessment prior 
to submission of the project to NCPC and CFA for review and approval. 
Examples of projects include the Washington Monument, Lincoln Memorial, 
and Jefferson Memorial perimeter security projects.
    Question 3d. Are you aware of any instances where congress has 
intervened to select a specific site for a monument, memorial, visitor 
center, or other structure on the National Mall prior to a decision by 
organizations responsible for the approval process?
    Answer. Since the Commemorative Works Act was enacted in 1986, 
Congress has not specified a site for a commemorative work, although it 
has authorized modifications to existing memorials in the form of 
additional commemorative features three times, once at the Lincoln 
Memorial and twice at the Vietnam Veterans Memorial. Congress did 
select a specific site when it authorized construction of the National 
Museum of the American Indian in 1989 and identified four sites from 
which a potential location would be selected for the National Museum of 
African American History and Culture in 2003.
    Question 4a. (S. 2568, Captain John Smith Water Trail): The usual 
process for designating a unit of the national park system is to first 
complete a study and then request designation by congress. The National 
Park Service is currently working on a study for the Captain John Smith 
Water Trail, but the study is not complete.
    I understand that you are currently working on a study of the 
Captain John Smith Water Trail. When do you expect to complete the 
study?
    Answer. The draft study should be completed and made available to 
public no later than August 2006 and finalized by early October.
    Question 4b. Has the National Park Advisory Board provided input to 
the study or made any recommendation regarding designation?
    Answer. At the March 2006 meeting, the National Park Advisory Board 
found the routes of Capt. John Smith's voyages to be nationally 
significant for its association with three main themes:

  <bullet> Ethnic Heritage (American Indians)
  <bullet> Exploration and Settlement
  <bullet> Commerce and Trade

    This finding of national significance is a required component of 
the study process.
    Question 4c. How much do you expect it to cost the National Park 
Service to establish the water trail and how much will it cost to 
operate and maintain as a unit of the national park system?
    Answer. Normally, we do not count the direct costs of establishing 
a trail. Start-up expenses such as marking trail sites and producing 
brochures are counted in the administration costs.
    The estimated cost to administer the trail is not available at this 
time since that is part of the draft study. However, for the 15 trails 
currently authorized to be administered by the NPS (with the exception 
of 3 that are authorized units of the National Park System and the 
Lewis and Clark NHT), the average annual appropriation is between 
$300,000-$400,000.
    Question 5a. (S. 2627, NPS Advisory Board Reauthorization): S. 2267 
extends to authorization for the NPS Advisory Board for another 10 
years and changes the composition of the Board.
    What new challenges is the park service facing and how would the 
proposed changes to the Advisory Board help them tackle those 
challenges?
    Answer. New challenges facing the NPS include the ongoing 
development of business practices, demand for a broader range of 
recreation activities, and maintaining relevance with the changing 
demographics of the American people. Reviewing and guiding 
implementation of new business practices, assisting with determining 
appropriate use of recreation within the parks, and ensuring the parks' 
relevance are all challenges the Advisory Board would be very helpful 
addressing.
    Question 5b. S. 2627 requires that one member of the Board be an 
expert in and have appreciation historical recreational opportunities 
in the national parks. What is meant by for ``historic recreational 
opportunities''? In what way are these activities part of the park 
service mission?
    Answer. ``Historical recreational opportunities,'' are well-
established recreational visitor uses within the parks. Examples 
include hiking, mountaineering, canoeing, fishing, and climbing to name 
a few. Having a board member representing ``historical recreational 
opportunities,'' would ensure that the recreational community is always 
represented on the board. The current composition could allow for 
exclusion of recreational expertise in this important aspect of the 
visitor experience.
    Question 5c. What has been the role of the current NPS Advisory 
Board in the revisions to the NPS management policies?
    Answer. Following approval of the NPS National Leadership Council, 
a special committee of the NPS Advisory Board met with key NPS staff to 
discuss the revised draft policies. On the recommendation of the 
special committee, the revised draft policies were endorsed by the full 
NPS Advisory Board on June 9, 2006.
    Question 6a. (S. Res. 468, Santa Rosa Island Resolution): Santa 
Rosa Island is currently managed under a court-mediated Settlement 
Agreement. The Settlement Agreement helped to address lawsuits that 
alleged that water quality and soil erosion were getting worse under 
NPS management.
    What progress has the Park Service made in the management of Santa 
Rosa Island since the Settlement Agreement?
    Answer. The most dramatic progress has been the restoration of 
riparian wetlands throughout the island. Under the settlement 
agreement, cattle were removed at the end of 1998. In the 6 years that 
followed, the wetlands have become much more biologically productive. 
In addition, the endangered island fox was brought back from the brink 
of extinction. And, the bald eagle has been observed on the island and 
could potentially breed there next year.
    Question 6b. Which units of the national park system currently 
allow hunting?
    Answer. There are 61 units of the National Park System that allow 
hunting, but those are mostly national preserves, national recreation 
areas, national seashores, and other areas with a designation other 
than ``national park.'' Only the following units designated as a 
``national park'' allow hunting:

    (1) Parks in Alaska, which allow subsistence hunting;
    (2) Grand Teton National Park, where licensed hunters help with elk 
reduction management programs; and
    (3) Santa Rosa Island in Channel Islands National Park, where 
hunting is allowed under the settlement agreement and 5-year special 
use permits, and is scheduled to end in 2011.

    Question 6c. I've heard of congressional interest in providing 
special arrangements for military personnel, including disabled 
veterans, to hunt deer and elk on Santa Rosa Island. Are you aware of 
any existing opportunities for military personnel, including disabled 
veterans, to hunt on military lands?
    Answer. The Department of Defense has a list of more than 100 sites 
under its jurisdiction where hunting is available to military 
personnel. Of those sites, more than 70 are accessible to the disabled.
    Question 6d. If the island was closed to allow private, paid 
hunting trips during part of the year, how many members of the public 
would be denied access to the island?
    Answer. Currently during hunting season, August to December, about 
90 percent of Santa Rosa Island is closed to general recreational use. 
It is difficult to project how many people would come if the island 
were fully open.
    Question 6e. Are any other units of the national park system 
managed to provide paid trips for special groups while excluding the 
public?
    Answer. I am not aware of any units of the National Park System 
where the public is excluded to provide paid trips for special groups 
to the extent that this occurs at Santa Rosa Island with private 
hunting trips for four or five months a year.
    Question 6f. How many disabled veterans currently hunt on Santa 
Rosa Island? Are you aware of any specific requests by disabled 
veterans to hunt on Santa Rosa Island being denied?
    Answer. Since the hunt operation is managed by Vail & Vickers and 
the firm they contract with, Multiple Use Managers, we have no way of 
knowing whether any disabled veterans have requested and been denied 
access to hunting.
                                 ______
                                 
   Responses of John V. Cogbill, III to Questions From Senator Thomas

    Question 1. (S. 2419/H.R. 4882, Vietnam Memorial Visitor Center): 
The National Capitol Planning Commission has been accused of delaying 
approval of the site for the Vietnam Memorial Visitors Center. NCPC is 
currently working toward having the site location request ready for 
consideration by the Commission at their August meeting.
    What is the role of the National Capitol Planning Commission in 
reviewing and approving projects on the National Mall?
    Answer. Congress has designated NCPC as the central federal 
planning agency in the National Capital Area. Its job, through planning 
and through review, is to preserve and protect the Mall and other 
important sites in our nation's capital. NCPC, along with the 
Commission of Fine Arts, and the Secretary of the Interior (or 
Administrator of the General Services Administration), approves the 
site and design of projects authorized under the Commemorative Works 
Act. Since enactment of the Reserve in 2003, there will be no more 
memorials added to the National Mall other than the Vietnam Veterans 
Memorial Visitor Center and Martin Luther King Junior Memorial.
    Question 2. What approvals, and by which organizations, are 
required before the National Capitol Planning Commission can make a 
decision regarding site selection for the Vietnam Memorial Visitor 
Center?
    Answer. Site selection is important in the overall planning for our 
nation's capital, and especially for the Mall. Under the Commemorative 
Works Act, a sponsoring federal agency submits sites for review to the 
National Capital Memorial Advisory Commission (NCMAC); the NCPC; and 
the Commission of Fine Arts for site selection review. For the Visitor 
Center, we are on track to review the site at our August 3 meeting.
    Question 3. At what point in the approval process is an 
Environmental Assessment required? Has that always been the required 
timeframe? Has the President's Council on Environmental Quality 
approved your approach to achieving compliance with the National 
Environmental Policy Act?
    Answer. The National Environmental Policy Act (NEPA) requires 
federal agencies to carefully consider environmental impacts in their 
decisions. In April 2004, NCPC adopted new Environmental and Historic 
Preservation Policies and Procedures. The policies and procedures 
require that the submitting agency provide ``an environmental document 
that considers the potential environmental effects of a site selection 
decision upon the proposed site and a reasonable range of alternative 
sites. The level of detail in the environmental analysis should be 
proportional to the scope of the site decision, including consideration 
of design guidelines and other criteria . . .'' It appears that NCPC 
and the National Park Service did not have the same interpretation of 
those new procedures. Between early 2005 and November 2005, NCPC and 
NPS actively worked together on the content of the environmental 
analysis needed to support the site selection process. On November 29, 
2005, after consulting with CEQ, both NCPC and NPS agreed this 
information would be incorporated into an Environmental Assessment for 
the site selection. Subsequently both agencies worked together to 
develop an outline for NPS' Environmental Assessment on site selection.
    Question 4. I understand that you organization waited until 
November 29, 2005, to inform the National Park Service and the Vietnam 
Veterans Memorial Fund of the need for an Environmental Assessment to 
support the site selection process. Is this correct? If so, why did you 
wait so long to inform them of the requirement?
    Answer. As stated in response to Question 3, NCPC and NPS did not 
have the same interpretation of what was required by the NCPC's April 
2004 Policies and Procedures. Between early 2005 and November 2005, 
NCPC and NPS actively worked together on the content of the 
environmental analysis needed to support the site selection process. On 
November 29, 2005, after consulting with CEQ, both NCPC and NPS agreed 
this information would be incorporated into an Environmental Assessment 
for the site selection. The Environmental Assessment was made final on 
May 24, 2006 and has been circulated for public comment for 
consideration at NCPC's August 3 meeting.
    Question 5. Was the Vietnam Memorial Visitor Center site approval 
removed from the December 1, 2006, agenda for the National Capitol 
Planning Commission? If so, why?
    Answer. After reviewing the NCPC staff analysis of the Center for 
the December meeting, NCPC's Executive Committee determined--informed 
by CEQ--that NCPC required a greater level of environmental review to 
inform its decision-making. This meant that the Commission could not 
act without violating its obligations under NEPA and the item would 
have to be removed from the agenda. Just after it heard from CEQ, the 
Executive Committee voted to remove the item from the agenda.
    Question 6. Are you aware of anyone at the National Capitol 
Planning Commission using NEPA compliance or any other part of the site 
approval process for the Vietnam Memorial Visitor Center to delay or 
prevent site selection or construction?
    Answer. No. Everyone at NCPC--staff and Commissioners--is committed 
to a sound and fair process to carry out the agency's obligations under 
the law.
    Question 7. Are you aware of any instances where congress has 
intervened to select a specific site for a monument, memorial, visitor 
center, or other structure on the National Mall prior to a decision by 
organizations responsible for the approval process?
    Answer. Since the Commemorative Works Act was enacted in 1986, 
Congress has not specified a site for a commemorative work, although it 
has authorized modifications to existing memorials in the form of 
additional commemorative features three times, once at the Lincoln 
Memorial and twice at the Vietnam Veterans Memorial. Congress did 
select a specific site when it authorized construction of the National 
Museum of the American Indian in 1989 and identified four sites from 
which a potential location would be selected for the National Museum of 
African American History and Culture in 2003.
    Question 8. Has the approval process for the Vietnam Veterans 
Memorial proceeded any differently than previous memorial proposals? 
How?
    Answer. In April 2004, after several years of work with CEQ, the 
NCPC adopted new Environmental and Historic Preservation Policies and 
Procedures that explicitly require an environmental document (defined 
as an Environmental Assessment or Environmental Impact Statement) at 
site selection. NCPC's prior environmental procedures were adopted 
before the Commemorative Works Act was enacted, and did not 
specifically address it. Thus, site selection for memorials approved 
before the new policies generally did proceed without an Environmental 
Assessment or Environmental Impact Statement, with these documents 
frequently submitted at the preliminary design stage.
    Question 9. What must happen for NCPC to complete the site review 
and selection process between now and the end of August?
    Answer. The National Park Service anticipates that it will submit 
by June 30, 2006 a revised application for site approval, for 
consideration at the National Capital Planning Commission meeting on 
August 3. The application will be accompanied by a completed 
Environmental Assessment, which was made final on May 24, 2006, the 
public comments from the 30-day public comment period, and an analysis 
of the comments. Between the time of submission and the meeting, NCPC 
staff prepares an Executive Director's Report (EDR) that makes a 
recommendation about the request. That EDR and supporting documents 
including the Environmental Assessment are posted on NCPC's website and 
submitted to the Commission for discussion and consideration at the 
meeting. The NPS has assured us that it will meet its submission 
deadlines and we fully expect that the Commission will consider site 
selection for the Center at its August meeting.
    Question 10. What assurances can you provide that NCPC is working 
closely with both the Park Service and Vietnam Veterans to get this 
finished?
    Answer. We consulted with the National Park Service and the 
consultant to NPS and the Vietnam Veterans Memorial Fund about the 
Environmental Assessment. The National Park Service finalized the 
Environmental Assessment on May 24, 2006. The National Park Service is 
putting the EA on its website and noticing it for 30 days of public 
comment. NCPC will also provide notice that the EA is available for 
comment. We continue to have discussions with the National Park Service 
about its submission, and will consult with the Park Service staff 
regularly as we prepare the Executive Director's Report for 
consideration at the August 3 Commission meeting.
    Question 11. What is the status of the Environmental Assessment 
submitted to your office?
    Answer. The National Park Service completed the Environmental 
Assessment on May 24, 2006, and is noticing it for 30 days of public 
comment. We received the Environmental Assessment electronically on May 
24, 2006. The National Park Service will provide public comments and 
its analysis of the public comments by June 30, 2006 with its 
application for site approval.
                                 ______
                                 
        Responses of Ray Saikus to Questions From Senator Thomas

    Question 1. Are you concerned about the process that is being 
followed for the Vietnam Memorial Visitor Center or do you have 
specific concerns about the location or design?
    Answer. I am most concerned about the process, but I also have 
objections to the proposed design and location of the Visitor Center 
(see answer to #2 below). My fellow veterans and I are also concerned 
that Congress is focusing its time and energies away from more critical 
legislation on veterans' issues, and setting a precedent on interfering 
with established avenues for veterans and citizens to participate in 
determining the end result of such an important decision, just because 
someone creates an artificial deadline. When one individual's vision is 
bullied through without a review process, it loses its significance and 
will not incorporate the necessary features. A Congressional hearing is 
not the most effective or appropriate venue for trying to design a 
visitor center for a memorial, or to resolve fundamental differences 
about the vision for that important place. The Vietnam Veterans 
Memorial Fund is not the only voice for this Vietnam Veterans Memorial 
Visitor Center. Passage of this bill would endorse them as the sole 
voice for Vietnam Veterans, and we object to that also. They have a 
right to participate as much as we do. But Jan Scruggs has a very 
limited vision of this visitor center as being for the youth, with no 
regard as to how the interpretation and design will totally disregard 
the feelings and pain of our fellow Vietnam Veterans and their 
families, and especially the families of those who made the ultimate 
sacrifice for their country. The message that will go out for 
generations to come has to bring healing and peace to these veterans 
and their families. This is not a show-and-tell theater production that 
we are embarking on. I would encourage Senator Thomas and the other 
Senators from the Committee and Congress to reflect on how frustrated 
and angry they would feel if they were sitting in our place, and they 
were being excluded from having a voice in how to interpret for the 
public something that they had placed their lives on the line for. We 
are trying to help our Vietnam War families and veterans heal from that 
war and its ramifications. Instead, Congress just opened another wound 
by proposing to bypass the voices of the people affected by the Vietnam 
War. Congress has the power to help heal that wound by not passing 
these bills.
    Question 2 What would you like to see included in the Visitor 
Center for the Vietnam Memorial?
    Answer. The most critical facet is the location and design of the 
visitor center. One that has not experienced the Vietnam War and its 
ravages could not visualize every element that might be painful to many 
of us. The story to be told, and how it is told, will be the next most 
important issue, the transitions from all the suffering to the triumphs 
of war, families, and individuals, as well as the legacy that was left, 
needs special attention and widespread input. The proposed design is an 
underground bunker, which evokes a variety of negative feelings. Aside 
from the obvious associations with combat, it also symbolizes Vietnam 
Veterans being swept under the rug, and hidden from public recognition. 
How much more healing it would be to let the light of day shine in on 
the public interpretation of the Vietnam War! Furthermore, an 
underground visitor center could be vulnerable to terrorist attack, and 
the fear of such an attack would certainly be on the mind of many 
veterans in such a setting. We have a long way to go before finding the 
answer to what kind of design would be appropriate. The proposed 
location is also a problem. As envisioned by Jan Scruggs, it would be a 
huge, ugly mound that would defoliate the landscape and degrade the 
setting of the Lincoln Memorial, and even the setting of our own Wall. 
It should be far enough away that the Wall can speak for itself. The 
Wall takes you through a range of emotions that one needs time and 
space to regain one's composure and serenity, the Visitor Center if 
done properly will also take one through a similar roller coaster of 
emotions and there needs to be time and space designed-in to allow for 
the recovery. More thought has to be invested into the design and site 
selection to understand the relationship between the Wall and the 
Visitor Center and where the visitors first visit might be directed to, 
if at all. There are many Vietnam Veterans like myself who can and want 
to be contributors to make this phase of the Vietnam Veterans Memorial 
completion one that will leave a sense of belonging and give our fellow 
Vietnam Veterans another path to healing.
    Question 3. Do you think the Environmental Assessment for the 
Visitor Center should be completed during the site selection process or 
only for the construction of the facility?
    Answer. The Environmental Assessment for the Visitor Center should 
be done prior to site selection. It is unsound fiscally to invest in 
the design of a structure at a site if there are Environmental issues 
that could affect the Visitor Center's design, its costs and its 
ultimate function and purpose, as well as the surrounding memorials and 
other structures. The Environmental Assessment needs to include an 
evaluation of the effects of Radon and other contaminants, if any, on 
staff and artifacts, and a study of the emissions from the ventilation 
system. Also there should be a detailed security assessment performed 
for each potential site, since statistics from the number of visitors 
to the Vietnam Veterans Memorial indicate that the final selection will 
be a highly visited site with great masses of people congregating, and 
could be a potential target for terrorist activity.
    Question 4. Do you consider the National Environmental Policy Act 
as a beneficial tool for evaluating projects and involving the public 
in the process?
    Answer. Both the National Environmental Policy Act and the National 
Historic Preservation Act are important laws requiring agencies to give 
pause and assess the impact of their proposed projects on other 
resources, and in particular to protect our surroundings as well as our 
rich historic heritage. These laws are not only beneficial tools for 
evaluating projects and involving the public in the process, they are 
actually essential in helping the public participate and embrace the 
preservation of our heritage and our way of life.
                                 ______
                                 
 Responses of Harry G. Robinson, III, to Questions From Senator Thomas

    (S. 2419/H.R. 4882, Vietnam Memorial Visitor Center): The proposed 
location for the Visitor Center is slightly north of the Lincoln 
Memorial and West of the Vietnam Memorial in the open space bordered by 
Henry Bacon Drive and 23rd Street.
    Question 1. How many visitors do you estimate at the Vietnam 
Memorial Visitor Center each year?
    Answer. There are approximately 3.5 to 4 million visitors who visit 
the Vietnam Veterans Memorial annually. Projections suggest that many 
of them will visit the Center.
    Question 2. Will it be necessary to install a pedestrian crosswalk 
and traffic signal on Henry Bacon Drive or 23rd Street to manage 
vehicle and pedestrian traffic?
    Answer. Because of the food kiosk being constructed there now, the 
National Park Service plans to have two traffic lights installed on 
Henry Bacon Drive to allow for the pedestrian traffic to the food 
service kiosk. These controls will be sufficient to allow access to the 
VVM Center.
    Question 3. Will the proposed location impede traffic flow or 
increase commute time during rush hour?
    Answer. No, the heavy group visitation hours for the Memorial (and 
the Center, when completed) are after the AM rush hour and before the 
PM rush hour.
    Question 4. Is the soil type and water table at the proposed 
location conducive to construction of an underground Visitor Center?
    Answer. Soils technology will allow construction of the Center 
using strategies similar to those used on the World War II Memorial. 
The use of a slurry wall to bedrock approximately 34 feet below the 
existing grade is the preferred methodology.
                                 ______
                                 
      Responses of Patrick Noonan to Questions From Senator Thomas

    (S. 2568, Captain John Smith Water Trail): Unlike any other trail 
in the national park system, the John Smith Water Trail would be 
entirely over water. It would be marked by buoys to indicate the route 
taken by Captain John Smith.
    Question 1. Do you foresee a need for a visitor center or any other 
land based structures to support and interpret the water trail?
    Answer. We do not foresee a need for a new visitor center for the 
proposed Captain John Smith Chesapeake National Historic Trail. The 
National Park Service (NPS) currently has a number of visitor centers 
it operates in the Chesapeake Bay, including a visitor center at the 
Jamestown National Historic Site. In the event that Congress 
establishes the trail, we envision that the NPS will use existing NPS 
and non-NPS visitor centers, administrative facilities and land based 
structures to support and interpret the trail to provide information to 
the general public about Smith's voyages and the establishment of 
Jamestown.
    In addition, the proposed trail's comprehensive management planning 
process would include guidance on how best to interpret the trail. As 
part of the planning process, we could foresee new land-based signage 
and informational kiosks on publicly-owned sites, or in conjunction 
with non-profit organizations, that would complement existing land-
based structures, the buoy system and Internet-based interpretive 
materials.
    Question 2. How many visitors do you estimate will visit the water 
trail each year?
    Answer. Currently, a large number of people travel via boat on 
waterways that Smith journeyed on between 1607-1609. At this point, we 
do not have an estimate of the number of visitors to the trail.
    Question 3. How much do you expect it to cost the National Park 
Service to establish the water trail and how much will it cost to 
operate and maintain as a unit of the national park system?
    Answer. As a general matter, designating a National Historic Trail 
is a low-cost means to recognize national significant routes of travel. 
We understand that National Historic Trails have four main costs 
associated with them, including planning, an advisory commission, plan 
implementation and annual operations. In the event that Congress 
establishes the trail, the National Trails System Act would require the 
NPS to complete a comprehensive management plan (CMP) for the trail. We 
understand that, on average, a trail CMP costs between $400,000-600,000 
to complete. The cost varies based on the amount of information that is 
available to the NPS at the time of the planning process.
    The National Trails System Act also requires the creation of an 
advisory council for each trail. We understand that a typical council 
costs between $10,000-20,000 per year and could operate for ten years. 
The cost varies based on the composition of the council and the 
geographic location of the council members.
    In addition to the cost of developing the plan, the NPS would have 
to implement the plan. These costs would include coordinating the 
interpretation of the trail with local governments and non-profit 
partners. The commitment of funding from the National Oceanic and 
Atmospheric Administration to develop and deploy interpretive buoys 
along the trail would reduce NPS's plan implementation costs.
    While the operations costs of National Historic Trails (NHT) vary 
widely, the average operations cost for an existing NHT is 
approximately $360,000. We understand that projected annual operations 
cost for the Captain John Smith Chesapeake NHT is approximately 
$500,000. This would pay for a trail superintendent, support and 
interpretive staff and support a trail office.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

         Camp Roberts Environmental Office Hunting and Fishing

         CALIFORNIA ARMY NATIONAL GUARD ENVIRONMENTAL PROGRAMS

Follow these steps to hunt or fish at Camp Roberts:
    1. Purchase the appropriate CDFG license, tags, and stamps.
    2. Submit an application for a permit (Permits are ONLY available 
for sale during hunting and fishing periods at the wildlife check 
station at Gate 3, located near the East Garrison exit from Highway 
101). Do not send permit applications to Camp Roberts Environmental 
office.
    3. Review Camp Roberts (see Camp Roberts regulations section), and 
CDFG (http://www.dfg.ca.gov) regulations.
    4. Call the Hunting Taped Information Line at (805) 238-8167 as 
hunting and fishing may be closed on short notice due to military 
operations. Call ahead for possible changes. Unless indicated, no 
reservations are required.
    5. Registration (check-in) is mandatory each time you hunt or 
fish--check into the Wildlife Check Station.
    6. Checkout is mandatory at the end of your hunt/fishing trip, 
prior to leaving Camp Roberts.
Fishing

             CAMP ROBERTS HUNTING AND FISHING PROGRAM--2006
------------------------------------------------------------------------
              Dates                   Fishing To          Hours Open
------------------------------------------------------------------------
Apr 29-30.......................  Twin Bridges......  6:00 am-8:00 pm
May 6-21\1\.....................  Twin Bridges......  6:00 am-8:00 pm
May 27-29.......................  Twin Bridges......  5:00 am-9:00 pm
June 3-25\1\....................  Twin Bridges......  6:00 am-8:00 pm
Jul 1-23\1\.....................  Twin Bridges......  6:00 am-8:00 pm
Jul 29-30.......................  Twin Bridges......  5:00 am-9:00 pm
Aug 5-13\1\.....................  Twin Bridges......  6:00 am-8:00 pm
Aug 19-20.......................  Twin Bridges......  4:30 am-9:30 pm
Aug 26-Sept 4...................  Twin Bridges......  4:30 am-9:30 pm
Sept 9-30\1\....................  Twin Bridges......  6:00 am-8:00 pm
Oct 1-15\1\.....................  Twin Bridges......  6:00 am-8:00 pm
Oct 21-22.......................  Twin Bridges......  5:30 am-6:30 pm
------------------------------------------------------------------------
\1\ Weekends only.

    Fishing may be closed on short notice due to military activities. 
Call ahead for possible changes. A Camp Roberts permit and a California 
State fishing license are required. See instructions below for 
purchasing Camp Roberts permits. The Nacimiento River will be stocked 
every three weeks from the end of April to the end of August 2006, 
provided that water levels are adequate to support fish. Anglers are 
not permitted to bring dogs on post due to endangered species concerns. 
Please note that due to safety concerns, fishing will be closed on 
September 1st, which is the opening day for dove hunting season.
Hunting
    A Camp Roberts permit and California State hunting license are 
required. Valid fags and or stamps may also be required. Junior hunters 
must show proof of completion of hunter safety course. Hunting permits 
are good only at Camp Roberts. Dogs are allowed only for upland game 
and waterfowl hunting and must be under strict voice control at all 
times.
Turkey Hunt
    A two-day hunt for turkey, pig, and jackrabbit will be held on 
April 29 and 30. Hours are 5:00 am to 8:00 pm. Shoot time for turkey 
hunting is one half hour before sunrise to 4:00 pm.
Pig Hunt
    A three-day pig hunt will be held over the long Memorial Day 
weekend, May 27-29. Hours are 5:00 am to 9:00 pm.
Archery Hunt
    A two-day, archery only hunt for buck deer, pig, and rabbit will be 
held on July 29 and 30. Hours are 5:00 am to 9 pm.
Junior Hunt
    Aug 19-20: A special junior (under age 16) hunt for buck deer, pig, 
and rabbit. Hours 4:30 am to 9:30 pm. Junior hunters must be 
accompanied by a non-hunting adult chaperon, 18 years of age or older, 
while hunting.
Big Game Hunt
    Aug 26-Sept 4: Hunting for buck deer, pig, and rabbit. Hours are 
4:30 am to 9:30 pm. Opening day (Aug 26) for deer and pig hunting is by 
reservation only. After opening day, big game hunters will, be allowed 
on a first-come-first-served basis. To request an opening day 
reservation form, send a self-addressed stamped envelope to the address 
listed below or visit the website. Reservation forms must be received 
by July 1 to be considered for the drawing. Advance hunting permits for 
Aug 26 may be purchased at the check station from 1:00 to 8:00 pm on 
Aug 25.
G-9 Antlerless Hunt
    Aug 28-Sept 4: Hours are 4:30 am to 9:30 pm. Fifteen civilian and 
15 military tags for antlerless deer will be issued by drawing only. 
Civilians should refer to the 2006 California hunting regulations for 
drawing information. Active and retired military personnel who wish to 
be considered for the military tag drawing must send their name, 
address, daytime telephone number, hunting license number, deer tag or 
deer tag number, copy of military ID, and self-addressed stamped 
envelope to California Army National Guard, Headquarters Camp Roberts, 
ATTN: CAEV-CR (Michael Moore), Camp Roberts, CA 93451-5000. Information 
must be received by July 1, 2006 to be considered for the G-9 military 
tag drawing.
Dove Hunt
    Sept 1-4: Dove hunting does not require reservations. Hours 4:30 am 
to 9:30 pm.
October Hunt
    Oct 21-22 for quail, waterfowl, pig, and rabbit. (Hunters with A-24 
archery deer tags for Monterey County may also hunt in Areas 5, 6, and 
7) Hours 5:30 am to 6:30 pm.
November Hunt
    Nov 11-12 for pig only. Hours 5:30 am to 6:00 pm. Nov 18-19 for 
turkey, quail, waterfowl, dove, pig, and rabbit. Hours 5:30 am to 6:00 
pm.
Holiday Hunt
    Dec 2-3, 9-10, 16-17 and Dec 27-31 for rabbit, pig, quail, 
waterfowl, pigeon, and dove (Please check California State regulations 
for season dates for allowable game species). Hours are 6:00 am to 6:00 
pm.
Permits:

                                 FISHING
------------------------------------------------------------------------

------------------------------------------------------------------------
Regular Annual............................  $15.00
State Reduced Fee License\2\..............  $5.00
State Free License\2\.....................  Free
Under 16..................................  Free
------------------------------------------------------------------------
\2\ Eligibility criteria and application procedures for a California
  State Reduced Fee or Free Fishing License is explained in the
  California Sport Fishing Regulations. Anglers must present a State
  Reduced Fee or Free license to obtain similar Camp Roberts permits.


                                 HUNTING
------------------------------------------------------------------------

------------------------------------------------------------------------
Regular...................................  $55.00
One-day...................................  $15.00
Disabled Veteran..........................  $5.00
Under 16..................................  Free
------------------------------------------------------------------------

    It is the hunter's and angler's responsibility to know the 
applicable California State regulations for hunting and fishing.
    Permits are available for sale during hunting and fishing periods 
at the wildlife check station at Gate 3, located near the East Garrison 
exit from Highway 101. Schedules, maps, and opening day reservation 
forms can be obtained by sending a self-addressed stamped envelope, 
along with your request, to the address listed below or by visiting the 
website. Hunters and anglers MUST register at the check station every 
day and MUST also turn in registration forms with harvest results at 
the close of EACH DAY.
Information
    Califomia Army National Guard, Headquarters Camp Roberts, ATTN: 
Hunting and Fishing Program, Camp Roberts, CA 93451-5000
    Hunting and Fishing may be closed on short notice due to military 
operations. Call ahead for possible changes. Unless indicated, no 
reservations are required.
                                 ______
                                 
                  Fort Hunter Liggett Hunting Program

                 DIRECTORATE OF ENVIRONMENTAL DIVISION

    Fort Hunter Liggett (FHL) is an active military training facility 
encompassing 165,000 acres of grasslands, woodlands, and chaparral 
habitats in southern Monterey County. FHL is about 25 miles southwest 
of King City along Jolon Road, and about 50 miles northwest of Paso 
Robles, west from Highway 101 to Jolon Road. When military training 
activities allow, FHL may have up to 130,000 acres open to hunting on 
weekends and federal holidays, except Christmas day. The number of 
hunters is limited any given weekend and registration is on a first 
come first served basis. A FHL permit, valid California Department of 
Fish and Game (CDFG) hunting license, species tags and stamps and photo 
identification are required to hunt on Fort Hunter Liggett. CDFG 
license, species tags or stamps are not available on post.
    Hunting Permit: Annual ($70), or Two-Day ($25) permits are sold 
only by mail and are to be picked up when you register to hunt. Junior 
(15 years old or younger), senior (age 62 or older), or disabled 
veterans (with a CDFG disabled veteran hunting license) are eligible 
for a no-fee permit. Follow the directions on the permit application to 
purchase your permit. Hunting permits are non-transferable and non-
refundable and expire along with your California hunting license. FHL 
fees support hunting and fishing, wildlife and habitat management on 
FHL.
    Hunted Species: The following species may be hunted on FHL during 
open seasons and by CDFG regulations: deer, tule elk, pig, coyote, 
bobcat, jackrabbit, cottontail, tree squirrel, dove, quail, pigeon, 
turkey (spring and fall), duck, and goose.
    Special Weapon Areas: Training Areas 29 and 30 are walk-in only, 
and restricted to shotgun, muzzle-loading, and archery weapons. 
Training Area 3 is restricted to archery only.
Follow these steps to hunt at FHL
    1. Purchase the appropriate CDFG license, tags, and stamps.
    2. Submit an application for a FHL Hunting Permit (in Adobe pdf 
format) or for a Hunting Permit Application in Word format click here.
    3. Review FHL (see FHL regulations section), and CDFG 
(www.dfg.ca.gov) regulations.
    4. Call the Hunting Information Line at (831) 386-3310 on Thursday 
evening for open training areas and Check Station Registration Window 
hours for the upcoming weekend.
    5. Pick up your FHL hunting permit at registration.
    6. Registration (check-in) is mandatory each time you hunt--check 
into one open training area to receive a training area pass (Hunter 
Registration and Harvest report form). Training area changes are 
available at the Wildlife Check Station.
    7. Report ALL of your harvest on the harvest report form.
    8. Checkout is mandatory at the end of your hunt, prior to leaving 
FHL. Return both copies of the Hunter Registration and Harvest Report 
Form, and any visitor passes to the check station.
    Registration: Hunters must register in person at the check station 
registration window located near the campground. Each hunter is 
assigned to one open training area at a time. Register Fridays--3-7 pm, 
Saturdays, Sundays, and Federal holidays--5:00 am-1:00 pm (hours vary 
with day-length.) Present the following documents for registration:

    1) a completed hunter registration form (available at the check 
            station),
    2) a valid California hunting license, and applicable tags and 
            stamps,
    3) FHL hunting permit, and
    4) photo ID

    Minor hunters may register when accompanied by an adult with photo 
identification.
    Visitors: Each hunter is allowed one non-hunting visitor free of 
charge. Request a visitor pass during registration.
FHL Regulation 420-26, Game Law Enforcement, summary
    All visitors must comply with FHL and CDFG regulations, (see at 
http://www.dfg.ca.gov).

    1. Seasons: 1.1. Hunting permitted during CDFG open seasons and as 
military training allows.
    1.2. Hunting hours are from one-half hour before sunrise to one-
half hour after sunset unless further restricted by CDFG regulations.
    2. General:
    2.1. CDFG, FHL and Army regulations are applicable and enforced on 
FHL. Violations may result in:

    1) Criminal prosecution in Federal Magistrate, U.S. District Court, 
            California Municipal, or Superior Court.
    2) Suspension or revocation of Fort Hunter Liggett hunting 
            privileges.
    3) Written warning.
    4) Uniform Code of Military disciplinary action.

    2.2. Loaded firearms are allowed only while hunting in the hunter's 
designated training area.
    2.3. It is unlawful on FHL to:

    a) hunt in ``no hunting'' areas. (No Hunting Areas are Cantonment, 
            Training areas 12A, 20, 21, 22, the Ammunition Supply 
            Point, and other areas marked with no hunting signs),
    b) drive any vehicle off road,
    c) drive on military shooting ranges or shoot from towers,
    d) pick up, disturb or carry off Government equipment, ordnance, 
            munitions or parts of the same,
    e) excavate, collect, damage, alter, deface, sell, purchase, 
            transport, or receive any archeological artifacts,
    f) take, harass, harm, pursue, hunt, shoot, wound, kill, trap, 
            capture, or collect, any threatened, endangered or non-game 
            wildlife species (except coyote and bobcat) or to remove or 
            destroy any threatened, endangered or any other plants,
    g) disturb Protection and Rehabilitation Sites, which are marked 
            with flagging, cones, and/or signs,
    h) cut, collect, or gather any wood,
    i) hunt within 200 meters of the installation boundary, public 
            road, or adjacent to private land, or
    j) litter

    2.4. The following are unlawful in Fort Hunter Liggett training 
areas:

    k) access without a valid FHL training area or visitor pass,
    l) being intoxicated or consuming alcohol,
    m) fires,
    n) camping,
    o) use of off road motorcycles or all terrain vehicles (ATV's),
    p) dogs (except voice trained dogs for bird hunting),
    q) swimming,
    r) target shooting, or
    s) possession of air-guns, slingshots or spring loaded devices.

    2.5. Vehicles must be parked within the training area noted on the 
hunter registration form, or within a designated parking area.
    2.6. Vehicles in training areas must have the vehicle copy of the 
hunter registration form clearly displayed on the dash and hunter copy 
on person at all times.
    2.7. The speed limit on FHL is 10 mph when passing troops and 25 
mph in all other areas, unless posted otherwise.
    2.8. Report uncontrolled fires, the location of unexploded 
munitions, and any observed violations of Federal, State or FHL 
Regulations to: Law Enforcement Activity (LEA), phone # (831) 386-2513 
or (831) 386-2526
    3. Training areas:
    3.1. FHL is broken into 29 training areas, a cantonment, and ASP.
    4. Firearms:
    4.1. Handguns may be used per state regulations, but must have 
barrels 6 (six inches) or longer and be .38 caliber or larger (.243 
or larger in rifle caliber used for handguns). Handguns in a vehicle 
must be in a locked container and unloaded (chamber and magazine).
    4.2. Rifles of 22 rimfire-caliber are allowed only for hunting tree 
squirrel and rabbit.
    4.3. Tracking Wounded Game: Hunters may not track wounded animals 
into a closed area unless accompanied by law enforcement personnel. If 
wounded game goes off the installation, it is the hunter's 
responsibility to obtain permission or access from the landowner.
    4.4. Tree Stands may be used if they cause no damage and are 
completely removed each day at the close of hunting hours.
    5. Safety:
    5.1. Hunters may not hunt near soldiers. If soldiers are sighted, 
the hunter must exit the area and notify FHL Range Control (831) 386-
2403, Law Enforcement Activity (831) 386-2526, or Wildlife Check 
Station (831) 386-2677.
    5.2. Check in to ensure that you do not enter training areas in 
which live fire exercises are being conducted.
    5.3. Check out to ensure that someone will look for you if you are 
injured or stranded on range.

      FORT HUNTER LIGGETT HUNTING AND FISHING AREAS AVAILABLE FOR 
               THURSDAY MAY 11 THROUGH THURSDAY 18, 2006

    1. Information regarding training-areas and reservoirs available 
for hunting and fishing, as well as registration hours are also posted 
on our web site and normally updated by 5:00 pm on Thursdays.
    2. All permit applications will be accepted by mail only.
    3. Hunting opportunities for this weekend include: Wild Pig, 
Jackrabbit, Coyote.
    4. Training areas are available for General hunting Saturday May 
13th, and Sunday May 14th, 2006 include: 4, 5, 8, 9, 10/13, 11, 14, 15, 
16, 17, 18, 19, 23, 24, 25, 26, 28, and 30.
    Training area availability will be very limited or not available 
during most weekends in June, July, and August due to training 
activity. Access to training area will be very limited during the A-
Zone archery deer hunt and no training area access during the first 3 
weekends of the A-Zone general deer hunt.
    5. Due to Military training requirements or security reasons, 
training areas and reservoirs may be closed without a notice.
    6. Anglers register five days per week (Wednesday-Thursday) at the 
Hunting & Fishing registration center located on Alamo Road near the 
Fort Hunter Liggett main gate. Window hours will be from 8:00 am to 
4:30 pm on Wednesday and Thursday, Friday 9:00 am to 5:00 pm, with pre-
registration from 2:00 pm to 5:00 pm. Saturday & Sunday from 5:00 am to 
1:00 pm. Monday and Tuesday Anglers register at the Environmental 
Office (Building# 238) from 8:00 am to 4:30 pm.
    7. Reservoirs open for fishing Thursday May 11th through Thursday 
May 18th, 2006 include: Del Venturi, Gravel Pit Generals, Hughes, 
Woodrow, El Piojo, Sycamore, and Twin Valley.
    8. You may contact us at our email address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a120f140e141c1309123a16131d1d1f0e0e57">[email&#160;protected]</a>
emh1.army.mil.
    9. For more Hunting & Fishing program information or an application 
package, please visit our website at http://www.liggett.army.mil and 
click on the hunting and fishing link below the photographs to access 
the hunting and fishing program page. You may contact our staff at 
telephone number (831) 386-2677 or (831) 386-2214, during open business 
hours.
                                 ______
                                 
                   National Parks Conservation Association,
                                      Washington, DC, May 16, 2006.
Hon. Craig Thomas,

Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator: On behalf of the 327,000 members of the National 
Parks Conservation Association (NPCA), I am writing to express our 
strong support for S. Res. 468, a resolution supporting the National 
Park Service's continued administration of Channel Islands National 
Park, including Santa Rosa Island, in accordance with the laws, 
regulations and policies of the agency. NPCA commends Senators 
Feinstein and Boxer for introducing this important and timely 
legislation.
    The purpose of the Channel Islands National Park is ``to protect 
and interpret the internationally significant natural, scenic, 
wildlife, marine, ecological, historical, archeological, cultural, and 
scientific values of the Channel Islands.'' Santa Rosa Island, part of 
the Channel Islands National Park, is to be enjoyed by all Americans 
and should not be limited to a select few. NPCA is strongly opposed to 
recent legislative efforts to undermine a court-approved settlement to 
restore the natural resources on the island, and efforts to limit full 
public access. S. Res. 468 puts the Senate on record in strong support 
of restoring, managing, and providing public access to one of nation's 
treasures--Channel Islands National Park.
    Additionally, NPCA supports S. 2568 to establish the Captain John 
Smith Chesapeake National Historic Trail to link existing and new water 
trails in the basin. Currently, only about two percent of the 
Chesapeake Bay's extensive shoreline is accessible to the public. 
Creating the Captain John Smith Chesapeake National Historic Trail 
would successfully link existing Chesapeake Bay Gateway Network sites, 
while also providing public access and recreational opportunities in a 
cost-efficient and low-impact manner.
    While NPCA supports efforts to reauthorize the National Park System 
Advisory Board, we are unaware of the need to change the composition of 
the board, and are concerned with any efforts to reduce the number of 
required members with scientific expertise and natural and cultural 
resource management, as proposed in S. 2627.
    Finally, regarding S. 2419, NPCA supports enhancing interpretation 
for visitors to the National Mall's monuments and memorials, including 
the Vietnam War Memorial. While we understand members of Congress have 
expressed concerns about the length of time it has taken for 
construction of the visitor center to proceed, we believe that Congress 
should not waive environmental and historical requirements and should 
generally let standard procedures be followed. This legislation must 
not be considered to set any precedent for other proposals on the 
National Mall or other national park units.
            Sincerely,
                                           Blake A. Selzer,
                                              Legislative Director.
                                 ______
                                 
                                     Defenders of Wildlife,
                                      Washington, DC, May 15, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: On behalf of the 
nearly 500,000 members of Defenders of Wildlife, I am writing to 
express our strong opposition to Section 1036 of H.R. 5122, the 
National Defense Authorization Act for FY 2007, which would require the 
National Park Service to cease implementing its plan to eliminate non-
native deer and elk populations on Santa Rosa Island. Section 1036 
would harm native plants and animals on Santa Rosa Island, limit public 
access to this National Park, and undermine current efforts to recover 
the Channel Island fox, an endangered species. The Channel Island fox 
is also listed as threatened under the California State Endangered 
Species Act. This unique fox species is found nowhere else in the world 
and as such is California's only endemic carnivore.
    Defenders of Wildlife has been a participant in the recovery 
planning work for the Channel Island fox since 2000. Our California 
Representative, Cynthia Wilkerson participates in the Channel Island 
Fox Recovery Implementation Team which formed after the listing of four 
of the island fox subspecies as endangered under the Endangered Species 
Act in 2004. Section 1036, proposed by Representative Duncan Hunter, 
would undermine the immense amount of time and resources that have been 
spent to address the recovery needs of this species.
    The Channel Island fox has been bombarded by a host of ecological 
assaults that reflect the fragile nature of all island species. 
Widespread use of DDT in the 1950's and 1960's lead to the extirpation 
of bald eagles from the northern Channel Islands (Santa Rosa, Santa 
Cruz, and San Miguel). This opened the islands to invasion by golden 
eagles, a species not historically found on the islands. Golden eagles 
are known to feed on piglets and fawns, deer and elk carcasses, and 
island foxes. The island foxes did not evolve with aerial predators (as 
bald eagles are not known to eat foxes) and are therefore very 
susceptible to predation by golden eagles.
    The presence of golden eagles in the northern Channel Islands has 
been identified by the Recovery Team as the number one threat to island 
fox recovery. Since 1999, over 30 golden eagles have been removed from 
the northern islands and relocated successfully to northeast 
California. Currently there remain 2 active golden eagle territories on 
Santa Rosa. These eagles are known to prey on foxes on San Miguel 
Island as well. Juvenile bald eagles have been reintroduced to the 
Channel Islands and should begin to defend territories from golden 
eagles sometime in the summer of 2006 or 2007.
    In order for island fox recovery to succeed, introduced deer and 
elk must also be removed from the islands. Research by Paul Collins of 
the Santa Barbara Natural History Museum conducted on Santa Rosa Island 
revealed that mule deer fawns comprise 40% of prey remains at golden 
eagle nests. The recovery program for the island fox relies on the 
complete phase out of the non-native deer and elk populations by 2011. 
This provision was ratified by the United States District Court for the 
Central District of California through a settlement agreement approved 
in 1997.
    Recovery actions for the Channel Island fox have been extensive. 
Over the past 10 years, upwards of $3 million has been spent on captive 
breeding, golden eagle removal, bald eagle reintroduction, feral pig 
removal, and monitoring of foxes. Close to $1 million of this effort 
has been focused on removing golden eagles. To date, the recovery 
efforts have shown amazing progress and appear on track for success. 
Santa Rosa Island fox populations dropped from about 1500 in 1993 to 32 
captive individuals in the year 2000. No animals were left in the wild 
at that time. With the release of foxes bred in captivity, there were 
15 in the wild in 2004 and that number is currently up to 32. 
Similarly, the San Miguel fox population crashed from 450 in 1993 to 1 
wild individual and 28 in captivity in 2000. Last year there were 15 
wild foxes on San Miguel and this number is currently up to 40 due to 
release of some of the captive bred foxes. The success to date on all 
the northern islands would be jeopardized by the proposal to allow 
introduced deer and elk populations to continue to exist on Santa Rosa 
Island. It should be noted that maintaining introduced deer and elk 
populations on Santa Rosa Island, and consequent feeding on deer and 
elk fawns and carcasses by golden eagles, poses a threat to 3 separate 
endangered subspecies of Channel Island fox as golden eagles are known 
to fly between islands and golden eagles on Santa Rosa Island have been 
known to kill foxes on San Miguel and also threaten those on Santa Cruz 
Island.
    The current court settlement regarding hunting on Santa Rosa Island 
requires that Vail & Vickers Inc., which owned the island since 1902 
and sold it to the National Park Service in 1986 for about $30 million, 
phase out deer and elk hunting by 2011. The proposal by Representative 
Hunter would prohibit this phase out entirely. This appears to be an 
attempt to secure indefinite revenues to a private hunting operation 
that has already been paid for its land and use rights by the public 
through the National Park Service. Additionally, the Hunter amendment 
would permanently close 90% of Santa Rosa Island to the public for 
nearly half the year as hunting areas are closed to the public during 
hunts. Maintaining populations of introduced species for the express 
purpose of hunting is contrary to the intended purpose of the island as 
a National Park.
    Last year, the Channel Islands National Park had more than 500,000 
visitors. Maintaining introduced deer and elk herds for private hunting 
conflicts with this public use would derail recovery efforts for 10 
species of imperiled plants as well.
    In short, Section 1036 of H.R. 5122 would represent an 
irresponsible misallocation of public funds, undermine the ongoing and 
successful work to recovery the federally endangered Channel Island fox 
and other imperiled species, and greatly reduce the public's access to 
the Channel Islands National Park. Defenders of Wildlife strongly 
opposes this provision and urges its removal from the final bill.
    Please feel free to contact our staff Cynthia Wilkerson directly 
should you have any questions regarding this matter. She can be reached 
at 916-313-5800 ext.110 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caa9bda6a1afb8b9a5a48aaeafacafa4aeafb8b9e4a5b8ade4">[email&#160;protected]</a>
            Sincerely,
                                     Jamie Rappaport Clark,
                                          Executive Vice President.
                                 ______
                                 
    Statement of the Center For Biological Diversity, Defenders of 
  Wildlife, Endangered Species Coalition, Federation of Fly Fishers: 
   Northern California Council, Humane Society of the United States, 
Institute for Wildlife Studies, National Environmental Trust, National 
  Parks Conservation Association, Native Plant Conservation Campaign, 
       Natural Resources Defense Council, The Wilderness Society
   please oppose destructive channel islands national park provision 
               in the fy 2007 defense authorization bill
    On behalf of the millions of members represented by our 
organizations, we write to express our strong opposition to Section 
1036 of the FY 2007 Defense Authorization Bill put forth by 
Representative Duncan Hunter concerning Santa Rosa Island, part of the 
Channel Islands National Park.
    Section 1036 would counteract restoration efforts at the national 
park, as well as decrease public access to the park. The proposal 
represents a severe threat to the recovery and survival of 3 subspecies 
of the island fox that are each listed as endangered under the federal 
Endangered Species Act. This unique fox species is found nowhere else 
in the world and only 32 wild foxes currently exist on Santa Rosa 
Island. The proposal would undermine the immense amount of time and 
resources that have been spent to address the recovery needs of this 
species on the island.
    The provision would close off a portion of the island to the 
public, and undermine a court ordered settlement that calls for the 
phase out of hunting on the island over the next five years. The 
current court settlement regarding hunting on Santa Rosa Island 
requires that Vail & Vickers Inc., which owned the island since 1902 
and sold it to the National Park Service in 1986 for about $30 million, 
phase out deer and elk hunting by 2011. The hunting currently prohibits 
full public access to the park as portions open to hunting are closed 
to the public. Maintaining populations of non-native species for the 
expressed purpose of hunting is contrary to the intended purpose of the 
island as a national park.
    In short, Section 1036 of the FY Defense Authorization Bill would 
undermine the on-going and successful work to restore the island, 
including the recovery of the federally endangered Channel Island fox, 
and greatly reduce the accessibility and ultimate value of the Channel 
Islands National Park.
    The National Park Service is strongly opposed to this provision and 
the Defense Department has not requested it. We strongly urge you to 
oppose this unnecessary provision that will harm both restoration and 
public access on one of our nation's crown jewels, the Channel Islands 
National Park.
                                 ______
                                 
   A Resolution of the Board Of Supervisors of the County of Ventura 
  Opposing Removal of Santa Rosa Island from Channel Islands National 
                                  Park
    Whereas, Santa Rosa Island is the second largest of the Channel 
Islands and contains 11 endangered species, unique species not found 
elsewhere, and provides unparalleled recreational opportunities to the 
American general public, and
    Whereas, numerous military bases throughout California provide 
ample training and other opportunities and in fact the Department of 
Defense is reducing the number of military bases in California and 
throughout the nation, and
    Whereas two of the Channel Islands, San Nicholas and San Clemente 
Islands, are already military reserves, and
    Whereas, the Board of Supervisors supports, encourages, and 
welcomes the relaxation and recreation of military service personnel, 
veterans, and their guests at any and all parks in Ventura County, and
    Whereas, Congress purchased Santa Rosa Island for the purpose of 
restoring its native ecology and making it available to the American 
pubic for recreation and the Ventura County Board of Supervisors 
strongly supports these objectives, and
    Whereas, Santa Rosa island best serves the United States of America 
as a National Park that preserves the Islands' character as North 
America's Galapagos Islands.
    NOW, THEREFORE, BE IT RESOLVED that the Board of Supervisors of the 
County of Ventura supports the continued inclusion of Santa Rosa island 
in Channel Islands National Park and its management by the National 
Park Service and opposes any change in this status of Santa Rosa 
Island.
    Upon motion of Supervisor Bennett, seconded by Supervisor Mikels, 
and duly carried, the foregoing resolution was approved on January 24, 
2006.

                                                Linda Park,
                                       Chair, Board of Supervisors.
            ATTEST:
                                          John F. Johnston,
                                 Clerk of the Board of Supervisors.
                                 ______
                                 
                       National Coalition to Save Our Mall,
                                      Washington, DC, May 15, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Committee Members: The National Coalition 
to Save Our Mall strongly believes that the Vietnam Veterans Memorial 
Visitor Center bill proposed by the House, which is the subject of this 
hearing, is bad legislation and sets a dangerous precedent. It will 
open the floodgates for potentially endless violations of the 
moratorium, in effect making the moratorium moot.
    We agree with your own comment from February 16, 2006, that ``it's 
time to take another serious look at the Mall as was done in 1901 . . . 
the Mall has outgrown its britches and it will take more than a new 
belt and suspenders to fix it.'' We believe that this hearing is an 
opportunity for the Committee to call for an independent National Mall 
Commission that would fulfill a series of goals for the Mall's many 
constituencies:

    1. Congress needs space for museums and monuments ``on the Mall.'' 
            The moratorium is not working: sponsors are reluctant to 
            accept sites off the Mall; exceptions are being made. The 
            Mall is more than a ``completed work of civic art,'' it 
            needs to respond to our ever-evolving democracy. The Mall 
            needs to expand to provide new sites.
    2. The public needs visitor amenities, orientation, historical 
            interpretation, transportation, and more things to do on 
            the open space. The Mall needs public programming aimed at 
            improving and expanding its urban park quality and 
            providing recreational and cultural activities day and 
            night.
    3. Organizers of modern mega events and festivals need places for 
            trucks, large tents, and construction that don't damage the 
            Mall's turf grass and trees and obstruct the majestic 
            vista. The Mall needs new areas, covered and open-air, to 
            accommodate national large-scale functions never foreseen 
            in the L'Enfant and McMillan Plans.
    4. The six managing agencies with jurisdiction over different parts 
            of the Mall need a means of coordinating their ongoing, 
            individual planning efforts (currently they don't even 
            agree on a definition of the Mall); the last comprehensive 
            plan for the Mall was the McMillan Plan of 1901-1902. 
            Uncoordinated security gives this problem urgency. The Mall 
            needs an up-to-date, comprehensive Third Century master 
            plan that provides a Mall-wide context for the agencies' 
            individual jurisdiction plans.
    5. The Third Century Mall master plan, in order to be intelligently 
            implemented in association with the six managing agencies, 
            needs a single entity to function as steward of that plan. 
            That entity needs authority to obtain public and private 
            funding, coordinate implementation and enforce compliance 
            with the plan, and provide meaningful national public 
            involvement.
    6. As a first step toward achieving these goals, the American 
            people need a forward-looking vision for the Third Century 
            Mall that includes Mall expansion and unified stewardship. 
            The Third Century Vision should embody the spirit, 
            inspiration, and enduring value of our democracy, and the 
            central place of this great public open space as grand 
            stage where Americans learn, meet, celebrate achievements, 
            play, and seek redress of grievances in a national 
            spotlight.

    We hope that you and fellow Committee Members recognize the urgency 
of the Mall's need and will create an independent Third Century Mall 
Commission to expand the definition of the Mall, prepare an updated 
Mall master plan, and unify Mall stewardship in a way that includes 
meaningful public involvement.
    The Vietnam Veterans Memorial Visitor Center legislation violates 
the very spirit of the National Mall as symbol of American government 
and the rule of law. If passed, it would undermine the right of public 
participation in a fair, mandated administrative review process, which 
is one of the most important democratic values that our veterans fought 
and died for.
    Please feel free to call on us if we can be of assistance.
            Sincerely,
                                   W. Kent Cooper, FAIA,
                                           Coordinator, Third Century 
                                               Initiative,

                                   Judy Scott Feldman, Ph.D.
                                           Chair.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
